<html>
<title> - ENSURING COMPATIBILITY WITH ENHANCED 911 EMERGENCY CALLING SYSTEMS: A PROGRESS REPORT</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]




 ENSURING COMPATIBILITY WITH ENHANCED 911 EMERGENCY CALLING SYSTEMS: A 
                            PROGRESS REPORT

=======================================================================

                                HEARING

                               before the

          SUBCOMMITTEE ON TELECOMMUNICATIONS AND THE INTERNET

                                 of the

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 14, 2001

                               __________

                           Serial No. 107-31

                               __________

       Printed for the use of the Committee on Energy and Commerce


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house

                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
73-728PS                    WASHINGTON : 2001
_______________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Printing 
                                 Office
Internet: bookstore.gpo.gov  Phone: (202) 512-1800  Fax: (202) 512-2250
               Mail: Stop SSOP, Washington, DC 20402-0001
                    ------------------------------  




                    COMMITTEE ON ENERGY AND COMMERCE

               W.J. ``BILLY'' TAUZIN, Louisiana, Chairman

MICHAEL BILIRAKIS, Florida           JOHN D. DINGELL, Michigan
JOE BARTON, Texas                    HENRY A. WAXMAN, California
FRED UPTON, Michigan                 EDWARD J. MARKEY, Massachusetts
CLIFF STEARNS, Florida               RALPH M. HALL, Texas
PAUL E. GILLMOR, Ohio                RICK BOUCHER, Virginia
JAMES C. GREENWOOD, Pennsylvania     EDOLPHUS TOWNS, New York
CHRISTOPHER COX, California          FRANK PALLONE, Jr., New Jersey
NATHAN DEAL, Georgia                 SHERROD BROWN, Ohio
STEVE LARGENT, Oklahoma              BART GORDON, Tennessee
RICHARD BURR, North Carolina         PETER DEUTSCH, Florida
ED WHITFIELD, Kentucky               BOBBY L. RUSH, Illinois
GREG GANSKE, Iowa                    ANNA G. ESHOO, California
CHARLIE NORWOOD, Georgia             BART STUPAK, Michigan
BARBARA CUBIN, Wyoming               ELIOT L. ENGEL, New York
JOHN SHIMKUS, Illinois               TOM SAWYER, Ohio
HEATHER WILSON, New Mexico           ALBERT R. WYNN, Maryland
JOHN B. SHADEGG, Arizona             GENE GREEN, Texas
CHARLES ``CHIP'' PICKERING,          KAREN McCARTHY, Missouri
Mississippi                          TED STRICKLAND, Ohio
VITO FOSSELLA, New York              DIANA DeGETTE, Colorado
ROY BLUNT, Missouri                  THOMAS M. BARRETT, Wisconsin
TOM DAVIS, Virginia                  BILL LUTHER, Minnesota
ED BRYANT, Tennessee                 LOIS CAPPS, California
ROBERT L. EHRLICH, Jr., Maryland     MICHAEL F. DOYLE, Pennsylvania
STEVE BUYER, Indiana                 CHRISTOPHER JOHN, Louisiana
GEORGE RADANOVICH, California        JANE HARMAN, California
CHARLES F. BASS, New Hampshire
JOSEPH R. PITTS, Pennsylvania
MARY BONO, California
GREG WALDEN, Oregon
LEE TERRY, Nebraska

                  David V. Marventano, Staff Director

                   James D. Barnette, General Counsel

      Reid P.F. Stuntz, Minority Staff Director and Chief Counsel

                                 ______

          Subcommittee on Telecommunications and the Internet

                     FRED UPTON, Michigan, Chairman

MICHAEL BILIRAKIS, Florida           EDWARD J. MARKEY, Massachusetts
JOE BARTON, Texas                    BART GORDON, Tennessee
CLIFF STEARNS, Florida               BOBBY L. RUSH, Illinois
  Vice Chairman                      ANNA G. ESHOO, California
PAUL E. GILLMOR, Ohio                ELIOT L. ENGEL, New York
CHRISTOPHER COX, California          GENE GREEN, Texas
NATHAN DEAL, Georgia                 KAREN McCARTHY, Missouri
STEVE LARGENT, Oklahoma              BILL LUTHER, Minnesota
BARBARA CUBIN, Wyoming               BART STUPAK, Michigan
JOHN SHIMKUS, Illinois               DIANA DeGETTE, Colorado
HEATHER WILSON, New Mexico           JANE HARMAN, California
CHARLES ``CHIP'' PICKERING,          RICK BOUCHER, Virginia
Mississippi                          SHERROD BROWN, Ohio
VITO FOSSELLA, New York              TOM SAWYER, Ohio
TOM DAVIS, Virginia                  JOHN D. DINGELL, Michigan,
ROY BLUNT, Missouri                    (Ex Officio)
ROBERT L. EHRLICH, Jr., Maryland
LEE TERRY, Nebraska
W.J. ``BILLY'' TAUZIN, Louisiana
  (Ex Officio)

                                  (ii)


                            C O N T E N T S

                               __________
                                                                   Page

Testimony of:
    Amarosa, Michael, Vice President, Public Affairs, 
      TruePosition...............................................    12
    Clark, Steve, Vice President, Network Operations, U.S. 
      Cellular...................................................    18
    Nixon, James A., Senior Manager, Regulatory Affairs, 
      VoiceStream Wireless.......................................    27
    Rimkus, Andrew J., Vice President, Airbiquity, Inc...........    24
    Souder, Steve, Administrator, Arlington County 9-1-1 
      Emergency Communications Center............................    35
    Sugrue, Thomas J., Chief, Wireless Telecommunications Bureau.    40

                                 (iii)

  

 
 ENSURING COMPATIBILITY WITH ENHANCED 911 EMERGENCY CALLING SYSTEMS: A 
                            PROGRESS REPORT

                              ----------                              


                        THURSDAY, JUNE 14, 2001

              House of Representatives,    
              Committee on Energy and Commerce,    
                     Subcommittee on Telecommunications    
                                           and the Internet
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 2123, Rayburn House Office Building, Hon. Fred Upton 
(chairman) presiding.
    Members present: Representatives Upton, Largent, Shimkus, 
Pickering, Terry, Markey, Eshoo, Green, McCarthy, Luther, 
Harman, and Sawyer.
    Staff present: Howard Waltzman, majority counsel; Yong 
Choe, legislative Clerk; and Brendan Kelsay, minority 
professional staff.
    Mr. Upton. Good morning, everyone. Welcome. Before we 
proceed with opening statements I want to show a brief newsclip 
from the Fox News which shows a real life example of a 911 
emergency. Why don't you turn off the lights. It's about 2 
minutes long.
    [TV replay of newsclip.]
    Mr. Upton. Again, good morning. As subcommittee chair, I've 
made one of my top priorities finding ways to improve people's 
lives through technology and E911 technology is certainly a 
class example of this.
    The topic of today's hearing is one of the most compelling 
to come before the subcommittee this year. This is a topic that 
certainly hits home as I've used my cell phone to call 911 
three times, most recently in April. While traveling through a 
rural part of my District, I witnessed a terrible car accident 
involving seven people. Everyone did survive the crash, 
although a number of them are still recovering, but I can tell 
you one thing for sure. Because I knew exactly where I was the 
County Emergency Services people were able to respond quickly, 
thereby increasing the survival rate of those involved.
    But what if I wasn't able to pinpoint the location of that 
accident? There's a very dangerous false notion among many in 
America that when you call 911 from your cell phone, the 
operator on the other end of the line knows exactly where 
you're calling from. With cellular technology becoming more and 
more available, nearly 60 percent of the calls made to 911 
centers are made from cell phones.
    While preparing for today's hearing, I've come across many 
sad stories from my State where people have died of heart 
attacks, other accidents, while snowmobiling, even though they 
called 911. And like many others, they assumed that because 
they called 911, the operator, in fact, would be able to locate 
them. Well, they were wrong. Tragically, there are hundreds of 
stories just like this. The bright spot on the horizon is that 
technology exists to pinpoint a caller's location, but unlike 
wire line phones, automatic location identification is not yet 
widely transmitted to the 911 dispatch center. But thanks to 
the Wireless Communications and Public Service Act, we are 
getting closer to the day when this will be the standard.
    Today, we'll find out just how close we are to that day. We 
know that the FCC has set October 1 of this year as the day 
when wireless carriers are required to begin providing 
automatic location identification as part of Phase 2 E911 
implementation. What will all of this mean once it's up and 
running? Based on the required Phase 2 accuracy standards, 
handset solutions should be able to provide location 
information within 50 meters for 67 percent of the calls and 
150 meters for 95 percent of the calls. For network based 
solutions it should be within 100 meters for 67 percent of 
calls and 300 meters for 95 percent of the calls. To those 
observing outside of Washington, at first blush today's hearing 
may seem technical and abstract, but it's not. As we go forward 
today I would like to put the panel's testimony in context. I 
want to put a face on the issue. It's the face of the loved 
ones who might be saved when E911 is there to assist emergency 
services personnel in finding those in trouble.
    I should note that this is an ambitious plan. The U.S. is a 
leader in this area and it's absolutely the right thing to do. 
Adding E911 to our arsenal of rescue capabilities will even 
further distinguish our country in that regard. I understand 
that there are financial burdens on both carriers and local 
governments, not to mention significant long-term planning 
which factors into all of this. For sure, the technology is 
complex and evolving and the complexity is compounded by the 
variety of options which wireless carriers are mulling over as 
they plan for the next generation of services, making the 
tangled web of decision all the more daunting with October 
rapidly approaching.
    We cannot ignore those realities and we cannot let the 
realities take our eye off the ball either. We know that some 
carriers have already requested waivers. Some have not. Some 
still may and I would imagine that a number of our 911 
emergency centers at home will be ready to roll much quicker 
than perhaps some others. But today we want to get a status 
check on all of that to find out where we are today and what, 
if anything, needs to be done to ensure what we are doing to 
reach the goal line and save lives in as timely a manner as 
possible.
    I look forward to the testimony today and I yield to the 
ranking member, Mr. Markey.
    Mr. Markey. Thank you, Mr. Chairman, and I want to commend 
you for holding this hearing today. The Federal Communications 
Commission first adopted wireless E911 rules 5 years ago. This 
government-driven effort was intended to spur the deployment of 
life saving technology, technology that would help locate 
wireless callers during emergencies.
    In 1995, when the rules were first adopted, there were 
roughly 30 million wireless consumers in the United States. 
Today, there are well over 100 million wireless consumers. 
While the Commission's rules are in place, the end of the first 
5 year developmental period is coming to a close and the phase 
in of E911 technology is due to commence on October 1, 2001. 
The FCC and Congress have used these 5 years wisely, in my 
view. The Commission adjusted its rules as technology evolved 
to permit not only the use of network based location 
technology, but also handset based technology which typically 
employ use of global positioning system technology in the 
wireless device.
    Congress, meanwhile, moved to enact legislation that 
designated 911 as the national number for wireless emergency 
calls promoted limited liability protection for carriers and 
establish privacy protection for consumers. Without question, 
there are challenges involved in deploying any new technology 
in a timely fashion across a market base of tens of millions of 
consumes. A number of carriers have sought waivers from the 
October 1 deadline and at least one carrier has received a 
limited waiver. When there are truly compelling reasons to 
grant such waivers, I am confident that the Commission will 
give such requests all due consideration. I would suggest, 
however, that the industry should not seek nor should the 
Commission grant waivers to the rule merely for corporate 
convenience. We should not allow such an important policy 
effort to be undermined by a manana syndrome. I have no doubt 
many carriers would prefer not to expend resources now if they 
can postpone it to another quarter. That is understandable, 
from a corporate perspective, yet we need to keep this issue in 
context.
    The wireless industry often markets their phones as safety 
devices. Millions of consumes become subscribers with safety as 
a leading rationale for their purpose. There are many cases 
already where wireless phones have enhanced public safety and 
saved lives. We've already heard about some of those instances 
this morning. We want to build on that record. It is important 
for the industry which every day endeavors to become an 
indispensable agent of the new economy and a fungible 
substitute for traditional wire line technology to deliver on 
the promise of what this technology can do to save lives.
    Second, the wireless technology requires to make location 
of callers available to public safety officials already exists. 
There are a number of companies that took the FCC's initiative 
and deadlined seriously and began to develop products and to 
innovate. These companies have already expended millions of 
dollars to develop these products based upon the FCC's rules. 
We have witnesses today from a couple of such companies to 
testify to this fact this morning. In addition, while some in 
the industry seem to wring their hands over costs and the 
technological impediments to deployment of E911 systems, they 
seemingly have no such concerns when it comes to the costs of 
technological impediments to mass market deployment of new 
technology when it comes to 3-G, a so-called third generation 
wireless technology. The wireless industry doesn't want the 
government to wait for manana when it comes to 3G. They want 
spectrum today. They stipulate that it is a national priority. 
It is such a priority that they want the government to take 
spectrum allocated to other users away and move other users in 
order to reallocate it for 3G services. That's some request and 
the government is prepared to move on that request. I am 
supportive of obtaining more spectrum for 3G. I would simply 
like to see the same alacrity and aggressiveness in deployment 
of public safety enhancing technology that I see in their 3G 
efforts.
    As a final point, I want to make two statements to commend 
the FCC and the industry. First, the wireless industry needs to 
commended for the way in which they have handled the thorny 
issues surrounding privacy and the new wireless location 
technology. I offer the amendment to the E911 legislation that 
required carriers to obtain prior express authorization of the 
consumer before location data on wireless consumers could be 
collected used or disclosed. The wireless industry has embraced 
this policy and has worked diligently, in my view to make it 
work.
    I look forward to the FCC's implementation of the statute 
and my provision and to working with the wireless industry 
subsequently at the Federal Trade Commission to ensure that all 
marketplace participants operate under equitable and pro-
consumer privacy rules.
    Finally, I would like to commend the FCC and the Wireless 
Bureau, in particular, for their proactive efforts to make E911 
a reality for the nation. Next Tuesday, this committee will be 
holding a hearing on the Ford Explorer Firestone tire issues. 
What became evident to many of us last year was that the 
Federal agency responsible for this industry failed to 
adequately protect the public and was woefully deficient in 
proactively promoting public safety. Such has not been the case 
at the Federal Communications Commission. There are few areas 
in telecommunications policy where we can see a direct causal 
connection between policy decisions we make and the benefit to 
individual Americans. This is one of those areas. The FCC 
initiative, without question will save lives. It will help 
police and fire officials to do their job better. I encourage 
the FCC to stay the course and to keep moving forward on this 
issue. Again, Mr. Chairman, I want to thank you for holding 
this hearing today.
    Mr. Upton. Thank you, Mr. Markey. Mr. Terry from Nebraska.
    Mr. Terry. Thank you. I'll make my remarks succinct, 
hopefully. I will start with a conclusion and that conclusion 
is that cell phones have been adopted by our society as a basic 
safety tool. I'll give two experiences to back that up. I come 
from a City Council, Omaha, Nebraska City Council. I spent 8 
years to help develop our 911 Center. As I was putting that 
together, going to a unified approach, 800 megahertz and all of 
that, one of the interesting things I found out is what happens 
when an accident occurs in the city. We get about 30 calls all 
at one time. What that means to me is that people travel with 
their cell phones with the intention of using them as a safety 
device. Fred, you mentioned the experience you had on three 
occasions using it. Likewise, I had an experience coming from 
our family cabin in Colorado. I'm on I-70 in the middle of 
nowhere in the middle of the night and up ahead of me you have 
that gut wrenching experience of all of a sudden seeing 
headlights go up and then sideways in clouds of dust, right in 
front of you. I didn't know exact location. This happened about 
four summers ago, by the way. I had our cell phone. I dialed 
911. It was a bizarre experience. Because what I got was a 
county operator who grew frustrated that I didn't know where I 
was other than saying I think I'm about 45 minutes outside of 
Denver maybe an hour, traveling east. Well, that isn't our 
jurisdiction. You have to either call this number, not a 911 
number, but started reading a series of phone numbers that I 
was supposed to call until I hit the right jurisdiction and 
that was the best that they could do for me. In the meantime, 
my cell phone battery is getting that little bleep in there and 
I could not connect to the right jurisdiction at that time. 
While there are bodies laying on the highway, literally, I'm 
not exaggerating, people unconscious laying in the highway in 
front of me and I had to go through a miserable process of 
trying to get them help. Fortunately, someone else had a cell 
phone at the same time and they were able to go through the 
correct litany and finally help arrived, helicopters, the whole 
nine yards. But it told me that not only again reinforcing that 
cell phones are a basic tool and integral part of safety tool 
in our society today, but that we have to encourage the 
advancement of technology so that we can locate people, that we 
can more helpful in making sure that in the middle of nowhere, 
whether it's a car accident on I-70 in eastern Colorado or the 
hills of Michigan when you're snowmobiling that you can get 
help there in a timely manner and they know where to go.
    In that regard, how we transition this technology, waivers, 
whatever, I will always keep in mind that this is public safety 
that we're looking at and the technology in order to improve 
public safety. Sure, there can be give and take and yes, there 
can be compromise, but you've always got to keep in mind those 
people laying on the side of the road or by their snowmobile 
tragically hurt that need help. So that will be my focal point 
as we discuss this important issue today and I yield back.
    Mr. Upton. Thank you. Mr. Sawyer.
    Mr. Sawyer. Thank you, Mr. Chairman. I will submit my 
opening statement for the record, but I would like to make a 
couple of observations. I think it's important to recognize 
that 911 has been with us for a relatively brief period of 
time. It was marginally within the last 20 years that most of 
this has been implemented across the United States. That 
technology has improved markedly the ability to in many, 
particularly urban jurisdictions to develop appropriate 
jurisdictional identifiers, to transfer responsibility for 
answering calls or implementing mutual assistance arrangements 
among jurisdictions, all have been on the human side of going 
toward making this technology a useful tool in public safety 
and law enforcement for that matter.
    The technology that we're talking about in terms of whether 
it's triangulation of geopositioning technology, you have to 
remember is an imperfect technology applied to an imperfect 
technology. How many of us have had the frustration of sitting 
there talking on the phone and someone on the other end saying 
I simply can't hear you. The real concern that I have is that 
in implementing the technology that people understand that the 
simple dialing of a number may not make the connection that you 
need and that if you are in a particularly dire circumstance, 
that you may actually have to go through and make a personal 
connection in order to carry out the kind of contact that the 
technology suggests ought to be easy. That's not to argue 
against timely implementation of this, but it is rather to 
recognize that all of us have an obligation to make users of 
cell phones who seek to implement 911 contact aware that it may 
not have been a success and that they need to verify it's 
completion.
    With that, Mr. Chairman, I yield back.
    Mr. Upton. Thank you. Ms. Eshoo.
    Ms. Eshoo. Thank you, Mr. Chairman, and first I want to 
thank you for having the hearing and second for the goals that 
you set forth as Chairman of our subcommittee. It's refreshing 
to hear that the applications of technology, as you stated them 
for the betterment of the people of our country. I mean we say 
we want that and today's hearing is really all about that, so I 
want to thank you for both.
    It's really of the utmost importance that we examine why 
the American public may be forced to wait even longer for 
access to the lifesaving technology that we've seen 
demonstrated, both on the screen this morning, that's been 
referenced by my colleagues.
    Wire communications have been a boon for safety and to 
safety and if there are two things that we're responsible for 
in this country in the public sector it's public health and 
public safety, certainly in Congress, the defense of our 
nation, but these two principles we really need to make good 
on. And I'm afraid that we're lagging on both fronts. Today, we 
talk about minutes. We have made progress because it wasn't all 
that long ago that we talked about hours. It's pretty clear 
that wireless technologies can and do save lives.
    By now, we've heard numerous stories about people's lives 
that have been saved and I know that the Wireless Foundation 
honored heroes from all over the country, all 50 States for 
their use of cell phones and getting emergency service to those 
in need very recently, so I want to point that out because I 
think it's very important that they do it and that it 
highlights both the technology and how people are using it.
    However, with the significant increase in emergency calls 
made from cell phones we also hear about the unfortunate people 
and the unfortunate stories made from cell phones where they 
didn't work or they didn't make the connection that they needed 
to make in the time that was at hand. So oftentimes the 
accident area is known, as my colleague just talked about, but 
the specific location is not and that can mean life or death, 
so the need for location technology is really immense.
    The need is also not new. Five years ago, as a new member 
of this committee, I introduced legislation to require location 
monitoring in every cell phone. The FCC decided to act. They 
established October of this year as the deadline when mobile 
phone carriers must provide automatic location information to 
at least 50 percent of the population served by the Emergency 
Call Center, so goals were set, legislation was introduced that 
nudged and the FCC picked up on that and I was thrilled. Every 
time the FCC came before the committee, regardless of the 
issue, I would ask them on an update in this effort.
    So as we approach the deadline, I don't think we're seeing 
compliance, but rather waivers and we know that waivers equal 
delay. The FCC has received waiver requests from companies 
asking for extensions of time. I think today we want to examine 
why. Is it simply delay, not enough resources put into this? Is 
it, as I would have said to my kids, is this an excuse? How far 
along are we? If you put X number of dollars of resources into 
this, how close do we come, by when to this 50 percent goal in 
October 2001?
    I think that my colleagues have stated the case very well 
so far. I hope you think that I have. I want to hear back from 
you how many of you are requesting waivers and why? how close 
are you and by when? Do you think that we'll ever have to 
hearing on this again, given what you tell us?
    I think people in the country are awaiting the good news. 
None of us know when we are the ones that will have to be 
reliant on this and I dare say that women especially have 
bought into the wireless industry so that they have that 
security in their hand, to dial 911 and to receive the help 
that they're looking for. So that's what I hope you'll address 
today, and if you don't, I'm going to ask you, but I hope 
you'll volunteer the information before the question is asked 
and I thank the Chairman again for holding this hearing. It's 
an all time important one.
    [The prepared statement of Hon. Anna G. Eshoo follows:]
Prepared Statement of Hon. Anna G. Eshoo, a Representative in Congress 
                      from the State of California
    Thank you Mr. Chairman for calling this essential hearing. It is of 
the utmost importance that we examine why the American public may be 
forced to wait even longer for access to important life saving 
technology.
    Wireless communications have been a boon to safety. Because of 
wireless, the call for help comes far sooner than a decade ago. Today 
we talk about minutes . . . we used to talk about hours. Its pretty 
clear, wireless technologies can and do save lives.
    By now we have heard numerous stories of people saved by the use of 
their cell phones. In fact, just last week the Wireless Foundation 
honored heroes from all fifty states for their use of cell phones in 
getting emergency services to those in need. I applaud the wireless 
industry for improving our nation's safety and I look forward to this 
partnership continuing for years to come.
    However, with the significant increase in emergency calls made from 
cell phones we also hear about those unfortunate situations in which 
someone calls for emergency personnel and is not reached in time, 
mainly because he or she could not be located. Often times, the 
accident area is known, but the specific location is not. Clearly, the 
need for this location technology is immense.
    The need is also not new. Five years ago, after I introduced 
legislation to require location monitoring in every cell phone, the FCC 
decided to act. They established October of 2001 as the deadline when 
mobile phone carriers must provide automatic location information to at 
least 50 percent of the population served by the emergency call center.
    As we approach that deadline, we're not seeing compliance, but 
rather waivers which equal delay.
    The FCC has received waiver requests from companies asking for 
extensions of time. To its credit, it's required the submission of 
specific information such as timelines for compliance before granting 
the request. But what we need to find out is why these waivers are 
necessary in the first place. So today I'd like to hear from our 
witnesses how much they've actually spent over five years for 
deployment.
    The response of some may be that the FCC established a deadline 
that was too ambitious. When I hear that some technologies are simply 
awaiting use by the carriers, I can only conclude that it may be the 
carriers whose efforts haven't been ambitious enough. We've certainly 
heard quite a bit about the resources devoted to upgrading mobile 
systems to bring about the wonders of 3G devices, but for some reason 
the idea that lives can be saved through technology has not been a 
strong enough incentive.
    We are here today because the future of our nation's public safety 
and security systems are inevitably linked to wireless. And like 
wireless, we know the call for help can come at anytime from anywhere. 
There are 140,000 emergency wireless calls made every day. For the 
individual caller, it is the single most important call they will make 
and it is made with the expectation that it will be successful in 
bringing help. With so much weighing on that call, we cannot fail.

    Mr. Upton. Thank you. Mr. Largent.
    Mr. Largent. I yield.
    Mr. Upton. Mr. Shimkus.
    Mr. Shimkus. Thank you, Mr. Chairman. Just briefly, the 
E911 legislation we passed, I think was a significant piece of 
legislation that promoted good public policy and I was really 
pleased to be part of that. I've actually used 911 numerous, as 
many times we're on the road and it's just been amazing how it 
can help save life and limb.
    My colleagues have gone over some of the FCC deadlines and 
where we're at and we don't want to have another hearing to 
keeping following up. We'd like to see how far we're 
progressing and inquire about the Phase II standards.
    I would also like to use this opportunity to thank the 
cellular industry for the donate a phone program which I am 
heavily involved in and encourage my colleagues, if they 
haven't been involved with the donate a phone program. My 
colleagues, Ms. Eshoo mentioned about women being invested in 
life saving technology, well, the cellular industry helps us 
recycle phones and I do that in my office and we do that during 
our office hours and we collect, and you'd be shocked how many 
old cellular phones are out there and they recondition them and 
they give them back to abuse shelters and they reprogram about 
maybe three numbers, they speed down 911, maybe the housing 
shelter, maybe the local police, direct line call. I probably 
in my office, have probably donated hundreds of phones through 
my constituents back to the industry. I want to thank you. That 
kind of ties into this whole 911 issue. If we get to Phase II 
and we can do some location, then these women that are using 
it, mostly women in the abuse shelter, not only have the 
security of having something that they have from the time they 
leave their work to the time they get home, but also they know 
they can be easily identifiable in their location which is just 
added protection.
    So again, thank you all. I wanted to use that opportunity 
to plug that program and E911 is a good piece of legislation. 
Let's help us all get to Phase II as soon as possible and I 
yield back my time.
    Thank you.
    Mr. Upton. Thank you. Ms. McCarthy.
    Ms. McCarthy. Thank you, Mr. Chairman. I'm going to put my 
formal remarks in the record and just reflect on a point or two 
so we can get going and hearing from our panelists today and 
I'm very grateful that they're here.
    We, in Kansas City, have a unique challenge because we are 
metropolitan in two States, Kansas and Missouri come together 
there along the State line and road and a river. Neither of the 
General Assemblies, not in Kansas nor Missouri, have stepped up 
to the plate and been able to pass a bill to figure out how to 
pay for this unfunded Federal mandate that we set down. I am a 
big supporter of the bill and the effort. I think it's 
essential, but the costs are daunting. In our metropolitan 
area, we have 39 emergency dispatch centers in 8 counties that 
make up the metropolitan area and I'm very concerned. We do 
have a company in our metropolitan area, Sprint, that looks 
like it's going to be ready to go on the deadline. They've 
stepped up to the plate, but we haven't figured out how to 
upgrade and make it possible to use this service and when the 
Kansas City Star did an article reflecting on this dilemma, it 
pointed out that wireless carriers fought legislation in both 
States because they did not get the share of revenue that they 
wanted from the tax, said Greg Balentine, E911 manager for the 
Regional Planning Council. The FCC repeatedly has ruled to its 
credit that wireless service providers are not entitled to 
government cost recovery. ``Simply in both States, this is a 
matter of corporate profits winning out against public 
safety,'' Balentine said.
    I commend the FCC for trying to enforce the law we passed. 
If we need to give them more tools, Mr. Chairman, I hope we 
will look into that. I do not want to delay implementation, but 
I do think that this is a very serious issue and I'm so glad 
you're having the hearing today.
    Mr. Luther?
    Mr. Luther. Thank you, Mr. Chairman, and certainly 
appreciate the comments that have been made by other committee 
members. I'll be very brief as well. As has been stated this is 
a very serious public safety issue. I think the entire country 
is aware of the amount of resources the cell industry puts into 
marketing and certainly we are very well aware of the resources 
that are put into legislative efforts to get competitive 
advantages against other players in this arena. I think the 
Committee will want to be assured that the same level of 
resources commitment is being made on this key public safety 
issue and so I'll be looking forward to hearing and reviewing 
testimony of the witnesses and the other evidence presented in 
making this decision.
    Thank you, Mr. Chairman.
    Mr. Upton. Ms. Harman.
    Ms. Harman. Thank you, Mr. Chairman. I have a statement for 
the record, too, but would only make several points.
    First of all, I was not a member of this subcommittee or 
even a Member of Congress when the underlying legislation 
passed, although I think it was, is a very valuable piece of 
legislation.
    Second of all, I have two young daughters myself, and I 
believe that most of the people sitting before us have young 
daughters or mothers or whomever who need access to this 911 
service and I would just point out that these emergencies can't 
wait and that there is no excuse, as far as I'm concerned, good 
enough to justify letting these emergencies wait. And if it 
were your daughter or your mother or someone who could not get 
relief, you would be very upset. Apply that to all of our 
constituents and to the whole country out there that we are 
trying to serve.
    I come to this with the basic attitude that you have to 
make this work. There are issues about unfunded mandates. There 
are issues about competitive advantage. There are bureaucratic 
issues at the FCC. There are one hundred excuses, but I don't 
think as a basic point of view that any excuse is good enough 
to make this wait and I, as one member of this committee, stand 
ready to help you achieve the requirements in the law.
    Thank you, Mr. Chairman.
    Mr. Upton. I would just note for the record that there are 
a number of subcommittees that are meeting all at the same 
time, so by unanimous consent I will ask that all members of 
the subcommittee will be able to put in the record their 
opening statement.
    [Additional statements submitted for the record follow:]
 Prepared Statement of Hon. W.J. ``Billy'' Tauzin, Chairman, Committee 
                         on Energy and Commerce
    Mr. Chairman, thank you for holding this important hearing today. 
911 services in this country have saved many lives. And enhanced or 
E911 services offered by wireless carriers present us with the 
opportunity to save even more lives. So I commend you, Mr. Chairman, 
for conducting this progress report on wireless carriers' 
implementation of E911 requirements, especially so-called Phase II 
requirements.
    During the 106th Congress, this subcommittee and this committee 
worked very hard to enact the Wireless Communications and Public Safety 
Act. That legislation designated 911 as the universal emergency number 
for wireline and wireless services in the United States for reporting 
an emergency and requesting assistance. That legislation set the 
framework for providing consumers with rapid access to emergency 
personnel regardless of whether a consumer was in his or her home, 
driving down the street, or on the other side of the country.
    In addition, the FCC has been crafting E911 rules for the past five 
years. E911 services are particularly important because such services 
provide public safety answering points (PSAPs) with the telephone 
number of an emergency caller as well as an idea of the caller's 
location.
    It is the rules governing how accurately and how reliably a 
wireless carrier must pinpoint someone's location that bring us here 
today. These rules are ambitious. Phase II location accuracy and 
reliability rules require handset-based solutions to locate a caller 
within 50 meters for 67 percent of all calls, and 150 meters for 95 
percent of such calls. And, for network-based solutions, a wireless 
carrier must locate a caller within 100 meters for 67 percent of the 
calls, and within 300 meters for 95 percent of such calls.
    While these requirements are phased in, they nonetheless present 
carriers with a daunting task. The goal of these rules is to save as 
many lives as possible by enabling PSAPs to pinpoint the location of 
callers. But we need to make sure that these rules do not get ahead of 
both technology and common sense.
    We will hear today from several different sides whether the 
technology exists to meet the FCC's ambitious accuracy and reliability 
standards. But I also hope that today's testimony will shed light on 
the costs and feasibility of meeting these standards. The wireless 
industry has been one of the primary drivers of the growth of our 
economy, and it continues to grow at a phenomenal pace.
    But the wireless industry is also in the midst of significant 
change. Carriers are beginning to focus on the next generation of 
services, and the technology they will need to deploy the next 
generation of services. We need to be cognizant of the fact that the 
short-term goals of the FCC's E911 rules have an impact on the long-
term planning undertaken by carriers to prepare for advanced services. 
We must ensure that the E911 rules are not implemented at the expense 
of, but rather in conjunction with, potential upgrades of our nation's 
wireless services and infrastructure.
    I want to end my comments where I began: implementation of E911 
services will save countless lives. I commend all of the parties, the 
carriers, the PSAPs, the manufacturers, and the FCC, for years of 
effort to make wireless E911 a reality. And I encourage you to continue 
to work together to ensure that all Americans have access to E911 
services as quickly as possible.
    Mr. Chairman, thank you again for holding this hearing. I look 
forward to our witnesses' testimony and the light that they can shed on 
our progress in implementing the FCC's E911 rules.
                                 ______
                                 
 Prepared Statement of Hon. Eliot Engel, a Representative in Congress 
                       from the State of New York
    Thank you Mr. Chairman: The wireless revolution never ceases to 
amaze me. From the shrinking size of the phones to the rapidly 
expanding areas of coverage of service, this is a great American 
industry. It has a great deal to be of which to be proud.
    I want to thank our witnesses for their time and efforts and look 
forward to their testimony. I also look forward to speaking with Mr. 
Amarosa, who spent more than two decades working for the New York City 
911 center. I would like to work with him to bring his company to New 
York, so that he can return to his true home!
    Today we are looking into the development and deployment of the 
E911 system. I do understand that there are concerns about the use of a 
network system versus a handset based system. Though, the network 
system is more readily available, I do know the handset equipment is 
being manufactured. In reviewing the two systems, I think it is obvious 
that the handset system is the better way to go--not that it is 
technologically better, but it deals with one of this Congress' major 
challenges--Privacy.
    Many of my constituents have expressed concerns about having their 
movements monitored at all times--yet we all recognize the great 
benefits of this technology. Thus, as with many other parts of the 
technology revolution we must figure out how to balance these competing 
issues.
    As I understand the present two systems, the network system tracks 
a person's location at all times, whereas the handset system instead 
only activates when 911 is dialed if the chip is on the cell phone 
mother board, or if a button is pressed for units that are attached to 
an older hand set. At first glance, from privacy point of view, I 
believe the handset technology will be preferred by consumers.
    I want to take a minute to acknowledge the efforts of the wireless 
community. I have been very impressed by the Wireless Foundation's 
Heroes Awards programs--recognizing the efforts of ordinary people who 
used their cell phones to call for emergency medical aid, report a 
crime, or just help a neighbor. When the E911 system is fully deployed, 
these stories will become far more dramatic and far more numerous.
    I think of my daughter, who attends a school in upstate New York, 
driving back to the Bronx. What if she we to get lost and have a flat 
tire--out in the middle of no where--well compared to the Bronx anyway. 
With one simple call, she could get help from the police who would 
instantly know where she is. As a parent, I know it would provide a 
sense of comfort to me.
    So Mr. Chairman, I am excited about this latest development in the 
wireless industry. I can only say, we must deploy with all due haste!
                                 ______
                                 
    Prepared Statement of Hon. John D. Dingell, a Representative in 
                  Congress from the State of Michigan
    Mr. Chairman, I commend you for holding a hearing on an issue that 
directly affects the health and safety of all Americans.
    This Committee held its last hearing on the rollout of ``Enhanced 
911'' (E-911) systems nearly two years ago. Since that time, public 
safety agencies and wireless companies have made great progress toward 
deploying this life-saving service. But we are now less than four 
months away from the date wireless carriers are obligated to begin 
providing this service, and there is still much work to be done. 
Unfortunately, every day these systems are delayed, lives are 
jeopardized.
    Wireless phones have become an integral part of our lives. More 
than 100 million Americans own a wireless phone, and a growing number 
of those are actually giving up their wired phone entirely. While 
convenience certainly plays a role, research shows that the reason most 
often cited for purchasing a wireless phone is safety.
    In fact, today, one-third of all emergency 911 calls are made from 
wireless phones. Unlike traditional wireline 911 calls, these calls do 
not include essential information such as the location of the caller 
or, in many cases, a telephone number to call back in case of a hang-up 
or dropped call. The absence of this critical information wastes time. 
Wasted time costs lives.
    Medical professionals refer to the hour immediately following an 
accident as the ``golden hour.'' It is during this period that 
emergency personnel are most able to prevent permanent injury or death. 
Being able to pinpoint the location of a 911 call is, therefore, 
absolutely vital.
    I understand that many public safety agencies have expended a great 
deal of effort and capital to complete system upgrades in anticipation 
of the FCC's October 1st deadline, and many more are in the process of 
doing so. These investments are certainly in the public interest, and I 
commend them for their diligent work.
    On the carrier side, however, the situation is a bit more 
complicated. When the FCC issued its first E-911 order in 1996, the 
agency assumed the only way to locate a wireless phone was through a 
network-based system. But today, due to advances in Global Positioning 
Systems, it is possible to gather location information through the 
handset itself. The FCC has modified its compliance deadlines and 
standards to account for these changes in technology.
    While it certainly makes sense to adapt rules to conform to new 
technology, there is an inherent danger that final action will 
continually be postponed. In fact, the deadline for E-911 
implementation was delayed once before, and additional waivers are 
currently before the Commission.
    A balance must be struck between the need for speed, which saves 
lives, and the need for efficiency, which saves money. I urge the 
industry and the Commission to redouble their efforts to find the point 
at which both of these goals are properly maximized.
    Thank you again, Mr. Chairman, for holding this hearing, and I also 
express my appreciation to each of the witnesses for appearing today.

    Mr. Upton. You heard the buzzer sound. We have a series of 
votes, two of them, I understand, so we're going to take a 
brief recess and we will begin then with your opening 
statements on the panel and my guess is it will be about 5 
minutes after 11 when we start that period. So we'll stand 
adjourned until then.
    [Brief recess.]
    Mr. Upton. I suspect that we're going to have a vote in 
another hour or so, but we've got a little time and I want to 
say too from all of us on the dais, we appreciate you sending 
up your testimony within the rules. It makes it a lot better 
for all of us to take that testimony the night before and begin 
to look at it.
    Your full statements are made as part of the record. We'd 
like to limit your remarks to 5 minutes so you can go through 
your statement, summarize it, whatever you want to make your 
case.
    We're delighted to have as part of our panel Mr. Michael 
Amarosa, Vice President, Public Affairs of TruePosition; Mr. 
Steve Clark, Vice President of Network Operations, U.S. 
Cellular; Mr. James Nixon, Senior Manager, Regulatory Affairs, 
VoiceStream Wireless; Mr. Andrew Rimkus, Vice President of 
Airbiquity; Mr. Steve Souder, Administrator of the 9-1-1 
Emergency Communications Center in Arlington, Virginia; and Mr. 
Thomas Sugrue, Chief of the Wireless Telecommunications Bureau 
of the FCC.
    Mr. Amarosa, we'll start with you. And because of the 
cameras and the folks that are close in the audience, if you 
can make sure that that mike is close. That will be terrific. 
Thank you.

STATEMENTS OF MICHAEL AMAROSA, VICE PRESIDENT, PUBLIC AFFAIRS, 
TRUEPOSITION; STEVE CLARK, VICE PRESIDENT, NETWORK OPERATIONS, 
 U.S. CELLULAR; ANDREW J. RIMKUS, VICE PRESIDENT, AIRBIQUITY, 
   INC.; JAMES A. NIXON, SENIOR MANAGER, REGULATORY AFFAIRS, 
 VOICESTREAM WIRELESS; STEVE SOUDER, ADMINISTRATOR, ARLINGTON 
  COUNTY 9-1-1 EMERGENCY COMMUNICATIONS CENTER; AND THOMAS J. 
       SUGRUE, CHIEF, WIRELESS TELECOMMUNICATIONS BUREAU

    Mr. Amarosa. Mr. Chairman and members of the committee, 
good morning. I am Michael Amarosa, the Vice President of 
Public Affairs for TruePosition. It is a privilege to appear 
before you this morning. Everyone here would agree that 
Enhanced 911 is a much needed and critical public safety tool. 
It is the technology that ensures the expedited delivery of 
emergency services to those in need.
    Mr. Chairman, TruePosition has a wireless location system 
for Enhanced 911 that has been developed and tested over many 
years and I am proud to say it works. TruePosition is a company 
that has committed its very existence to the wireless location 
technology and E911 services. We have made a substantial 
investment to develop and provide commercially available 
location technology that meets the standards established by the 
Federal Communications Commission.
    After years of research, development and real world 
testing, we stand ready to continue to work with public safety 
communities and with the carriers, both large and small, to 
make E911 a reality and to meet the FCC deadline for Phase II 
implementation.
    The core of TruePosition's business is providing location 
information of a wireless phone to the public safety agencies. 
TruePosition believes that 911 services already available on 
the wireline side should be available to the growing number of 
wireless phone users. TruePostition holds 14 United States 
patents encompassing the methods, processes and apparatus for 
calibrating a wireless location system that yields extremely 
accurate measurements.
    We've tested more than 400 cell sites in a variety of 
environments. The substantial investment TruePosition has made 
in developing and implementing our technology demonstrates that 
accurate and reliable location information is not a future 
dream, it's available now.
    From a personal perspective, I spent 24 years in public 
safety. As the Deputy Commissioner for Technological 
Development in the New York City Police Department it was my 
responsibility to deploy a range of technologies that helped 
police officers, fire fighters and emergency service 
technicians do their jobs. I can personally attest to the 
critical role location information plays in saving a life and 
stopping a crime. The child who knows only enough to dial 911, 
the victim who is not sufficiently coherent to remain on the 
line, or the traveler who does not know where he is at all, can 
be found and help can be dispatched.
    TruePosition's technology allows all existing cellular and 
PCS phones to be located. No adjustment needs to be made to a 
consumer's existing handset. TruePosition's architecture 
supports technologies currently used by more than 95 percent of 
the wireless phones worldwide. We developed and tested our 
system in all types of geographic areas and RF environments. 
Our technology encompasses the four major air interfaces. 
TruePosition's wireless location system operates as an overlay 
to the carrier's network. It requires minimal changes to the 
existing network infrastructure and has a negligible effect on 
the cell sites and does not create any additional traffic on 
the network.
    Rigorous testing has been a critical part of TruePosition's 
development of its products and its service. Testing is an 
integral part of every system, varied geography, innate 
character of radio signals and other conditions require that 
each system be adapted specifically for a carrier and to the 
environment in which the carrier operates.
    As early as 1997, we tested our system's integration with 
the 911 call centers. A test was a cooperative effort with New 
Jersey, several county governments and wireless carriers and at 
that point it showed that our system was able to deliver 
information to the public safety answering points and enabled 
them to locate the wireless callers.
    More recently, we've conducted extensive tests of our 
system in Philadelphia, Wilmington, Delaware and in New York 
City. The New York City involved the most challenging 
environment for radio propagation. Almost half of the test 
calls were made inside of multi-story buildings in midtown 
Manhattan. Standard mobile phones were used to make more than 
30,000 test calls in an area covered by 30 cell sites. The 
system demonstrated sub-100 meter location results in a variety 
of indoor, outdoor, pedestrian and moving vehicle scenarios. 
The test results demonstrated compliance with the FCC 
requirements.
    Mr. Chairman, the technology is ready. TruePosition stands 
ready to serve the industry and the public's need and I thank 
you.
    [The prepared statement of Michael Amarosa follows:]
 Prepared Statement of Michael Amarosa, Vice President, TruePosition, 
                                  Inc.
    On behalf of TruePosition, Inc., it is a privilege to appear before 
the Subcommittee to discuss the implementation of E911 Emergency 
Calling Systems. I believe and hope, that everyone in this committee 
room today would agree that Enhanced 911 is a much needed and critical 
public safety tool. It is a technology that ensures the expedited 
delivery of emergency services to those in need.
    Our company, TruePosition, is a company that has committed its very 
existence to wireless location technology. We have made a substantial 
investment to develop and provide commercially available location 
technology that complies fully with standards established by the 
Federal Communications Commission (FCC). After years of research, 
development and real world testing, we stand ready to continue to work 
with the public safety community and with carriers, both large and 
small, to make E911 a reality and to meet the FCC deadline. 
TruePosition commends the Subcommittee for holding this hearing and for 
once again focusing public attention on this important public safety 
issue.
    The need for Enhanced 911 or E911 has been recognized for several 
years. It originates from the dichotomy that when a person calls 911 
from a traditional phone, public safety agencies can automatically 
determine the individual's location; yet if the same person calls from 
a wireless phone, a public safety agency must rely on the caller to 
provide an accurate location. As more than 43 million wireless calls to 
911 are made annually from existing wireless phones, the need to 
implement E911 is critical. With the impending FCC deadline of October 
1, 2001, the Nation is at the threshold of a tremendous upgrade in how 
fast public safety agencies can respond to individuals in need. The 
leadership of the Subcommittee, and of the FCC, has been a critical 
part of the progress that has been made.
    TruePosition, founded in 1992, and headquartered in King of 
Prussia, Pennsylvania, is a leading provider of integrated wireless 
location products and services to both U.S. and international wireless 
carriers. Providing the location information of a wireless phone to 
public safety agencies is the core of TruePosition. It is fundamental 
to our investment and business plan.
    TruePosition centers on the premise that information, readily 
available on the wireline side, should be available to the growing 
number of wireless phone users. TruePosition holds 14 U.S. patents in 
the technology, encompassing methods, processes and apparatus for 
calibrating a wireless location system that yields extremely accurate 
measurements. We have completed system testing of more than 400 cell 
sites in a variety of environments. The substantial investment 
TruePosition has made in developing the technology and implementing it 
demonstrates that accurate and reliable location information is not in 
the future. It is now. The TruePosition system has been tested in a 
range of areas and conditions and complies with the standards set by 
the FCC.
    From a personal perspective, I spent 24 years working in public 
safety. It was my honor to manage the largest 911 center in the Nation, 
that of the New York City Police Department, as Deputy Commissioner for 
Technological Development. It was my responsibility to bring to public 
safety a range of technologies that helped police officers, firemen and 
emergency service workers do their job more effectively and 
efficiently. I can attest to the tangible and critical role location 
information has in saving lives. The child who knows enough, and 
perhaps only enough, to dial 911, the victim who is not sufficiently 
coherent to remain on the line, the traveler who does not know where he 
is, can be located and police, fire or emergency services dispatched. 
The precious time in obtaining information from the caller can now be 
spent assisting the individual in need of help.
                   THE FCC'S OCTOBER 1, 2001 DEADLINE
    Under FCC rules, wireless telephone carriers are required to 
provide Automatic Location Identification (ALI) beginning October 1, 
2001, as part of the Phase II E911 implementation schedule. Under the 
FCC's rules there are separate accuracy requirements and deployment 
schedules for network-based and handset-based technologies. Appendix A 
sets forth the details of the FCC's rules.
    Since 1996, the FCC has pursued diligently efforts that will 
improve the quality and reliability of 911 emergency services for 
wireless phone users. Throughout, it has demonstrated substantial 
judgment, encompassing engineering, economics and law. It has examined 
and analyzed technical information of various systems, including that 
of TruePosition. It has comprehended the investment that must be made 
and the evolving technology. It has resolved difficult issues and 
struck a careful balance between the critical need for location 
information by the American public, while affording carriers and 
providers adequate time to come into compliance.
    The FCC has made clear how critical its deadline is. Wireless 
location information is more than a valuable addition to the large 
investment already made to emergency response capability by state and 
local public safety agencies throughout the Nation. It can literally be 
the difference as to whether assistance can arrive in time.
    TruePosition has committed substantial investment to develop and 
implement a workable technology enabling public safety agencies to 
locate and reach persons in danger. TruePosition's technology has been 
tested in real life settings. Our commercially available technology 
complies with the FCC's requirements.
                   TRUEPOSITION'S LOCATION TECHNOLOGY
    TruePosition's 14 U.S. patents in location technology allow all 
existing cellular and PCS phones to be located so that no adjustment 
need be made to the consumer's handset. Our system performs within the 
standards set by the FCC. TruePosition's architecture supports 
technologies currently used by more than 95% of the 650,000,000 
wireless phones worldwide. We developed and tested our system in all 
types of geographic areas, RF environments and other conditions. Our 
technology encompasses the four major air interfaces: automatic message 
processing system (AMPS), code-division multiple access (CDMA), time-
division multiple access (TDMA) and most recently, Global System for 
Mobile communications (GSM).
    TruePosition's Wireless Location System (WLS) is an end-to-end 
hardware, software, and services platform that offers a single system 
for collecting, managing and distributing location data and an 
integrated user interface to facilitate installing, managing, and 
operating the system. The WLS operates as an overlay to a carrier's 
network, requiring minimal changes to the existing network 
infrastructure. The system has a negligible impact on cell sites and 
does not create additional traffic for the network. The WLS is network-
based, and as stated, there is no modification necessary to consumer 
handsets.
    The TruePosition system determines a wireless phone's geographical 
location by collecting and processing the RF signals transmitted by the 
phone. When a signal is transmitted--when a phone call is placed--the 
system gathers information about the signal from nearby mobile base 
stations. The data are transmitted to a processor that analyzes the 
information and computes the position of the caller by using 
TruePosition's patented Time Difference of Arrival (TDOA) and Angle of 
Arrival (AOA) algorithms. For a 911 call, the TruePosition system then 
determines the appropriate public safety answering point (PSAP), and 
routes the call to this 911-call center, which then can dispatch 
assistance to the caller.
            TESTING AND IMPLEMENTING THE TRUEPOSITION SYSTEM
    Over many years, TruePosition's substantial investment in research 
and development has been directed toward providing a commercially 
available operational system that complies with the FCC's requirements. 
It has been a lengthy process that has encompassed many environments, 
which in turn have varied conditions. As noted, the TruePosition WLS is 
compatible with all major interfaces used by wireless phones, AMPS, 
CDMA, TDMA, and GSM.
    Since its initial commitment to location technology, testing has 
been a critical part of TruePosition's development of its product and 
service. We have completed system testing of more than 400 cell sites 
in a variety of environments.
    Iterative testing is common with developing technologies and 
allowed us to address learning curve issues that arose during the early 
stages of development. Moreover, testing is an integral part of every 
system installed as varied geography, the innate character of radio 
signals and other conditions require that each system be adapted to the 
carrier and the environment the carrier operates in. It is the rigor 
and pervasiveness of our testing regime that underlies our confidence 
in TruePosition's technology.
    Beyond demonstrating compliance with the FCC's requirements, our 
testing serves several purposes. It has taught us an understanding of 
the logistics posed by installation, maintenance, and other 
requirements of our system, including costs. Our testing regime allows 
us to adjust the system. Our underlying premise is that each 
environment where location technology operates must be examined and 
adjustments made prior to the system becoming fully operational.
    TruePosition's extensive testing and experience has allowed us to 
improve substantially our pre-installation tools used to evaluate 
designated areas as well as our ability to fine-tune the system once it 
is deployed.
    As early as 1997, we tested how our system integrated with the 911 
call centers, the PSAPs. The test was a cooperative effort with the 
State of New Jersey, several county governments and wireless carriers. 
The test findings showed that the system was able to deliver location 
information to the PSAPs and enable them to pinpoint the wireless 
callers. New Jersey authorities characterized the test as having an 
immediate impact on improving public safety and represented significant 
progress in efforts to quickly locate emergencies.
    Most recently, we have conducted extensive tests of our system in 
the Philadelphia, Pennsylvania, Wilmington, Delaware and New York City 
metropolitan areas.
    The New York City test involved a challenging environment for radio 
propagation as almost half of the test calls were made inside of multi-
story buildings in midtown Manhattan. Standard CDMA mobile phones were 
used to make more than 30,000 test calls in an area covered by 30 cell 
sites. A rigorous test plan published by the CDMA Development Group 
(CDG) to determine the performance of TruePosition's technology was 
employed. The system demonstrated sub-100 meter location results in a 
variety of indoor, outdoor, pedestrian, and moving vehicle scenarios. 
The test results demonstrated compliance with FCC requirements.
 cooperative efforts with public safety agencies and wireless carriers
    TruePosition has worked closely with large and small public safety 
agencies and the dedicated associations and individuals that represent 
them in developing our technology, particularly in how best to 
integrate our system into the PSAPs, which receive the emergency calls. 
These agencies and their representatives have also worked closely with 
the FCC to advocate the need for wireless location information and to 
convey the capabilities of their own system. In this latter regard, 
public safety agencies have been forceful advocates in their own areas 
to obtain the resources necessary to implement location information 
into their own system.
    Similarly, we have worked closely with wireless carriers in 
understanding how to meet carrier needs and requirements. This has 
entailed understanding a carrier's system and the environment it 
operates in. The testing we have completed demonstrates a close working 
relationship with the carriers. Our experience has shown a pervasive 
commitment to bring E911 to reality. We believe that deployment of E911 
will become an important element of the competitive marketplace, 
leading to a broad and expedited deployment throughout the nation.
    In summary, providing location information for wireless callers, so 
important to the individual faced with an emergency, is upon us. The 
Subcommittee's involvement in bringing the United States to the 
threshold of effective nationwide Enhanced 911 systems is to be 
commended. Just as the Subcommittee was the force behind Congress' 
enactment of the Wireless Communications and Public Safety Act of 1999, 
which played a significant part in the continued effort to upgrade the 
nation's emergency response systems, your interest and oversight of the 
availability of location information for wireless callers, demonstrates 
a similar commitment. Thank you.
                               Appendix A
             HISTORY AND SUMMARY OF REGULATORY REQUIREMENTS
    Through several actions since 1996, the FCC's wireless 911 rules 
have sought to improve the reliability of wireless 911services and to 
provide emergency services personnel with location information. The 
wireless 911 rules apply to all cellular licensees, broadband Personal 
Communications Service (PCS) licensees, and certain Specialized Mobile 
Radio (SMR) licensees.
PHASE I E911 REQUIREMENTS (FCC Order June 1996)
    As of April 1, 1998, or within six months of a request by the 
designated PSAP, whichever is later, covered carriers are required to 
provide to the PSAP the telephone number of the originator of a 911 
call and the location of the cell site or base station receiving a 911 
call.
PHASE II E911 REQUIREMENTS (FCC Orders September 1999, minor 
        adjustments August 2000)
    Wireless carriers are required to provide Automatic Location 
Identification (ALI) as part of Phase II E911 implementation beginning 
October 1, 2001. The FCC has established separate accuracy requirements 
and deployment schedules for network-based and handset-based 
technologies. The E911 Phase II requirements are as follows:

<bullet> Handset-Based ALI Technology: Wireless carriers who employ a 
        Phase II location technology that requires new, modified or 
        upgraded handsets (such as GPS-based technology) may phase-in 
        deployment of Phase II subject to the following requirements:
    Without respect to any PSAP request for Phase II deployment, the 
            carrier shall:

    1. Begin selling and activating ALI-capable handsets no later than 
            October 1, 2001;
    2. Ensure that at least 25 percent of all new handsets activated 
            are ALI-capable no later than December 31, 2001;
    3. Ensure that at least 50 percent of all new handsets activated 
            are ALI-capable no later than June 30, 2002; and
    4. Ensure that 100 percent of all new digital handset activated are 
            ALI-capable no later than December 31, 2002 and thereafter.
    5. By December 31, 2005, achieve 95 percent penetration of ALI-
            capable handsets among its subscribers.
    Once a PSAP request is received, the carrier shall, in the area 
            served by the PSAP, within 6 months or by October 1, 2001, 
            whichever is later:
    1. Install any hardware and/or software in the CMRS network and/or 
            other fixed infrastructure, as needed, to enable the 
            provision of Phase II E911 service; and
    2. Begin delivering Phase II E911 service to the PSAP.
<bullet> Network-Based ALI Technology: As of October 1, 2001, within 6 
        months of a PSAP request, carriers employing network-based 
        location technologies must provide Phase II information for at 
        least 50 percent of the PSAP's coverage area or population.
    Within 18 months of a PSAP request, carriers must provide Phase II 
        information for 100 percent of the PSAP's coverage area or 
        population.
    The FCC has adopted the following standards for Phase II location 
accuracy and reliability:

<bullet> For handset-based solutions: 50 meters for 67 percent of 
        calls, 150 meters for 95 percent of calls;
<bullet> For network-based solutions: 100 meters for 67 percent of 
        calls, 300 meters for 95 percent of calls.
PUBLIC SAFETY ANSWERING POINT REQUIREMENTS (FCC Order November 1999)
    The E911 Phase I requirements, and certain of the Phase II 
requirements, are applicable to wireless carriers only if the 
designated PSAP has requested the service and is capable of receiving 
and using the information provided. There is no prerequisite that a 
cost recovery mechanism for wireless carriers be in place before 
carriers are obligated to provide E911 service in response to a PSAP 
request. The PSAP, however, must have the means of covering the costs 
of receiving and using the E911 information to make a valid request for 
E911 service. The FCC's rules do not mandate any specific state action 
nor specify any particular mechanism for funding the technology and 
service capabilities necessary to enable the PSAP to make a valid 
service request.

    Mr. Upton. Thank you.
    Mr. Clark.

                    STATEMENT OF STEVE CLARK

    Mr. Clark. Good morning, Mr. Chairman. My name is Steve 
Clark, Vice President of Network Operations.
    Mr. Upton. If you could just pull that mike a little closer 
or speak a little louder, either way.
    Mr. Clark. As I said, my name is Steve Clark, Vice 
President of Network Operations for U.S. Cellular. Since the 
record with respect to Phase II compliance on E911 is already 
filled with comments addressing policy and economic issues as 
such, I'm here as an engineer and ultimately the implementer to 
make this happen. More specifically, I'll speak on the issues 
of implementation and incremental challenges in rural America 
with respect to the October 1 deadline.
    U.S. Cellular is committed to public safety and the 
nationwide rollout of E911. Our goal is to provide ubiquitous 
availability of reliable, enhanced public safety to our rural 
customers. U.S. Cellular wants to give E911 to our customers 
and is committed to deliver it to them expeditiously, 
accurately and cost effectively.
    That is why U.S. Cellular contributed to and supported the 
original consensus agreement between the public safety and 
wireless industries in 1996 which set out challenging, yet what 
we believed at the time to be achievable goals to meet the 
expectations of our rural customers and their need for E911.
    The original consensus agreement, however, is not what the 
FCC is forcing us to implement today. Instead, we have seen a 
virtual elimination of all the original mutual commitments 
between public safety and wireless carriers beginning with the 
elimination of cost recovery in 1999. Carrier cost recovery, as 
the FCC noted, in its first report and order was a fundamental 
prerequisite to E911 deployment. The fundamental prerequisite 
was abandoned by the FCC despite the fact that all parties with 
one exception advocated the necessity of keeping carrier cost 
recovery.
    Recently, the FCC took a further step and imposed a new 
financial burden on wireless carriers that now requires us to 
pay for a portion of the PSAP's E911 network in addition to the 
cost to convert antiquated PSAP equipment to today's 
technology. The FCC has also eliminated original PSAP 
commitments with the exception of one and that one is now 
pending before the FCC.
    Given that the FCC since 1996 has never once ruled in favor 
of the wireless carriers, we expect this one remaining PSAP 
requirement will be removed as well.
    The FCC has completely abandoned the original 
acknowledgement that cost and complexities of meeting location 
requirements would be higher in rural America. This causes 
great concern, since it likely will have the effect of driving 
rural implementation into the line. Until such time these 
issues can be dealt with rationally, it effectively abandons 
rural America in the short term.
    U.S. Cellular and smaller rural carriers do not do their 
own research and development on telecommunications equipment. 
The bottom line is those wireless carriers which have the most 
to spend drive development. With this in mind we begin the 
engineering implementation which brings us to the current 
debate over network versus handset and hybrid solutions.
    The network based solution uses a cell site infrastructure 
in concert with the supplemental location system, the most 
widely discussed message will require a minimum of three sites 
to be able to reach or see the mobile you want to locate. 
Certainly in the more populated areas this will meet the 
required performance level, however, in rural areas, there 
simply are not enough cell sites to get the job done.
    For rural carriers, this solution requires very large 
numbers of sites to be built simply from a location capability. 
Building this number of sites in this manner puts the rural 
carriers in a predicament which threatens their very existence. 
Further, switch software applications required for network 
solution will not be available for either rural or urban 
applications until late fourth quarter of 2001 with production 
implementation in first quarter of 2002. This lack of switch 
application software makes the network solution not possible to 
meet the October deadline.
    An alternative to network based solution is the handset 
solution which is to locate a GPS transceiver in a handset 
which will work independently of or in concert with the network 
solution. Although the solution was not originally contemplated 
in the 1996 order, it has recently grown in popularity. 
Although it sounds good, the fact is rural carriers have yet to 
get good solid dates from the handset manufacturers which 
identify the timeline for availability, model supported or the 
production quantities on which it will be a supported 
capability.
    And again, availability of the switch application software 
to support the handset solution is not available until late 
fourth quarter of this year. This is further complicated by 
recent decisions by large carriers to abandon the growth in 
TDMA markets. Current plans for evolution to 3G by other larger 
carriers in the industry have effectively sunsetted TDMA as an 
air interface.
    In closing, we're concerned about what we're able to 
provide to our customers. And I would say to those that would 
say that we're dragging our feet on the implementation. If it 
could be done, U.S. Cellular would have done it.
    Thank you, Mr. Chairman. I look forward to answering any 
questions you may have.
    [The prepared statement of Steve Clark follows:]
     Prepared Statement of Steve Clark, Vice President of Network 
             Operations, United States Cellular Corporation
    Mr. Chairman, I am Steve Clark, Vice President of Network 
Operations for United States Cellular Corporation, and I am here today 
to discuss the progress and problems in the implementation of wireless 
enhanced 911 capabilities, particularly for carriers serving rural 
communities. Rural carriers support the roll-out of E911 and improved 
safety for our customers. What rural carriers object to, however, is 
the method the FCC has chosen to roll-out wireless E911. Without action 
by the FCC or Congress, rural wireless carriers face an October 1, 2001 
deadline to provide so-called phase II location information without a 
viable, cost effective solution. There are currently no phase II 
compliant handsets available and the only other phase II solution--a 
network based solution--will be so expensive that it will, at a 
minimum, displace a large number of cost-sensitive rural wireless 
customers who will be unable or unwilling to pay the per customer costs 
of phase II E911 service.
    My testimony today will highlight the problems specifically faced 
by rural carriers that stem from the FCC's phase II deadlines and its 
decision in 1999 to eliminate carrier cost recovery. In so doing, I 
will briefly review the history of the FCC's wireless E911 proceeding 
that created the problem referenced above and describe how wireline 
E911 works. My testimony will then illustrate how the Commission's 
decision to eliminate carrier cost recovery abandoned the sound 
legislative and regulatory policy of competitive neutrality between 
rural and urban telecommunications providers and completely undermined 
the FCC's policy of promoting competitive parity between rural wireline 
and wireless telephony providers. I will conclude my testimony by 
urging this Committee to reinstate carrier cost recovery to ensure that 
phase II E911 service becomes available to all areas and all ranges of 
customers in the United States.
    I. THE IMPACT OF THE FCC'S DEADLINES ON RURAL WIRELESS CARRIERS
    Without action by the FCC or Congress to change the October 1, 2001 
deadline to provide phase II E911 location information, rural wireless 
carriers are literally stuck between a rock and a hard place. The costs 
to deploy a network solution that satisfies the FCC's location accuracy 
requirements are astronomical--costs that could easily double the 
imbedded network investment of many rural carriers. The only other 
solution--a handset based solution using a GPS (or equivalent) chip--is 
not yet available. The unavailability of compliant, cost-effective 
handsets will force carriers into a network solution that will displace 
thousands of cost sensitive customers in many parts of rural America 
and could well force some wireless carriers into bankruptcy.
    By way of background, there are basically two technological options 
to help locate wireless 911 callers--a network solution and a handset 
solution. In the network solution, which is the only solution currently 
available, the wireless carrier--and the corresponding LEC and PSAPs--
performs various upgrades to each cell site in its network. These cell 
sites are then employed to triangulate an incoming signal from a 
wireless phone--i.e., three cell sites receive the signal emitted by 
the handset and allow the network to pinpoint the exact location of the 
caller within that triangle. Using the so-called angle of arrival 
method, only two cell sites are needed to determine the location of a 
caller.
    At best, the network solution is prohibitively expensive for rural 
wireless carriers; at worst, it will not work at all. Besides requiring 
upgrades at each cell site to provide accurate location data, the FCC 
itself recognized that rural carriers will be required to build 
additional, location-only cell sites in order to properly triangulate a 
signal to meet the FCC's phase II location accuracy requirements. This 
is because in rural areas, cell sites tend to be aligned in a straight 
path along major interstates or through the populated areas--the so-
called ``string of pearls''--in order to maximize the coverage of each 
cell site. This configuration, however, makes it impossible to 
triangulate a signal to determine the location of the handset because 
only one cell site actually receives a signal from the handset.
    Western Wireless recently conducted a series of tests with a 
network solution vendor that dramatically illustrated those problems. 
While the vendor's network solution performed well in an urban 
environment, where the average cell site density is between 5-6 miles, 
the network solution failed when tested in rural areas where the 
average cell site density is often 40 miles or more. Thus, in order to 
employ a network based solution, rural carriers must build additional 
location-only cell sites throughout their networks, at an estimated 
cost of $500,000 per cell site. USCC's current network has 
approximately 2500 cell sites. The costs to upgrade these sites alone 
using True Position technology was recently estimated at $90 million. 
The costs of doubling or tripling this number of sites are astronomical 
and would inevitably require USCC to cut back on the area it serves in 
order to preserve scarce resources.
    In the handset solution, first accepted by the Commission as an 
acceptable E911 location solution in 1999, special functionality is 
built into the handset itself to allow, for example, GPS satellites to 
track the precise location of the handset. While requiring some network 
upgrades to accommodate the additional location information, this 
solution appeared to be the economically rational alternative for the 
majority of rural wireless carriers because the cost of the solution 
would be tied proportionately to the number of customers served by the 
wireless carrier.
    The only problem with the handset-based solution is that it does 
not exist yet. There are currently no vendors with the ability to 
provide a GPS-equipped handset that would satisfy the Commission's 
location accuracy requirements for any digital emission wireless phone. 
Current estimates are that some type of GPS-equipped phone may be 
available in the 4th quarter of 2001 for use in TDMA systems. GPS-
capable phones are not expected to be available until 4th quarter of 
2002 for use in CDMA systems.
    There are numerous other problems with a potential handset 
solution. Only limited information is available on the cost per phone 
of such a solution. The little information that is available suggests 
that the incremental cost per phone of providing phase II service could 
be as high as $100-$350. There appears to be a very limited selection 
of phase II-compliant handsets and there is considerable uncertainty 
whether these phones will provide other functionality demanded by 
consumers (i.e., voice messaging, 3G services). It is also unclear 
whether CDMA or TDMA E911 compliant phones will work if the user roams 
to a system using a different technology.
    The problems deploying phase II E911 compliant solutions are not 
unique to rural wireless carriers. One major national cellular carrier 
(VoiceStream) has already received a waiver, two more major, national 
carriers (AT&T and Nextel) have waiver requests pending and at least 
one more national carrier (Cingular) has indicated that a phase II 
compliant waiver will be filed shortly. As demonstrated below, however, 
the burdens of complying with phase II will disproportionately burden 
rural wireless carriers.
                 II. THE FCC'S WIRELESS E911 PROCEEDING
    My testimony now attempts to describe how rural carriers got into 
this difficult predicament by reviewing the history of the FCC's 
wireless E911 proceeding. In 1994, the FCC initiated a rulemaking 
proceeding to explore ways to encourage the wireless industry, in 
conjunction with the states and public safety organizations, to 
implement E911 capabilities. The Commission sought to impose specific 
caller location requirements on the wireless industry so that 
ultimately the same information provided to a PSAP in a wireline 911 
call would be provided to a PSAP in a wireless call.
    In the wireline context, when a caller dials 911, the local 
exchange carrier recognizes the emergency nature of the call and routes 
that call to the Public Safety Answering Point (``PSAP''). A PSAP is 
the state or local governmental agency responsible for coordinating a 
given locality's response to emergency calls. In the United States, 
PSAPs come in various shapes and sizes ranging from sophisticated, 
modern emergency call centers in urban areas to a local sheriff or the 
state police in rural areas.
    Where enhanced 911 services are available to wireline telephone 
users, detailed location information is transmitted to the PSAP to help 
identify the location of the emergency caller. The LEC identifies the 
telephone number from which the 911 call was made and queries a 
database to determine the address associated with that number. This 
information is then transmitted to the appropriate PSAP, which can 
immediately dispatch the appropriate emergency response. The advantages 
of this location technology are uncontroverted: the ability to locate 
an emergency caller exists even if the caller does not know her 
location, is unable to communicate with emergency personnel, or becomes 
disconnected.
    In the wireline context, the PSAP pays the LEC for the E911 
services it provides. The costs paid for by the PSAP include the 
upgraded hardware and software needed to transmit location information 
as well as the cost of creating and maintaining the location database. 
These upgrades are paid for by the PSAPs who are properly treated as 
the wireline carrier's customers in this context because they order and 
then utilize the new location information. The costs caused by the 
PSAPs are typically paid for out of a state or local governmentally 
administered fund that collects the proceeds of 911 surcharges imposed 
on all wireline customers in the relevant jurisdiction.
    Wireline 911 has taken many years to achieve widespread 
accessibility. The first 911 call was made in 1968, and it took more 
than 30 years after that for wireline 911 service to reach 93 percent 
of the population. As of the middle of 1999, wireline 911 was available 
in only 50 percent of the geographic area of this country.
    The application of E911 to wireless telephones is no simple task. 
In fact, wireless E911 service is far more challenging. Wireless 
telephones by their very nature are mobile and therefore not associated 
with a particular address or location. When an E911 call is received, 
the carrier does not automatically know which PSAP is closest to the 
emergency caller and thus cannot ensure that the call is appropriately 
routed to the appropriate PSAP.
    In 1996, the FCC issued its first order in its wireless E911 
proceeding. While acknowledging that the implementation of E911 in the 
wireless context faced enormous technological hurdles and that there 
did not yet exist an efficient and workable system that could actually 
perform the E911 functions required, the FCC nonetheless decided to 
intervene in the market and mandate the implementation of E911 
capabilities according to FCC-established deadlines. Before carriers' 
obligations under these deadlines were triggered, however, two 
conditions had to be met: (1) a PSAP had to request the services from 
the carrier and be capable of receiving and utilizing the information 
requested, and (2) a mechanism had to be in place to compensate 
carriers for the costs of providing E911 capabilities to the PSAPs. 
This cost recovery prerequisite--in addition to the other rules for 
E911 implementation adopted by the FCC in the First Order--was drawn 
from a broad-based consensus agreement between the wireless industry 
and the various public safety entities and was unanimously supported by 
commenting parties.
    Following the release of the First E911 Report & Order, wireless 
carriers, PSAPs and LECs made significant progress toward the 
implementation of wireless E911--especially given the enormous 
complexity involved in the task. By June 30, 1999, only three years 
after the FCC's order, 27 states had enacted legislation to facilitate 
the funding of the first phase of the E911 roll-out. There were also a 
number of difficult, complex issues that inevitably slowed the roll-out 
of wireless E911. These issues included the age and incompatibility of 
PSAP equipment with wireless networks, the wide variety of technical 
sophistication and political organization of the PSAPs and differences 
in liability protection provided to wireline carriers vs. wireless 
carriers when providing E911 service.
    By 1999, the FCC expressed dissatisfaction with the pace of the 
wireless E911 roll-out. Following a series of public notices, the FCC 
eliminated the requirement that a carrier cost recovery mechanism exist 
before the carriers could be obligated to provide E911 services. 
Despite the numerous thorny, difficult issues that were inhibiting the 
roll-out of wireless E911 noted above, the Commission chose only to 
eliminate the carrier cost recovery requirement in an attempt to speed 
the roll-out. To rationalize this about-face, the Commission asserted 
that since wireless carriers' rates are not regulated, wireless 
carriers were free to raise their rates in order to recover the costs 
of E911 implementation from their customers.
    Of course, what the Commission failed to recognize in eliminating 
the carrier cost recovery prerequisite is the disproportionate and 
potentially ruinous impact this action would have on rural carriers. 
All other things being equal, the cost per customer of rolling out 
wireless E911 (like all other telecommunications services) will be 
disproportionately higher in rural areas. Despite this, rural wireless 
carriers were protected under the Commission's initial E911 order 
because PSAPs were required to pay rural wireless carriers for the 
costs they caused in ordering E911 services. If the costs to provide 
rural E911 service were too high, a rational PSAP could be relied upon 
to refrain from ordering that service.
    Unfortunately, the Commission's decision to eliminate carrier cost 
recovery changed that equation. Under the Commission's new rules, PSAPs 
have essentially been given a blank check to order phase II E911 
service regardless of the costs. Moreover, the FCC recently made it 
clear that if a wireless carrier's preferred E911 phase II solution 
were not available and the alternative phase II solution were 
available, the carrier would be expected to deploy the alternative 
solution in response to a valid PSAP request. The result of this 
decision could force rural carriers into cost prohibitive network 
solutions and will inevitably result in the displacement of thousands 
of rural wireless customers who will be unable to pay for E911 services 
ordered by the PSAP.
   III. THE COMMISSION'S DECISION TO ELIMINATE CARRIER COST RECOVERY 
         VIOLATES SEVERAL OF ITS OWN WELL-ESTABLISHED POLICIES.
    The Commission's decision to eliminate carrier cost recovery also 
violates several of its own well-established telecommunications 
policies. First, it is universally recognized that the costs of 
providing telecommunications services in rural areas are higher than 
those in urban areas. Congress recognized this basic concept when it 
established the universal service provisions of the Telecommunications 
Act of 1996 and again is considering various actions this session to 
provide subsidies and incentives for telecommunications providers to 
deploy broadband service to rural areas. There is no valid explanation 
for the Commission's refusal to recognize these same principles in the 
roll-out of wireless E911 service. Rural carriers are here, today, 
asking only that Congress require the Commission to give the same 
consideration to wireless carriers that it gives to other 
telecommunications providers serving rural areas receive.
    Without action to reinstate carrier cost recovery, the FCC's 
wireless E911 rules threaten the provision of cellular service in rural 
portions of this country. Because the wireless marketplace is extremely 
competitive and because consumer demand for wireless service is 
extremely price elastic, wireless carriers will only be able to 
increase their rates on a per customer basis to the extent that its 
competitors do the same. If all wireless carriers had similar service 
areas, there would be competitive neutrality among them. Unfortunately, 
there are wide disparities between the service areas of wireless 
carriers. By adopting a one-size-fits-all approach and forcing all 
carriers to incur the substantial costs of providing E911 capabilities 
and passing them on to their customers, the Commission has impaired the 
ability of predominantly rural carriers to compete against larger 
wireless carriers with geographically more diverse service areas that 
include both urban and rural customers. Such carriers have a larger 
customer base over which to spread the costs of providing E911 service. 
These carriers are in a position to charge their rural customers less 
for the same service and have thus been given a competitive advantage 
over smaller, rural carriers who have no such customer base over which 
to spread these costs. It is important to recognize that this 
competitive advantage comes not from one carrier's more efficient 
operations or business savvy but instead by virtue of the FCC's E911 
requirements.
    The FCC's decision to eliminate carrier cost recovery will also 
likely result in less overall service in the rural areas, areas in 
which E911 is arguably most needed. The wireless industry has grown 
dramatically in recent years due in significant part to the continuous 
drops in the costs of handsets as well as the costs of using the 
service. Given the prohibitive costs of complying with the FCC's E911 
mandate, especially if rural wireless carriers are required to deploy 
network solutions, the FCC's rules will cause many cost-sensitive rural 
customers to drop the service to avoid the disproportionately high per 
customer costs of E911 phase II compliance. Rural carriers, faced with 
the prospect of a diminished customer base and the enormous costs to 
deploy E911, will be forced to cut back on their service areas or even 
into bankruptcy. Should this occur, larger carriers are unlikely to 
venture into less populated territories that are not profitable, and 
entire areas of the country could be disenfranchised from any wireless 
service, let alone wireless 911 service.
    Finally, the FCC's decision to eliminate carrier cost recovery also 
violates the long-standing goal of both Congress and the Commission to 
make wireless service a viable competitor to the wireline LEC for 
telephone service, especially in rural areas. Throughout the E911 
proceeding and in other contexts, the FCC asserted as one of its goals 
that wireless and wireline service truly be viewed as substitute 
services by American consumers. Under the FCC's current E911 rules, 
however, wireless carriers cannot be effective competitors with 
wireline carriers.
    First, and most importantly, wireline carriers are being paid for 
their provision of E911 services while wireless carriers are left to 
recover the substantial costs of providing the exact same service 
directly from their customers. Second, a significant portion of the 
costs paid by rural wireless carriers to deploy E911 service are LEC-
imposed charges to connect the wireless network to the existing 
wireline-based E911 network. The costs paid by wireless carriers to 
LECs to provide E911 include not only the actual costs to provide the 
service, but also a regulatory approved profit margin. Thus, through 
the FCC's existing E911 regime, rural wireless carriers are forced to 
subsidize the operations of the same wireline carriers the FCC has 
identified as their competitors.
                             IV. CONCLUSION
    Given the disproportionately high costs faced by rural wireless 
carriers to provide phase II E911 service, USCC urges this Committee to 
pass legislation to reinstate the carrier cost recovery mechanism 
eliminated by the FCC in 1999. If E911 service is truly a national 
priority, this Committee should enact rules that will help pay for the 
deployment of this service. While this step alone will not ensure a 
rapid roll-out of E911, it will eliminate the dramatic marketplace 
distortions the Commission's current rules will inevitably produce in 
rural areas. Such a payment mechanism would also help offset the E911 
cost imbalance between rural and urban carriers and ensure that E911 
service is available to all portions of this country.
    If this Committee is unwilling to reinstate carrier cost recovery, 
USCC requests that the Committee pass legislation that delays the 
deadline for phase II deployment for rural wireless carriers until a 
viable, economically rational and commercially acceptable phase II 
solution develops. Drawing upon countless telecommunications examples, 
USCC urges the Committee to permit rural wireless carriers to delay 
deployment until the service has been provided and accepted 
commercially by wireless consumers in large urban markets.
    In addition to these policy issues, there are also a myriad of 
difficult, often complex technical issues that have impacted and 
delayed the roll-out of wireless E911. These technical issues do not 
lend themselves to easy written explanation. However, I am prepared to 
answer any questions you may have regarding these technical issues and 
United States Cellular Corporation is willing to supplement my written 
testimony to address these issues if it would be of interest to the 
Committee.
    Thank you for the opportunity to appear before you today. I would 
be happy to answer any questions you may have or identify additional 
steps this Committee could take that would facilitate the rapid 
deployment of wireless E911 across the country.

    Mr. Upton. Thank you.
    Mr. Rimkus.

                  STATEMENT OF ANDREW J. RIMKUS

    Mr. Rimkus. Thank you. Mr. Chairman, distinguished members, 
and guests, my name is Andrew Rimkus, Vice President of 
Airbiquity, Incorporated. Airbiquity is a privately held 
company located in Bainbridge Island, Washington. Airbiquity is 
a location technology company that delivers GPS data to any 
wireless network, worldwide.
    Previously known to the public safety and wireless 
community as Integrated Data Communications (IDC), we changed 
our name to Airbiquity in November of 2000. Our company and our 
employees are active members of related professional 
organizations in wireless and public safety, including the 
Cellular Telecommunications and Internet Association, the 
National Emergency Number Association, the Association of 
Public Safety Communications Officials, and the COMCARE 
Alliance. Airbiquity appreciates the opportunity to testify 
before the subcommittee today.
    We believe Airbiquity is uniquely qualified to discuss 
technology preparedness for E911 mobile phone location. As the 
FCC has stated in its Docket 94-102 proceeding, there are two 
major technology choices for the carrier and public safety to 
achieve compliance. These alternatives essentially place the 
location determining technology either in the wireless handset 
itself or in the wireless network. Airbiquity has chosen to 
produce a handset-based solution, specifically those with GPS, 
due to GPS's worldwide deployment and inherently high accuracy. 
These high accuracy standards are reflected in the existing FCC 
proceeding for handset-based location technology.
    In November 200, Airbiquity announced the development of a 
GPS Accessory product that attaches to Nokia-brand wireless 
phones in the form a battery pack containing a GPS receiver and 
software to send the information. This implementation of 
Airbiquity's patented core technology transports data through 
any wireless network and attaches to 25 different Nokia phone 
models without retrofits or reprogramming of those phones that 
operate over all of the major air interface standards including 
TDMA, CDMA, GSM and AMPS. Also our solution does not require 
changes to the network itself.
    This means that our GPS Accessory can operate over any 
wireless network using any one of these air interfaces, 
including and just as examples those of AT&T Wireless, Verizon 
Wireless, Cingular Wireless and VoiceStream. In March of this 
year, we announced the commercial availability of this product 
at the CTIA 2001 show.
    On Monday of this week, AAA, the nation's largest motoring 
and travel services organization and RESPONSE Services Center, 
who is owned by AAA announced a North American pilot using our 
GPS Accessory. This pilot program's breadth includes 11 major 
metropolitan areas, 18 different Nokia phone models, 4 
different air interface standards and 7 distinct wireless 
carriers that distribute these handsets. This means that today 
we are moving GPS data from our GPS Accessory attached to these 
phones with calling locations spanning from Maine to 
California, through the wireless network and to the call center 
equipped with our call center product. As we speak today, we 
are placing handset locations on mapping terminals with live 
operators, as commercial applications are being tested. Here in 
my hand is this product, attached to a phone that I bought at a 
wireless retail store the other day. It is fully functional and 
available for mass distribution today. Airbiquity's Ex Parte 
filing with the FCC detailed our successful demonstration of 
this product in December 2000, during which we located our 
product in the FCC Portals building courtyard.
    In addition to our GPS Accessory product, our technology 
has been adopted by other major companies in this business. For 
example, in May of this year we announced the adoption of our 
technology by Wingcast, a Ford Motor Company and Qualcomm 
Incorporated joint venture. Our technology is expected to be 
incorporated into model 2003 automobiles for their inaugural 
telematics offering which is planned to combined features such 
as vehicle location, automatic crash notification and other 
location-based services focused on making driving safe and more 
enjoyable. Our wireless technology is already incorporated or 
``ported'' into several DSPs or Digital Signalling Processings 
including those offered by Texas Instruments and Agere Systems. 
Our technology is also capable of being integrated directly 
into the wireless handsets in addition to a GPS Accessory.
    We believe that we offer a viable Phase II solution for 
wireless carriers to obtain the location of wireless handsets. 
Our GPS Accessory is retrofittable to an estimated 15 million 
wireless handsets in service today. The GPS Accessory is 
compatible with phone models that have been in commercial sale 
since 1998 and these phone models are available through 
distributors today. We know we are not alone since companies 
such as Qualcomm Incorporated and True Position currently have 
technological offerings that can serve as alternatives for this 
compliance. We expect the market for this technology will be 
competitive and well served with product offerings from the 
beginning.
    We at Airbiquity believe that the state of our products and 
technologies being piloted and adopted by major commercial 
providers of location-based services, such as AA and Wingcast 
which expects to offer telematics service with some of its 
vehicle lines, demonstrates the appropriateness and readiness 
of our solutions for public safety applications. We urge the 
subcommittee to continue its efforts to communicate with and 
educate the public regarding viable alternatives to support 
this location mandate today.
    Thank you and I'm happy to answer questions the 
subcommittee might have.
    [The prepared statement of Andrew J. Rimkus follows:]
  Prepared Statement of Andrew J. Rimkus, Vice President, Marketing, 
                        Airbiquity Incorporated
    Mr. Chairman, distinguished Members, and guests, my name is Andrew 
Rimkus, Vice President of Airbiquity Incorporated. Airbiquity is a 
privately-held company located in Bainbridge Island, Washington. 
Airbiquity is a location technology company that delivers Global 
Positioning System (GPS) data to any wireless network, worldwide.
    Previously known to the public safety and wireless community as 
Integrated Data Communications (IDC), we changed our name to Airbiquity 
in November of 2000. Our company and our employees are active members 
of related professional organizations in wireless and public safety, 
including the Cellular Telecommunications and Internet Association, the 
National Emergency Number Association, the Association of Public Safety 
Communications Officials, and the COMCARE Alliance. Airbiquity 
appreciates the opportunity to testify before the Committee today.
    We believe Airbiquity is uniquely qualified to discuss technology 
preparedness for E911 mobile phone location. As the FCC has stated in 
its Docket 94-102 proceeding, there are two major technology choices 
for the carrier and public safety to achieve E911 Phase II compliance. 
These alternatives essentially place the location determining 
technology either in the wireless handset itself or in the wireless 
network. Airbiquity has chosen to produce a handset-based solution, 
specifically those with GPS, due to GPS's worldwide deployment and 
inherently high accuracy. These high standards for accuracy are 
reflected in the existing FCC 94-102 proceeding for handset-based, 
Phase II location technology.
    In November of 2000, Airbiquity announced the development of a GPS 
Accessory product that attaches to Nokia-brand wireless phones in the 
form of a battery pack containing a GPS receiver and software to send 
the GPS information. This implementation of Airbiquity's core 
technology transports data through any wireless network and attaches to 
25 different Nokia phone models--without retrofits or reprogramming of 
the phones--that operate over all of the major network air interface 
standards, including TDMA, CDMA, GSM, and AMPS. Our solution does not 
require changes to these wireless networks.
    This means that our GPS Accessory can operate over any wireless 
network using any one of these air interfaces, including but not 
limited to those of AT&T Wireless, Verizon Wireless, Cingular Wireless, 
and VoiceStream. In March of this year, we announced the commercial 
availability of our GPS Accessory product at the CTIA 2001 show in Las 
Vegas.
    On Monday of this week, AAA--the nation's largest motoring and 
travel services organization--and RESPONSE Services Center, a wholly 
owned subsidiary of AAA, announced a North American pilot program using 
Airbiquity's GPS Accessory. The pilot program's breadth includes 11 
major metropolitan areas, 18 different Nokia wireless phone models, 4 
different air interface standards, and seven distinct wireless carriers 
that distribute Nokia-brand handsets. This means that--today--we are 
moving highly-accurate GPS data from our GPS Accessory attached to 
these phones with calling locations spanning from Maine to California, 
through the wireless network, and to the RESPONSE call center equipped 
with our call center product, the aqServer. As we speak today, we are 
placing handset locations on mapping terminal with live operators, as 
commercial applications are being tested. Here in my hand is the GPS 
Accessory product, attached to a phone I bought at a wireless retail 
store the other day. It is fully functional and available for mass 
distribution today. Airbiquity's Ex Parte filing with the FCC detailed 
our successful demonstration of the GPS Accessory in December 2000, 
during which we located our product in the Federal Communications 
Commission Portals building courtyard.
    In addition to our GPS Accessory product, our technology has been 
adopted by other major companies in the wireless location business. For 
example, in May of this year we announced the adoption of our 
technology by Wingcast, a Ford Motor Company and Qualcomm Incorporated 
joint venture. Our technology is expected to be incorporated into model 
2003 automobiles for Wingcast's inaugural telematics offering--which is 
planned to combine features such as vehicle location, automatic crash 
notification, and other location-based services focused on making 
driving safer and more enjoyable. Our wireless technology is already 
incorporated, or ``ported'', into several Digital Signal Processors, or 
DSPs, including those offered by Texas Instruments and Agere Systems, 
formerly Lucent Microelectronics. Our technology is capable of being 
integrated directly into wireless handsets.
     We believe Airbiquity can offer a viable Phase II solution for 
wireless carriers to obtain the location of wireless handsets. Our GPS 
Accessory is retrofittable to an estimated 15 million wireless handsets 
in service today. The GPS Accessory is compatible with phone models 
have been for commercial sale since 1998, and these phone models that 
are available through distributors throughout the United States today. 
We know we are not alone, since companies such as Qualcomm Incorporated 
and TruePosition currently have technological offerings that can serve 
as alternatives for Phase II E911 compliance. We expect the market for 
this technology will be competitive and well served with product 
offerings from the beginning.
    We at Airbiquity believe that the state of our products and 
technologies--being piloted and adopted by major commercial providers 
of location-based services, such as AAA (which has 44 million active 
members) and Wingcast, which expects to offer telematics service with 
some of its model 2003 vehicle lines--demonstrates the appropriateness 
and readiness of our solutions for public safety applications. We urge 
the Committee to continue its efforts to communicate with and educate 
the public regarding viable, commercial alternatives to support the 
Phase II E911 location mandate today. Thank you, and I am happy to 
answer questions the Subcommittee might have.

    Mr. Upton. Thank you.
    Mr. Nixon.

                   STATEMENT OF JAMES A. NIXON

    Mr. Nixon. Good morning, Mr. Chairman, members of the 
committee. I'm Jim Nixon from VoiceStream Wireless. I've been 
involved in 911 for over 7 years beginning as a 911 Center 
Supervisor in Nevada and answering 911 calls, many of them from 
wireless handsets. Later was a 911 coordinator for the State of 
Maryland and for the past 3 years have been working 911 issues 
for VoiceStream Wireless.
    My unique background kind of puts me on both sides of the 
fence and it gives me a little bit of insight into both camps, 
I hope.
    I've been asked to address the feasibility of the wireless 
Phase II deadline which is October 1 as has been mentioned 
before. We believe there have been great strides made in the 
technology, particularly over the last 2 years, but we don't 
believe that the equipment is ready for widespread deployment 
yet for a number of reasons I'll discuss later. And we've also 
heard that a number of 911 centers are trying to get their 
readiness together. We hope we can work to match the two 
capabilities up at the right time and the right place.
    We have a fear that a rush deployment would waste hundreds 
of millions of dollars on all sides of this issue and yet 
perhaps not provide an ultimately satisfactory system. We think 
there is a need for some real world carrier tests with public 
safety, with the carriers, with the local exchange carriers who 
play a key role in this whole process to make sure that the 
systems and solutions under trial today are viable for large 
scale deployments.
    Assuming these trials were successful we think that the 
wide scale deployment will be available at the end of 2002 or 
the beginning of 2003.
    We think a thoughtfully planned national implementation 
schedule and procedure is probably the best way to go. Our 
basic problem with the current requirements is that the 
accuracy in deployment requirements were established before the 
technology was developed or identified to meet those 
requirements. The case is one of acting in absolutely the best 
interest of consumers, but maybe a little bit ahead of what was 
warranted by technology at the time.
    The primary challenge as we've heard, and I'm sure Mr. 
Souder will tell us a little bit more about this later is to 
provide landline 911 call takers with the same type of 
information that they get on landline calls when they get 
wireless calls. Typically, you'll get a telephone number and an 
address. It's extremely helpful in trying to assess the 
situation and marshal the appropriate resources and get them 
underway quickly. The mandate provides that the carriers 
deliver the callback number as they've done in landline. The 
big difference is that the location is sent in a latitude and 
longitude format which is generally unfamiliar to many of us 
and we need to help the 911 center call takers in their very 
tough job to equate that location to an address or a landmark 
that they're commonly used to using so they can efficiently do 
their jobs.
    We believe that there's a number of steps involved in 
making this kind of an improvement in any kind of a service, 
particularly as important as 911 and we think that as we said 
with the accuracy and deployment requirements being set first, 
we see this as kind of backwards from what's normally done in a 
technology environment where you identify what the requirements 
are, but then you go into building standards to which equipment 
can be designed and tested so that you can pick the best, most 
likely candidate for further development. Vendors can produce 
these things, test them adequately and thoroughly as Mr. 
Amarosa mentioned in the systems to make sure they don't cause 
additional problems. And here we've got somewhat of a reverse 
of that with the finite requirements being defined before there 
was a roadway built to get to that capability. We think this is 
possible to do. We think that the industry is poised to begin 
working cooperatively with all the other parties including 
public safety as a critical element to this whole issue.
    We think that its' time for us to build on the experience 
we gained in the Phase I deployment process, to build a very 
solid and achievable Phase II plan. We would think that we can 
solve issues and make progress much more quickly if we work 
cooperatively, rather than trying to put Mr. Sugrue and his 
time at the Wireless Bureau through the process of deciding 
issues on filings and we look forward, very much to working 
with APCO and Public Safety and Project Locate. We think that's 
an absolutely wonderful forum to get the subject matter through 
experts together so that we can make some real progress and get 
some meaningful service out as quickly as possible.
    Thank you for the opportunity to speak and I'd be happy to 
answer questions.
    [The prepared statement of James A. Nixon follows:]
  Prepared Statement of James A. Nixon, Senior Manager of Regulatory 
               Affairs, VoiceStream Wireless Corporation
    Good morning, Mr. Chairman and members of the Committee. I am Jim 
Nixon of VoiceStream Wireless. I have been involved with 911 emergency 
services for the past seven years, initially as a supervisor for a 911 
call center in Nevada; later as the E911 Coordinator for the State of 
Maryland; and for the past three years, working on 911 implementation 
for VoiceStream. I have direct, ``hands-on'' experience with 911 
implementation, both from the perspective of public safety/law 
enforcement agencies and from the perspective of wireless carriers.
    VoiceStream is the fastest growing provider of broadband Personal 
Communications Services (PCS) in the United States. Currently serving 
over 5 million subscribers, VoiceStream is the only U.S. wireless 
carrier that owns and operates a near-nationwide network using the GSM 
standard--the world's most widely used digital wireless standard. 
Through recent mergers and license purchases, VoiceStream has a 
licensed U.S. footprint of over 272 million American consumers. 
VoiceStream initiated its first service in 1996, when it was part of a 
predecessor company.
    The Committee has asked me to address whether the current wireless 
E911 Phase II deadline of October 1, 2001, only three and a half months 
from now, is feasible. While great strides in technology have been 
made, especially over the past two years, the technology is not yet 
ready for full national commercial deployment, and the vast majority of 
public safety agencies and their 911 networks are not close to being 
ready to receive and use wireless E911 information. A rushed deployment 
could waste hundreds of millions of dollars, without actually 
delivering a workable wireless E911 system. What is needed are ``real 
world'' carrier-public safety trials of the various location 
technologies under development. Assuming these trials are successful, 
commercial deployment may be able to begin in late 2002 or early 2003. 
A thoughtfully planned national implementation schedule, then, will be 
needed to deploy E911 successfully.
    It bears remembering that it took more than 20 years before ``land-
line'' 911 service was even available to half of all Americans. It is 
simply not realistic to expect that far more sophisticated wireless 
location technologies can be deployed ubiquitously within the 12 month 
schedule mandated by the Federal Communications Commission (FCC)--
especially since the vast majority of public safety equipment and 911 
networks continue to use 1950s-era technology. VoiceStream, like other 
wireless carriers, is committed to meeting the needs of public safety, 
and it believes these needs can be met. However, meeting these needs 
will be extremely challenging under the current time frames.
    We have a newly reconstituted FCC, with a new Chairman and three 
new Commissioners having been confirmed only a few weeks ago. 
VoiceStream fully expects that bringing order to the current issues 
regarding Phase II deployment will be one of the first tasks that the 
new FCC will tackle.
     I. HISTORY OF 911 SERVICE AND DEPLOYMENT IN LAND-LINE NETWORKS
    Emergency 911 services were implemented in land-line telephone 
networks over decades, without any FCC involvement.
    The heart of any 911 system is the Public Answering Safety Point 
(collectively, PSAPs). PSAPs are the agencies that answer 911 calls and 
then dispatch appropriate medical, fire, or police resources to the 
scene. PSAPs may be part of a local police or sheriff's department; 
they may be a regional agency with responsibility over a community of 
interest; or, they may be managed at the state level. Some PSAPs are 
funded from the general tax base; others have authority to assess 
monthly surcharges on carrier bills to customers.
    Basic 911. In 1967, the President's Commission on Law Enforcement 
and Justice recommended that a ``single number should be established'' 
nationwide for reporting emergency situations. The next year, the then-
administrator of telephone numbers (AT&T) set aside the digits 9-1-1 
for emergency services. With ``basic 911'' service, the telephone 
company--or local exchange carrier (LEC)--translates the dialed 911 
into the seven digit telephone number assigned to the PSAP call takers. 
Except for this number translation function, a ``basic 911'' call is 
processed like an ordinary telephone call.
    Enhanced 911. One of the problems with basic 911 service was that 
LEC telephone exchanges may not match PSAP serving boundaries. To 
address this routing problem, the LEC industry began introducing 
selective routing in the 1970s to help ensure that 911 calls were 
forwarded to the correct PSAP. This selective routing feature later 
became known as Enhanced 911 (E911) service. Over time, additional 
capabilities were added to E911 service, including:

<bullet> Caller Identification: The telephone number of the person 
        dialing 911 is forwarded to the PSAP, so the call taker can 
        return the call if the caller if disconnected.
<bullet> Caller Location: Addresses associated with land-line telephone 
        numbers are stored in an Automatic Location Identification 
        (ALI) database. Upon receiving the caller's telephone number, a 
        query is made to the ALI database to retrieve the caller's 
        address, so the PSAP can send emergency personnel to the land-
        line caller's location.
    The E911 Network. Advanced features, such as selective routing, 
caller ID and land-line location, information required the deployment 
of a specialized E911 network. A PSAP's E911 network consists of a 
selective router, trunks connecting PSAP call taker equipment to the 
centralized selective router and then to the LEC's end office switches, 
and the ALI database. The E911 network is used exclusively for 911 
calls, PSAPs maintain control of their network (e.g., determine how 
many trunks are needed, implementing technology upgrades) and, while 
they often have the LEC operate the network, PSAPs direct and pay the 
LEC for these services. Because a state may have dozens (or hundreds) 
of PSAPs, LECs historically tariffed the various components of the E911 
network so each PSAP could easily order the functionalities it desired.
    Land-line 911/E911 Deployment. It took more than 20 years (1987) 
before 50 percent of the U.S. population had access to 911 or E911 
service. Today, nearly 93 percent of the population has access to some 
type of 911 service from their land-line telephone.
                      II. WIRELESS E911--GENERALLY
    Cellular service was introduced in the mid-1980s and it is my 
understanding that most cellular carriers provided basic 911 service to 
their customers. In California, for example, cellular 911 calls were 
forwarded to the state highway patrol because at the time cellular 
service was principally used in vehicles.
    In 1994, shortly after setting aside spectrum for Personal 
Communications Services (PCS), the FCC commenced a proceeding to 
determine whether it should impose 911 obligations on wireless 
carriers. In its seminal 1996 Wireless E911 Order, the FCC decided that 
wireless carriers should implement E911 service in two 
phases:<SUP>1</SUP>
---------------------------------------------------------------------------
    \1\ See Revision of the Commission's Rules to Ensure Compatibility 
with Enhanced 911 Emergency Calling Systems, CC Docket No. 94-102, 
Report and Order and Further Notice of Proposed Rulemaking, 11 FCC Rcd 
18676 (July 26, 1996).

<bullet> With Phase I, wireless carriers must transmit the handset's 
        phone number and the location of the cell site (or cell sector) 
        serving the E911 caller, thereby providing call back capability 
        and the caller's general location.
<bullet> With Phase II, wireless carriers were ordered additionally to 
        provide within five years more precise location information 
        (latitude and longitude) within a radius of 125 meters 67 
        percent of the time.
    Although it recognized that Phase II location technology did not 
exist at the time, the FCC nevertheless determined that its five-year 
(October 2001) implementation schedule was achievable. In response to 
estimates that Phase II would cost up to $7.5 billion, the FCC stated 
only that these costs would decrease over time.
    The FCC has also substantially changed virtually all of its 
original wireless E911 requirements and, in most instances, it has made 
them more onerous.<SUP>2</SUP> For example:
---------------------------------------------------------------------------
    \2\ See, e.g., Revision of the Commission's Rules to Ensure 
Compatibility with Enhanced 911 Emergency Calling Systems, CC Docket 
No. 94-102, Memorandum Opinion and Order, 12 FCC Rcd 22665 (Dec. 23, 
1997); California Declaratory Order, 14 FCC Rcd 1969 (Dec. 18, 1999); 
Second Report and Order, 14 FCC Rcd 10954 (June 9, 1999); Third Report 
and Order, 14 FCC Rcd 17388 (Oct. 6, 1999); Memorandum Opinion and 
Order, 14 FCC Rcd 20850 (Dec. 8, 1999); Third Memorandum Opinion and 
Order, 15 FCC Rcd 1144 (Jan. 13, 2000); California Declaratory 
Reconsideration Order, 15 FCC Rcd 1997 (Feb. 1, 2000); Fourth 
Memorandum Option and Order, 15 FCC Rcd 17442 (Sept. 8, 2000); Fifth 
Memorandum Opinion and Order, 15 FCC Rcd 22810 (Nov. 22, 2000); Fourth 
Report and Order, 15 FCC Rcd 25216 (Dec. 14, 2000); King County 
Clarification Letter (May 9, 2001); Non-Initialized Phone Further 
Notice of Proposed Rulemaking, FCC 01-175 (May 25, 2001).

<bullet> PSAPs were initially required to pay carriers the costs 
        incurred in upgrading mobile networks to support wireless E911. 
        The FCC eliminated this requirement in December 1999. In May 
        2001, the FCC went further and imposed a financial burden on 
        wireless carriers not imposed on incumbent LECs. Specifically, 
        the Wireless Bureau has now required wireless carriers to pay 
        for a portion of the PSAP's own E911 network and, apparently, 
        to incur the costs needed to convert 21st century wireless data 
        into a form that can be used by the antiquated equipment that 
        many PSAPs continue to use.
<bullet> A PSAP request for E911 services historically was not acted 
        upon unless the PSAP had installed the capability to use the 
        service. This requirement prevents wireless carriers from 
        having to build an E911 highway to nowhere. Nonetheless, the 
        FCC is currently considering a PSAP proposal to require 
        wireless carriers to begin implementation before PSAPs have 
        upgraded their equipment and E911 network.
<bullet> In October 1999, the FCC increased its Phase II accuracy 
        requirements to 100 meters 67 percent of the time and 300 
        meters 95 percent of the time for ``networked-based'' 
        solutions. However, it imposed even more stringent accuracy 
        requirements--50 meters 67 percent of the time and 150 meters 
        95 percent of the time--for carriers using a ``handset'' 
        solution.
    Phase I Implementation Status. Wireless carriers must provide Phase 
I cell site information within six months of a PSAP request, and 
VoiceStream has received Phase I requests from approximately six 
percent of all PSAPs (450 of approximately 7,000 total PSAPs). Although 
Phase I implementation is reasonably straightforward (and far simpler 
than Phase II), experience has proven that Phase I generally cannot be 
implemented within six months of a request. In most cases this 
``delay'' is due to a combination of factors relating to the technology 
upgrades or ``patches'' needed to allow the PSAP's 911 network to 
accept the additional data necessary for wireless E911. Many PSAPs have 
little interest in Phase I, but we have found they often do not 
understand that they need Phase I capabilities in order to use Phase II 
capabilities and that, by waiting to implement both at once, they make 
implementation within six months virtually impossible.
            III. THE CHALLENGE OF PHASE II WIRELESS LOCATION
    The successful implementation of Phase II location capabilities 
requires modifications by and the cooperation of wireless carriers, 
vendors that supply needed technology to carriers, the PSAPs, and the 
operator of the E911 network (generally, the incumbent LEC).
    A. Wireless Carriers. The provision of location information for 
land-line 911 calls is straightforward: the telephone number is 
associated with a fixed address and that fixed address can be stored in 
an ALI database. How can a wireless carrier provide location 
information for a customer that is mobile--and whose location may 
change during the 911 call?
    In 1996, at the time of the initial FCC Order, everyone expected 
that the Phase II requirements would be implemented by a ``network 
solution,'' and the FCC's initial rules permitted only a network 
solution. With a network solution, location is determined using 
triangulation of nearby cell sites (calculating distance by the time 
consumed for cell site-to-handset signal transmissions). Under current 
FCC rules, a carrier using the network solution must provide a level of 
accuracy within 100 meters 67 percent of the time and within 300 meters 
95 percent of the time.
    Later, following additional developmental work, some vendors 
proposed use of ``handset solutions.'' The handset solution often (but 
not necessarily) includes a Global Positioning Satellite (GPS) 
receiver, with triangulation performed using the GPS satellite data in 
conjunction with data derived from the wireless network. Carriers like 
VoiceStream using GSM technology proposed a hybrid handset solution 
involving network and handset upgrades. In 1999, the FCC revised its 
rules to permit use of the handset solutions, but it also imposed more 
rigorous requirements on users of this alternative--carriers must 
provide a level of accuracy within 50 meters 67 percent of the time and 
within 150 meters 95 percent of the time.
    There are inherent weaknesses with each solution. The network/
triangulation approach does not work well in rural areas where there 
are fewer cell sites. The GPS approach does not work well in buildings 
and urban areas where the satellite signal may be blocked. The solution 
pursued by a given carrier is often dictated by the particular network 
air interface it uses (e.g., AMPS, CDMA, GSM, iDEN, TDMA). In reality, 
most carriers plan on using a hybrid approach--a combination of the 
network and handset solutions that work best for their network air 
interfaces.
    VoiceStream, which uses the GSM system prevalent throughout the 
world, is deploying Enhanced Observed Time Difference (E-OTD), a hybrid 
handset solution that requires upgrades to handsets as well as to its 
network. GSM carriers in Europe and elsewhere are observing the results 
of VoiceStream's testing and deployment before they commit to large 
scale deployments of high accuracy location capabilities within their 
networks. VoiceStream has effectively become a test bed for the world's 
GSM carriers because of the FCC regulatory initiative.
    For the past year, VoiceStream has been testing the E-OTD solution 
in Houston, and it has already expended millions of dollars on Phase II 
development. We currently have the equivalent of 10 people committed 
full time to this effort and this commitment will increase steadily as 
we work toward large scale deployments. While progress has been made, 
the technology is not yet ready for full national deployment, as 
discussed further below.
    B. Vendors. Carriers provide services to the public, but they 
remain dependent on their vendors--of both network equipment and 
handsets--to implement a new capability. VoiceStream, like most 
wireless carriers, requires major upgrades to both its network 
equipment and to the handsets provided to customers in order to 
provision Phase II location accuracy. In the end, a carrier's ability 
to meet a regulatory mandate like E911 is determined by the ability of 
vendors to develop and deliver large quantities of commercial-grade 
equipment and handsets to the carrier in a timely fashion. Even before 
this new equipment can be built, however, a set of industry wide 
standards must be developed so the equipment can be designed to meet 
consistent operating specifications. Typically, the standards 
development process for new capabilities take over two years and 
vendors then need an additional 18 months or so to design and produce 
new equipment based on these standards. While VoiceStream can urge its 
vendors to develop solutions quickly, it is the vendor that must, in 
the end, be able to create a viable and reliable solution. Since the 
E911 initiative is being driven, worldwide, by the FCC location 
mandate, vendors are proceeding with care. Their care is also 
influenced by the economic slowdown and by carriers--less aggressive 
capital investment plans. Now is not an ideal time for vendors to be 
expected to invest in expensive research, development and production 
work for equipment that is mandated, not by the marketplace, but rather 
by the U.S regulator.
    C. PSAPs. Most PSAPs cover small areas, have limited resources and 
have limited understanding of the technology required for E911 (e.g., 
they will need to obtain sophisticated mapping software so they can 
convert latitude and longitude data into recognizable street addresses, 
required telecommunications software development and improvements). 
Many PSAPs still use equipment which is based on 1950s-era technology 
that is not sufficiently robust to handle Phase I service, much less 
the additional data required for Phase II precision. When mobile 
service was introduced in the 1980s, PSAPs decided to have wireless 911 
calls delivered to basic telephones, which lacked the ability to 
display 911 data, rather than make the 911 network and equipment 
upgrades necessary to provide wireless callers enhanced 911 service. 
While PSAPs may now be anxious to acquire modern equipment and 
networks, others (e.g., city council, county commission) often 
determine funding. Further, individual PSAPs (and especially small 
PSAPs) often find it difficult to convince the incumbent LEC managing 
their E911 network to upgrade the network without the PSAP securing 
significant additional funding.
    D. The LEC Bottleneck. Most PSAPs use the local incumbent LEC 
services to provision their E911 network, and the majority of current 
911 networks rely on 1950s-era signaling technology. This combination 
of LEC services and PSAP technology simply cannot support wireless E911 
services, whether Phase I or Phase II. For example, the PSAP-to-
selective router trunks routinely handle only eight digits, and 20 
digits are in fact needed for Phase I implementation and additional 
digits will be needed to depict Phase II latitude and longitude 
calculations. The LECs have unfortunately been slow to modernize the 
E911 networks to accommodate this additional data. One significant 
issue today is the readiness of the LECs to receive wireless carrier 
location data using the industry standard (TIA J-STD-036) that was 
cooperatively developed by the LECs, PSAPs and wireless carriers 
specifically for wireless E911. If they have not yet installed this 
capability on their 911 networks, additional development time may be 
required to accommodate the non-compliant interfaces being used. Given 
that each PSAP installation is to a large degree custom built, 
considerable work and time may be necessary to address the multiple 
configurations existing today.
    E. Coordination Issue. Coordination is difficult given the sheer 
number of parties involved. Take, for instance, the Phase I deployment 
undertaken by the Texas Commission on State Emergency Communications. 
TX-CSEC expected that Phase I could be deployed in six months--even 
though the deployment involved over 360 PSAPs, 24 Regional Planning 
Commissions, over 40 wireless carriers, several LECs, and an 
independent Phase I database vendor. Significant delays were 
encountered due to signaling incompatibility between the LEC selective 
routers and wireless switches, signaling incompatibility between 
wireless networks and some database systems, insufficient time to 
complete the huge number of database record updates required, 
insufficient time for the PSAPs to complete the routing analysis and 
address verifications necessary to correctly identify cell site 
locations, errors in some of the numerous trunk orders needed to 
connect wireless switches to the selective routers and insufficient 
capacity in some selective routers to accommodate the additional 
trunking. The Phase I conversion in Texas is now nearing completion, 
after two years. The Phase II deployment will be even more 
challenging--and unless significant changes are made to the process and 
better planning is undertaken--even more complicated.
  IV. WIDESPREAD PHASE II WIRELESS E911 DEPLOYMENT WILL BE EXTREMELY 
               CHALLENGING UNDER CURRENT FCC REQUIREMENTS
    Under current FCC rules, carriers must provide Phase II E911 
service by October 1, 2001 or within six months of a PSAP request, 
whichever is later. The Committee has asked whether this deadline is 
feasible. VoiceStream believes that widespread deployment under this 
mandate will be daunting for all parties involved.
    The FCC established the October 2001 deadline and its accuracy 
requirements five years ago when there was no known method of meeting 
the accuracy requirements established. Given that both the deadline and 
the accuracy requirements were established based on limited data, it 
should not be surprising to anyone that we find ourselves in the 
current situation.
    VoiceStream's situation illustrates the challenges posed by these 
issues. VoiceStream uses GSM, the most mature digital air interface 
technology serving over 400 million subscribers worldwide. The FCC's 
911 rules are the most aggressive requirements in the world. 
VoiceStream, being the largest GSM operator in the U.S., took the lead 
and, with its vendors, developed the GSM E911 solution, E-OTD. Because 
E-OTD initially did not appear to meet the more stringent FCC handset 
requirement, the FCC granted VoiceStream a limited Phase II waiver. But 
in granting this waiver, the FCC imposed new requirements on 
VoiceStream, including:

<bullet> VoiceStream must deploy by the end of this year a second, less 
        precise Phase II solution (known as Network Software Solution 
        (NSS)), and Voice-Stream must deploy this NSS solution 
        nationally.
<bullet> The E-OTD solution requires modified handsets, and the FCC 
        required that beginning October 1, 2001 50 percent of all new 
        VoiceStream handsets sold must be E-OTD capable, and 100 
        percent of all handsets sold by March 31, 2002 must be E-OTD 
        capable.
<bullet> Two years after the initial rollout, on October 1, 2003, 
        VoiceStream must satisfy the more rigorous handset accuracy 
        requirements of 50 meter accuracy 67 percent of the time and 
        150 meters 95 percent of the time.
    The FCC Phase II deadline is only 3.5 months away. Even if 
VoiceStream could complete a far-reaching installation of its E-OTD 
solution by October 1, based on Phase II requests received thus far 
there are only a handful of PSAPs across the country capable of 
actually accommodating Phase II service. And even if PSAP equipment and 
the E911 network were Phase II compatible, it appears there still will 
be insufficient quantities of Phase II handsets available in the market 
for customers to purchase. The economic slowdown has slowed consumers 
discretionary purchasing dramatically since the waiver was granted.
    In summary, the October 1, 2001 deadline will present problems for 
a number of reasons. And even while VoiceStream, and other carriers, 
will be in a position to conduct tests with a handful of PSAPs during 
2002, I believe that the PSAPs, LECs and carriers will have trouble 
achieving a nationwide availability deadline of October 2002. Phase II 
location capability holds great promise for public safety and for 
commercial applications ``but turning that promise into reality has 
proven to be much more complicated than anyone could have foreseen five 
or even two years ago.
    Industry and governmental technological predictions frequently miss 
their targets. E911 is a case in point.
                    V. OTHER IMPLEMENTATION PROBLEMS
    The Committee asked to be apprised of other problems with Phase II 
implementation. I below highlight some of the numerous problems that 
threaten this effort.
    A. Zoning and permitting. Many of the available wireless location 
options require additional equipment at the cell site and these 
additions could require zoning and building permitting actions 
depending on local laws and rules. Equipment added inside existing cell 
site enclosures may cause concern for electrical load capacity, heating 
and cooling, or structural weight limits (especially on towers). 
Antennas and other equipment added to the exterior of the cell site 
enclosure or on a tower structure could easily raise new zoning issues. 
In either case, adding equipment to a cell site very often forces 
renegotiation of the site lease. If all of these issues are not 
successfully resolved, it may be impossible to deploy the location 
equipment in a manner capable of meeting the FCC accuracy requirements. 
Obviously, the time needed to resolve these sometimes highly 
contentious and political issues could easily prevent carriers from 
meeting the 6 month deployment deadlines.
    B. Telephone number exhaust concerns. As you know, telephone 
numbers are in extremely short supply and several number optimization 
measures are being implemented to conserve telephone numbers in the 
U.S. today. Unfortunately, this number exhaust problem is being made 
worse because wireless carriers are being forced to use their otherwise 
dialable public switched telephone numbers in order to interface with 
existing 911 networks. The pseudo-ANI (Automatic Number Identification) 
is the ``key'' number used for selective routing and to identify a 
specific record in the 911 database, thereby allowing wireless 911 
calls to be delivered on the existing 911 networks. However, due to 
limitations of existing selective routing equipment, in many instances 
dialable telephone numbers instead of non-dialable, true ``pseudo''-ANI 
numbers are required. Once a dialable telephone number is assigned as a 
pseudo-ANI number, the telephone number cannot be assigned to a 
subscriber and used in the public telephone system for fear of creating 
confusion during a 911 emergency. This wasteful use of a critically 
limited resource must be corrected. For this solution to work, changes 
must be made to LEC switches and selective routers to allow them to 
recognize and use non-dialable, true ``pseudo''-ANI numbers for 911 
purposes.
    Discriminatory Funding of the E911 Network. PSAPs pay the full cost 
of the E911 network, up to an incumbent LEC's end office switch. 
However, last month the FCC ruled that wireless carriers must fund a 
portion of the E911 network--the new elements between the existing 
selective router and the mobile switch which are required to retrofit 
modern wireless systems to support the antiquated 911 networks which 
are so prevalent. This discriminatory arrangement is inconsistent with 
long-standing cost causation principles and inconsistent with the 
parity objective that Congress has established for 911 service. See 
Wireless Communications and Public Safety Act of 1999 (Congress 
expressed its intention that wireless carriers be treated in generally 
the same manner as land-line carriers on 911 issues).
    D. PSAPs Are Discouraged from Modernizing Their Networks. Wireless 
carriers have modern networks and PSAPs largely use 1950s-era 
technology. There are two ways that Phase II service can be provided in 
this environment: (1) PSAPs can upgrade their equipment and networks to 
more current technology such as Feature Group D, ISDN, SS7, TCP/IP; or 
(2) they can use various work around techniques so Phase I and II data 
can be handled by their antiquated networks. Until last month, each 
PSAP was required as a prerequisite to making a valid Phase I or Phase 
II request to make an individual choice between these two options based 
on its unique circumstances. However, now that the FCC has required 
wireless carriers to fund the new ``wireless portion'' of the E911 
network, PSAPs can effectively require carriers to undertake (and pay 
for) the conversion function.
    In this environment, PSAPs have no incentive to upgrade their 
equipment and networks to 21st century technology. Wireless carriers 
are faced with a double whammy--not only must they upgrade their own 
networks to Phase I/Phase II, they must then spend additional sums to 
convert this 21st century technology so it can be used by 1950s-era 
public safety technology. This situation is particularly ironic because 
the FCC deleted carrier cost recovery as a prerequisite for service 
based in part on claims from public safety that if this change was not 
made, the carriers would ``gold plate'' their 911 systems. Yet under 
the new rule, gold plating now appears to be a valid PSAP option.
    E. The Current Implementation Plan Is Backwards. Ordinarily, 
carriers first test a new technology before they install it anywhere in 
their network. Once bugs have been identified and fixed, they can begin 
installing the feature in their switches. It may be six months (or a 
year) before a carrier completes installation of the feature throughout 
its network. Forcing deployment of incompletely tested systems actually 
increases the danger to the public by creating an environment in which 
the wireless system may crash--effectively preventing completion of the 
very 911 calls this program is designed to enhance.
    With E911, however, the implementation schedule is instead 
determined by each of the 7,000 PSAPs. If 1,000 PSAPs request Phase II 
service in a short period of time, by rule, the carrier must then 
process and completely install 1,000 orders over the following six 
months. The problem with this approach, besides the sheer quantities 
involved, is its haphazardness. Rather than being able to use resources 
efficiently, by converting PSAPs on a market-by-market basis, carriers 
must be prepared to convert an untold number of PSAPs simultaneously 
across the country. This strategy totally defeats public safety and FCC 
arguments that carriers will recoup their location technology costs 
through commercial service. A revenue generating service simply cannot 
be built when the required location capability hardware is installed in 
geographically dispersed small islands across the nation.
    F. A Pending Proposal Would Result in Chaos. VoiceStream has 
already received over 90 Phase II requests from PSAPs in 48 states. No 
carrier has the resources to implement this many diversely located 
PSAPs simultaneously. Carriers must therefore ration their resources 
using a reasonable strategy. (While it took more than 20 years before 
911/E911 service was available to 50 percent of Americans, the FCC 
Order requires wireless carriers to achieve this result in five years 
while concurrently developing a new technology.)
    Today, by FCC rule, PSAPs must complete their upgrades before they 
may even make a valid E911 request. This requirement helps ensure that 
finite carrier resources are focused on PSAPs that have the capability 
actually to use wireless E911 service. However, PSAPs have recently 
asked the FCC to require carriers to begin their implementation efforts 
based on a promise that they will be ready when the carrier is ready. 
The problem with this approach is that while PSAPs may truly believe 
they will be Phase II capable on a certain date in the future, they may 
have significant difficulty meeting this date because anticipated 
funding is not approved or because of delays in the delivery of their 
new equipment or network upgrades. The Texas CSEC example cited earlier 
demonstrates the complexity of wireless E911 implementation in a real 
world environment. This latest PSAP proposal will certainly increase 
the quantity of E911 requests made, but, if adopted this proposal will 
result in fewer PSAPs converted--as carriers convert PSAPs that are not 
ready as promised, PSAPs that already are Phase II capable will wait in 
line. Thus, unless there is certainty the PSAP can use the Phase II 
data, we are certain to miss the opportunity to improve public safety 
in some PSAPs that have completed the considerable effort necessary to 
be truly Phase II capable.
    G. E911 Service for non-Customers. In 1997, the FCC decided that 
carriers should forward all 911 calls to PSAPs, including 911 calls 
made by persons who are not customers and, therefore, do not have a 
phone number associated with their handset. Carriers expressed concern 
because features such as a ``call back'' capability would not be 
available from such ``non-initialized'' handsets. The land-line 911 
equivalent--requiring that every telephone in America can not only call 
911 but also can be called back by the PSAP--is not a requirement. 
PSAPs have now begun to complain about the unavailability of call back 
from these phones and, while carriers are busy implementing Phase I and 
preparing for Phase II, the FCC has asked whether industry should now 
be required to expend additional millions providing additional 
capabilities to non-initialized handsets.
                          VI. RECOMMENDATIONS
    Wireless E911 is an instance where the federal government, acting 
with the best of intentions, moved faster that the state of technology 
warranted. Having worked in the 911 field and managed 911 operations, I 
applaud the FCC's willingness to reach for the stars in its efforts to 
help America's thousands of dedicated 911 professionals by improving 
the usefulness of wireless E911. President Kennedy took a similarly 
bold stance in 1960 when he decided that the United States could send a 
man to the moon within a decade. Kennedy's goal was achieved because 
the necessary resources and coordination efforts were committed to the 
project. Unfortunately, the resources and coordination necessary for 
wireless 911 improvement have increasingly been placed on only one of 
the many necessary participants. Ironically, the wireless industry is 
being asked to retrofit its modern communications technology to support 
technology developed prior to the Kennedy Administration.
    It is now time for us to work together to build on the knowledge we 
have gained since the 1996 FCC Order by establishing a realistic 
strategy for Phase II deployment. We have new FCC Commissioners and I 
believe that these new Commissioners should be given an opportunity to 
review past orders and requirements based on the substantial experience 
of the Phase I implementation and recent developments in Phase II 
technologies. I would like to believe that a new FCC would:

<bullet> Reexamine all wireless E911 obligations and deadlines based on 
        the knowledge learned;
<bullet> Encourage carriers, vendors, LECs and PSAPs to engage in 
        ``real world'' trials of various Phase II technologies in order 
        to ascertain areas in need of further improvement and to 
        develop realistic operational parameters;
<bullet> Consider in its new approach the impact zoning and permitting 
        issues may have on deployment timelines and include reasonable 
        accommodations in the schedule for such potential delays;
<bullet> Review the current and future problems arising from the 
        inappropriate use of our limited telephone number resources as 
        911 data keys and develop a workable alternative;
<bullet> Establish an implementation schedule that is efficient, 
        considers the aforementioned issues, and meets the needs of 
        both industry and the public safety community, and
<bullet> Be guided by both the long-term, as well as short-term, best 
        interests of the Public's need for a sound and nationally 
        consistent 911 service. Let's do it right, rather than just 
        fast.
    Thank you for the opportunity to address the Subcommittee today. I 
am happy to address any questions that you may have.

    Mr. Upton. Thank you.
    Mr. Souder, we want to congratulate you and your group here 
locally for the job that they did that was displayed in the 
video at the start. We will not take that 2 minutes away from 
your time.

                    STATEMENT OF STEVE SOUDER

    Mr. Souder. Thank you, Mr. Chairman, and good morning to 
you and members of the committee. My name is Steve Souder. I am 
the Administrator of the Arlington County, Virginia 911 
Emergency Communications Center and my comments this morning 
are offered on behalf of three associations. One is the 
Association of Public Safety Communications Officials, the 
other is the National Emergency Number Association and the 
third is the National Association of State 911 Administrators. 
These three organizations represent 20,000 911 professionals 
throughout the United States.
    In the 1980's, cellular or as we call it wireless 
communications and telephones were introduced commercially in 
the United States and have had a profound and mostly positive 
impact on society and our quality of life. Each day, there are 
approximately 320,000 911 calls made in the United States. Of 
those 320,000 911 calls, approximately 110,000 calls a day are 
made from wireless telephones. As Mr. Terry mentioned earlier, 
more than 90 percent of the citizens surveyed indicate that the 
No. 1 reason that they purchased a wireless telephone is for 
their safety and for their security.
    Wireless 911 calls constitute between 40 to 60 percent of 
911 calls received and do not provide any automatic location, 
identification or ALI information. ALI information is what is 
meant by intense 911. Consequently 911 call takers do not where 
40 to 60 percent of all 911 calls are calling from or where the 
callers are at and often the callers do not know where they are 
at, nor do they know their telephone number, nor do they many 
times know the provider of the telephone service to that 
telephone number.
    If I could draw your attention to the exhibit on the easel, 
if you were to call 911 on a wireline telephone as I hold 
before you from your office, your business or from a coin 
telephone, the call taker would know exactly where you were 
calling from. However, if you call up 911 on a wireless 
telephone without moving one inch, the call taker would have no 
idea where you're calling from. As you can see, there is more 
telephones to which call 911 and more 911 calls being made, 
most of them from wireless telephones. Because the location of 
the caller is unknown we are regressing in our ability to 
provide quality service to the community, rather than 
progressing.
    Wireline 911 calls are usually received and entered in the 
dispatch center within 40 seconds due to the availability of 
the ALI information providing the call location. However, 
wireless 911 calls may cause up to more than 4 minutes of 
additional delay in entering those calls into the system 
because without the caller knowing where they are and the call 
taker knowing where they are, there is a tremendous amount of 
dialog that has to go between the two in order to enter the 
information that will allow for a speedy response.
    In 1994, the Public Safety Communications organizations 
petitioned the FCC for assistance. As a result, in 1996, the 
FCC issued rules. Included in those rules were Phase II which 
is what we're speaking about today and that by October 1, 2001, 
the location of wireless 911 callers be provided to the public 
safety answering point or PSAP, commonly referred to as the 911 
Center within a radius of between 164 feet and 328 feet and I 
deliberately mention feet as opposed to meters which is often 
referred to because it gives us a context in which to view that 
distance. Remember the 320 feet is slightly longer than a 
football field. That is a far cry from the information that we 
saw presented on the ALI screen earlier.
    In the interim, wireless telephones have been improved to 
include the ability to page, send and receive e-mail, access 
the internet, vibrate instead of ring and ring in many 
different tones and styles and become smaller and come in every 
color of the rainbow. Recently, in fact, I saw an advertisement 
advertising a telephone that could provide video. As Mr. Markey 
said earlier, now 5 years after the rules have been issued and 
4 months before the technology is required to be provided, 
October 1, 2001, some carriers have requested a waiver of that 
requirement and others are expected to do so. The single most 
important reason that people use phones is for their safety and 
security and yet the ability to provide location technology to 
locate those people when they call 911 has not been provided 
and waivers to providing it are being requested. Again, as Mr. 
Terry mentioned earlier, it is not unusual for PSAP to receive 
as many 70 wireless 911 calls reporting one accident. Each call 
must be answered to ensure that a different emergency is not 
being reported. If the location of the caller were known, the 
speed and the manner in which these multiple calls were handled 
could be improved dramatically.
    There are many news accounts of wireless 911 calls that 
result in fatalities because the 911 call taker and the 911 
caller did not know the location of the emergency. A highly 
publicized case several months wherein a car went off the road 
in Southern Florida resulted in a fatality and a lot of media 
attention. The caller's call sank beneath the water as the call 
taker talked to the victim for 3\1/2\ minutes as the call taker 
tried in vain to obtain the location that the car was located 
at. Meanwhile, emergency vehicles were speeding up and down the 
road looking in vain for the location of the car. When the car 
was finally located, it was totally submerged in water and its 
passenger had succumbed. That victim could have been any one in 
this room, your family members, your loved ones, co-workers, 
business associates, it could be a wireless telephone service 
provider, it could be a Member of Congress or it could be a 911 
call taker. This type of tragedy can strike anyone.
    In my own jurisdiction, as mentioned earlier in the video, 
within the last year there have been three high profile 
incidents involving reports by people using cellular telephones 
to report emergencies that have gained both national and 
international attention: abduction and car jacking which we saw 
on the video; and abduction and rape; and a person threatening 
suicide. It was only through professionalism, luck and 
persistence that they were positively resolved and in one case 
it took almost an hour and another almost 30 minutes for 
something that should have taken less than 1 minute.
    It is unconscionable that in 1987 when 100 percent of the 
enhanced 911 calls received were provided with location 
technology and yet in the year 2001 60 percent of those calls 
received are not provided with location technology.
    In closing, in 1958, the Congress of the United States 
endorsed the concept of the three digit number 911 for use in 
summoning law enforcement, fire, rescue and emergency medical 
services. Ten years later, in 1968, the first 911 call was made 
from a small town of Haileysville, Alabama. Since that time, 
911 has become synonymous to Americans as the best way to 
request emergency assistance. Millions of citizens owe their 
life to 911 and with the advent of wireless telephones, 911 
service now is available from locations that it was never 
available from before.
    On behalf of APCO, NENA and NASNA, I urge the Congress to 
do whatever is within your power to ensure that those ever 
increasing number of American citizens who call 911 from their 
wireless telephone are assured that their location is made 
available and that the 911 emergency communication center is 
able to process those calls in the same manner that occurs with 
a 911 call made from a wireline telephone. Americans deserve 
that, expect that and need that.
    Thank you.
    [The prepared statement of Steve Souder follows:]
 Prepared Statement of Steve Souder, Administrator, Arlington County, 
    Virginia 9-1-1 Emergency Communications Center on Behalf of the 
 Association of Public-Safety Communications Officials-International, 
   Inc., the National Emergency Number Association and the National 
            Association of State Nine One One Administrators
    Mr. Chairman, members of the Committee, thank you very much for 
providing me with this opportunity to appear before you today. My name 
is Steve Souder, and I am the Administrator of the Arlington County 9-
1-1 Emergency Communication Center. I am here today on behalf of the 
Association of Public-Safety Communications Officials-International, 
Inc. (APCO), the National Emergency Number Association (NENA), and the 
National Association of State Nine One One Administrators (NASNA). 
These associations represent state and local government emergency 9-1-1 
communications centers (also known as ``Public Safety Answering 
Points'' or ``PSAPs''). APCO, NENA, and NASNA have worked tirelessly to 
promote wireless enhanced 9-1-1 capability, and I am proud to be here 
today on their behalf and the approximately 6,000 PSAPs across the 
United States.
    Until approximately ten years ago, nearly all incoming 9-1-1 calls 
to PSAPs were from wireline telephones, and most provided the call-
taker with automatic number identification (ANI) and automatic location 
information (ALI) for the caller. The provision of ANI and ALI is known 
as Enhanced 9-1-1 or E9-1-1. Attached to copies of my testimony is an 
illustration of a typical data screen that a call-taker sees 
immediately upon receiving a wireline E9-1-1 call. Armed with this 
information, the 9-1-1 call-taker can quickly and accurately dispatch 
police, fire, ambulance and other appropriate public safety agency 
personnel to emergency locations.
    Today, unfortunately, close to half of all 9-1-1 calls provide LESS 
information than what we had ten years ago for most wireline calls. The 
reason is simple. The explosive growth of wireless telephones has 
occurred without E9-1-1 capability, leaving PSAPs in the dark regarding 
the location of 40-50% of their 9-1-1 callers.
    There are approximately 110 million wireless telephones in use in 
the United States, a majority of which were probably acquired to 
provide the subscriber with a greater sense of security and the ability 
to seek emergency assistance anywhere, anytime. Those 110 million 
wireless telephones generate approximately 120,000 9-1-1 calls every 
day. However, uosdHokkhnlike the typical wireline call of even ten 
years ago, virtually none of those 120,000 daily wireless calls provide 
Enhanced 9-1-1 information. The data screen that the 9-1-1 call taker 
sees in those instances has none of the essential location and call 
back information that has long been available for most wireline calls.
    Without accurate location information for wireless calls, the 9-1-1 
call-taker must make a verbal inquiry regarding the caller's location, 
adding to the time that must be spent on each call, and slowing down 
response time by several precious minutes. Wireless 9-1-1 callers also 
often do not know exactly where they are, or they are unable to 
describe their location with any clarity or accuracy. In some cases, 
callers may even hang up, or their wireless calls are ``dropped'' 
before they can provide necessary information regarding the emergency 
or its location. These problems are every day occurrences in PSAPs 
across the nation.
    Mr. Chairman, as you know, there have been highly publicized 
emergencies where the absence of wireless location information led 
directly to the loss of life, or at least imposed far greater danger to 
than would otherwise have occurred. For example, members of the 
Committee may be familiar with an incident in my own jurisdiction in 
Northern Virginia where a women was hijacked and placed in the trunk of 
her car while it sped away. While she had a portable cell phone with 
her, and could call 9-1-1 to report her predicament, she obviously 
could not identify her changing location.
    In a recent highly publicized event in Florida, a woman's vehicle 
went off the road and landed in a drainage canal. She immediately 
called 9-1-1 from her cell phone as her car slowly sank into the water. 
However, because she could only identify the name of the road she was 
on, and not the actual scene of the accident (which was not visible 
from the road itself), emergency personnel were unable to find her in 
time, and the women drowned.
    I mention these cases because they tend to highlight the nature of 
the problem. However, I want to emphasize that the lack of wireless E9-
1-1 is a daily threat throughout the United States.
    Even when a wireless 9-1-1 caller can provide accurate verbal 
descriptions of their location, the absence of automatic location 
information can still wreak havoc with a PSAP's ability to respond 
efficiently to emergencies. For example, it is not at all unusual for 
my agency to receive up to 70 calls reporting the same automobile 
accident. Finding such an emergency is not the problem. The problem is 
that we don't know in advance that those 70 calls are all about the 
same event, and we therefore need to spend scarce resources to answer 
each and every call. In the meantime, the PSAP's incoming lines become 
clogged and we run the risk that there may be another caller waiting in 
line to report an entirely different emergency. In contrast, with 
automatic location information for wireless calls, our systems could be 
set up to prioritize calls such that after the first report, all other 
calls from the immediate vicinity would be placed in queue behind calls 
from other locations.
    Fortunately, major efforts are underway to address these serious 
problems, though much more is still to be done. Nearly ten years ago, 
APCO, NENA, and others identified wireless E9-1-1 as a critical issue 
and brought it to the FCC's attention. The Commission responded with a 
proceeding that began in 1994, and resulted in rules adopted in 1996. 
However, as of today, we still do not have wireless E9-1-1. Admittedly, 
providing accurate location information for a wireless call is not a 
simple matter, and it is not without substantial costs. I note, 
however, that in the five year period since 1996, a plethora of other 
new wireless telephone enhancements have been developed and marketed to 
the public. Examples include e-mail, instant messaging, Internet 
access, hands-free operation, and a shrinkage in the size and cost of 
handsets. I only wish the wireless industry and equipment manufacturers 
had developed E9-1-1 at the same pace as these convenience features.
    Now, we are facing an important deadline. On October 1, 2001, 
assuming that there has been a valid request from a PSAP, a wireless 
carrier must begin implementation of Phase II of the rules. Phase II 
requires delivery of location information within accuracy levels of 50-
100 meters (164-328 feet), depending upon the choice of location 
technology. Only then will PSAPs begin to see the real benefits of 
wireless E9-1-1.
    Some wireless carriers are proceeding on schedule to meet the 
October 1 deadline, and I applaud their commitment. Others, however, 
have fallen behind and are either seeking waivers, or are expected to 
do so in the near future. I and the public safety organizations that I 
am representing here today are deeply troubled by these waivers. We 
recognize that the carriers face significant costs and technical 
challenges. However, the fact that some carriers are on schedule, and 
that both network-based and handset-based location technologies are 
available and proven in the field, suggests that some carriers have 
simply not devoted sufficient attention or resources to this issue. 
These proven location technologies may not be perfect, but theyhave 
demonstrated the capability to meet the FCC's standards. Something 
better will always come along tomorrow. But we in public safety are 
seriously concerned that if we keep delaying present performance based 
on future promise, we will never have anything workable to improve on. 
We simply cannot allow the perfect to be the enemy of the good.
    The issues facing carriers are complex, and I know that APCO, NENA 
and NASNA are undertaking a serious review of the documentation 
submitted in support of various waivers, and will be making appropriate 
recommendations to the Commission. I also recognize that there may be 
some factors beyond the control of carriers which may cause delay in 
Phase II implementation in some situations. Nevertheless, the public 
safety community urges that the Commission be firm and, to the extent 
possible, hold the carriers to the existing deadlines, because lives 
are at stake. Every day of delay is another day that the public is at 
risk because of the inability to quickly and accurately locate 
emergencies reported on wireless telephones.
    Of course PSAPs also have a responsibility for making E9-1-1 a 
reality. Many PSAPs are now or will soon be ready to receive and 
process Phase II information from wireless carriers. Frankly, others 
are not so far along, either because of funding constraints, the need 
for LEC network upgrades, or perhaps a reluctance to expend scarce 
resources for Phase II readiness until the carriers are themselves 
proceeding towards Phase II deployment. The public safety community is 
working hard, however, to improve E9-1-1 readiness on the part of 
PSAPs. For example, I am part of APCO's Project Locate which is 
working, with participation from NENA, to educate PSAPs and assist them 
in becoming Phase II ready as soon a possible. APCO and NENA have also 
sponsored seminars and other educational programs across the county to 
educate PSAPs, some of which are quite small and have limited funding 
and technical expertise.
    The challenges before us are great. However, I am confident that a 
united effort between the wireless industry, equipment manufacturers, 
technology providers, PSAPs, and the FCC will allow the United States 
to continue to have state-of-art methods for receiving and processing 
calls for emergency assistance. In the end, our common goal must be the 
ability to locate every 9-1-1 call, regardless of the type of telephone 
placing the call. I am sure that this Committee agrees with that goal, 
and we welcome your support and encouragement in that regard.
    Thank you

    Mr. Upton. Thank you.
    Mr. Sugrue.

                 STATEMENT OF THOMAS J. SUGRUE

    Mr. Sugrue. Good morning, Mr. Chairman and members of the 
committee and subcommittee. A little over 2 years ago in my 
second week on the job as the new chief of the Wireless Bureau, 
I appeared before the subcommittee to testify on E911 matters. 
And Ms. Eshoo's comment about the importance of this technology 
to women reminded me that morning I told the subcommittee that 
I personally became a wireless subscriber when a number of 
important women in my life reached a critical stage and that 
was when my daughters became drivers and when my first daughter 
turned 16 we got our first cell phone and when her younger 
sister became 16 and started driving, we got the second. Then 
my wife said hey, what about me, and I said that's right, we 
got the third and I was the last one to get a cell phone in the 
family, although now we're all enthusiastic wireless users.
    Well, in the intervening 2 years, both Congress and the 
Commission have continued to focus on wireless 911 and taken 
important steps toward our mutual goal of a nationwide 
ubiquitous reliable wireless E911 system. And one of the 
cornerstones of this progress was the passage of the Wireless 
Communications and Public Safety Act in October 1999 under the 
auspices of this subcommittee and the leadership of the 
subcommittee Chairman Tauzin and many of the current 
subcommittee members, Mr. Shimkus was the sponsor, Ms. Eshoo, I 
know was the co-sponsor, Ms. McCarthy I know was very involved 
as well. So I commend the subcommittee and its members for 
those efforts in this regard and that legislation has been very 
helpful in moving us along to realize our goals for E911.
    On the FCC side, we too have been actively engaged in 911 
matters during the last 2 years. Among other things, we have 
increased the range of options available to carriers by 
permitting the use of new handset based technologies such as 
those using the GPS satellite system and so-called hybrid 
technologies, those that combine elements of both handset and 
network based approaches. Our decision in that regard was 
based, in part, on arguments from rural carriers that these 
technologies were needed for them to be able to implement E911 
and their operating areas.
    We adjusted and clarified our rules concerning certain 
operational issues affecting E911 implementation including cost 
recovery by carriers and PSAP. We convened several multi-party 
meetings, including carriers, vendors, manufacturers and 
members of the public safety community to exchange information 
on the state of location technology development. And we 
performed extensive outreach, speaking at numerous, numerous 
conferences, meetings and other events aimed at informing and 
educating interested parties including State and local public 
safety agencies and carriers on our 911 rules and policies.
    Now in 2001, the beginning of phased in deployment of Phase 
II is almost here. As has already been noted many times, 
carriers are begin the process of rolling out Phase II on 
October 1 of this year. This October 1 deployment timeframe 
dates back to a consensus agreement between the wireless 
carrier community and the public safety community which was 
filed with the Commission in 1996 and formed the basis of our 
E911 rules.
    Now I should add that Phase II implementation is not a 
flash cut process. Under the Commission's rules, it will take 
several years for Phase II to be ubiquitously deployed. For 
example, with handset based technologies, the rules require 
carriers to hit progressively higher penetration levels for 
location capable handsets until they achieve a 95 percent 
penetration by the end of 2005. Carriers choosing network based 
technologies must incorporate the necessary hardware and 
software in their networks over a 6 to 18 month period after 
receiving a request from a PSAP for service. These PSAP 
requests are expected to come in over the next few years as the 
PSAPs become ready to utilize Phase II services at different 
points in time.
    Well, where does wireless E911 stand now? I agree with Jim 
Nixon that it seems clear that parties have come a long way 
since their original agreement in 1996 and from the information 
provided to us, it appears that a number of carriers are well 
on their way to deploying Phase II and a number of call centers 
have requested Phase II and are preparing themselves to use 
this new location information effectively.
    We recognize that there are always challenges involved in 
deploying any major new technology on a mass market basis for 
the first time and wireless location technologies are no 
different. To make the promise of wireless E911 a reality, much 
work remains to be done by call centers, vendors and carriers 
to meet the challenges involved in deploying these life-saving 
technologies.
    We at the FCC will continue our efforts to make this 
happen. We are committed to working with the stakeholders to 
resolve problems and speed deployment, but we are also 
committed to enforcement of our rules, if for example, parties 
simply ignore their obligations or fail to make good faith 
efforts to comply.
    At the same time we will be flexible and practical in 
applying the E911 rules. Last year, the Commission set out 
specific standards for Phase II waivers in an order granting a 
specific limited waiver to VoiceStream. Those standards, 
fundamentally, require carriers to show the Commission what 
they can and will do to provide Phase II location information, 
not simply what they cannot do.
    We are currently considering several waiver requests and 
will address those based on the specific showings and facts 
presented to us. Our focus will remain on the most practical 
and realistic means of achieving the objectives of promoting 
public safety and implementing Phase II as soon as possible.
    Finally, I am reassured by factual information indicating 
that there is wireless location technology available, capable 
of locating 911 callers much more accurately than is the case 
today. In my view, it is time to begin the deployment process. 
And as that deployment proceeds, I expect that the technology 
and system-wide performance will improve as we learn and get 
experience with it. I also expect as customers increasingly 
understand how location capability makes their life safer, they 
will insist on having it available and will come to rely on it 
in the same way they rely on air bags, seat belts and cars.
    I am confident that the future of this technology is strong 
once it is actually deployed and this virtual cycle begins to 
kick in. But to get to that future all of us involved in this 
process will have to redouble our efforts to see that the 
promise of this life saving technology is fulfilled.
    Again, I'd like to thank the subcommittee for this 
opportunity to provide you with this information on our program 
and I look forward to working with you over the next few months 
and years as we go forward on this and answer any questions, of 
course, this morning.
    [The prepared statement of Thomas J. Sugrue follows:]
        Prepared Statement of Thomas J. Sugrue, Chief, Wireless 
      Telecommunications Bureau, Federal Communications Commission
                            I. INTRODUCTION
    Good morning Mr. Chairman and Members of the Subcommittee. Thank 
you for this opportunity to report to you on the Commission's policies 
and rules aimed at improving the quality and delivery of wireless 911 
services throughout the Nation and, in particular, at implementing 
wireless Enhanced 911.
            II. IMPORTANCE OF WIRELESS ENHANCED 911 SERVICE
    Almost exactly five years ago today, the FCC adopted the first 
wireless Enhanced 911 rules, as a vital step in applying wireless 
technology to improving public safety. A wireless phone is a valuable 
emergency tool that can be taken almost anywhere. For many Americans, 
the ability to call for help in an emergency is the principal reason 
they own a wireless phone. But that help may never arrive, or may be 
too late, if the 911 call does not get through or if emergency response 
teams cannot locate you quickly. Our wireless 911 rules require that 
wireless carriers deliver 911 calls and implement the technology that 
provides the 911 call center with information about the caller's 
location.
    We based those first rules in large measure on an agreement reached 
between the wireless industry and the public safety community back in 
1996. Both recognized the importance of improving wireless 911 and, 
especially, of locating wireless 911 calls. To reach these goals, these 
parties developed, and filed with the Commission, a Consensus Agreement 
that proposed a transition plan to allow the wireless industry and 
technology vendors to develop and begin to deploy the capability to 
accurately locate 911 calls. This consensus transition plan included 
both scheduling and accuracy requirements. The goals it set were very 
challenging--they required the development of sophisticated location 
technologies for all of the various transmission standards used by 
wireless carriers. It also required effective, cooperative efforts 
among wireless carriers, technology vendors, equipment manufacturers, 
local telephone companies, and state and local public safety 
organizations and governments. The Commission adopted E911 rules based 
on the schedule and the accuracy standards proposed in the parties' 
Consensus Agreement.
    The Commission has recognized, however, that new technologies often 
develop in unexpected ways, both good and bad, and that we should be 
ready to adjust our rules both to take advantage of the opportunities, 
and to ameliorate the problems, presented by such developments. 
Accordingly, over the course of the intervening years, we have made 
revisions to our rules with the goal of facilitating the deployment of 
wireless E911. In particular, we have adjusted our program in several 
ways to reflect technological change and to allow carriers more choices 
to meet our standards. For example, when technology was developed to 
put GPS location capability in wireless handsets, we revised our rules 
to permit this promising new technology to compete with network-based 
solutions in providing location information. We also revised the 
methodology for assessing accuracy to make it more workable and 
tightened the accuracy requirements somewhat to better reflect 
technological developments and to further enhance public safety. And 
last year we granted a temporary, limited waiver of the accuracy 
requirements to VoiceStream, to permit use of a new hybrid location 
technology; i.e., one that combines elements of the handset- and 
network-based approaches. Other Commission orders have addressed a 
range of obstacles to E911 deployment, including funding and disputes 
over the division of responsibilities between carriers and public 
safety call centers.
    Now, in 2001, the end of the scheduled 5-year development period 
and the beginning of phased-in deployment are almost here. Under the 
Commission's rules, carriers are to begin the process of rolling out 
E911 Phase II on October 1, 2001, less than four months from now. When 
Phase II is implemented, it will generally enable the reporting of the 
location of 911 calls within 100 meters or better. However, I should 
add that this is not a flash-cut process--it will take several years 
for Phase II to be ubiquitously deployed. For example, with handset-
based technologies, the rules require carriers to hit progressively 
higher penetration levels for location capable handsets, until they 
achieve 95 percent penetration by the end of 2005. Similarly, carriers 
choosing network-based technologies must incorporate the necessary 
hardware and software into their networks over a 6- to 18-month period 
after receiving a request from a PSAP for E911 service. These requests 
are expected to come in over the next few years as PSAPs become ready 
to utilize Phase II services at different points in time.
    As we approach this benchmark, the need for wireless E911 is 
clearer and greater than ever. In 1995, there were 34 million wireless 
subscribers, who, according to the Cellular Telecommunications and 
Internet Association, made 20 million 911 calls a year. Today, there 
are more than 116 million wireless subscribers and the number of 
wireless 911 calls has more than doubled, to over 50 million a year. 
About 30 percent of all 911 calls nationwide are now made from wireless 
phones, and this percentage is growing. This dramatic increase in 
wireless 911 calls places increasing burdens on call takers at 911 call 
centers, particularly since accurate location information is not 
provided for any of those calls. E911 Phase II is needed more than ever 
to help police, fire and emergency medical teams locate emergencies 
more quickly and do their life-saving work more effectively and 
efficiently.
                  III. CURRENT STATUS OF WIRELESS E911
    Where does wireless E911 stand now--and how near are the original 
Consensus Agreement parties to meeting the pledge made to begin 
accurately locating wireless 911 calls within five years? In my view, 
they are close to hitting that target. They certainly have come a long 
way. Promising location technologies have been developed and field 
tested. Necessary software is being developed and infrastructure 
equipment and handsets are being manufactured. Many carriers appear 
well on the way to deploying Phase II, and many call centers have 
requested Phase II and are preparing themselves to use this new 
location information effectively. But there are always challenges 
involved in deploying any major new technology on a mass market basis 
for the first time, and wireless location technologies are no 
different. To make the promise of wireless E911 a reality, much work 
remains to be done by call centers, vendors, and carriers to meet the 
challenges involved in deploying these lifesaving technologies.
    We at the Commission will continue our work to make this happen, 
and to achieve complete deployment of Phase II location information 
across the nation as quickly as possible. Progress to date has been 
spurred, in large part, by the Commission's rules and decisions. Those 
rules have been definite in requiring that carriers implement E911, but 
flexible and practical in the means by which they do so. This approach 
requires cooperation and good faith effort on all sides to ensure 
successful deployment. We are committed to working with the 
stakeholders to resolve problems and speed deployment. But we are also 
committed to enforcement of our rules if, for example, parties simply 
ignore their obligations or fail to make good faith efforts to comply. 
Thus, it is important for all parties to work diligently to achieve the 
goals they agreed to five years ago, which are now reflected in the 
wireless E911 rules.
    We share Congress' vision, embodied in the Wireless 
Telecommunications and Public Safety Act of 1999, of a seamless, 
ubiquitous, and reliable wireless telecommunications system that plays 
a critical, life-saving role in emergency communications. The specific 
provisions of the 911 Act--declaring 911 the national emergency number, 
protecting the privacy of location information while providing for its 
effective use in emergencies, and promoting liability protection--have 
significantly advanced those goals, and we commend this Subcommittee 
for its leadership in getting this important legislation enacted. We 
strongly support the vision of the 911 Act and remain determined to 
monitor and enforce the E911 rules to help achieve that vision.
    At the same time, we will continue to be flexible and practical in 
applying the E911 rules, when the circumstances warrant that approach. 
Last year, in granting the VoiceStream waiver, the Commission set out 
specific standards for Phase II waivers. Those standards, 
fundamentally, require carriers to show the Commission what they can 
and will do to provide Phase II location information, not simply what 
they cannot do. The Commission expects wireless carriers to take 
concrete steps toward achieving Phase II, while recognizing that 
difficulties may arise. Different carriers may face different problems 
and opportunities, because of the technology they use or the geographic 
areas they serve. We are currently considering several waiver requests 
and have heard reports that other carriers are preparing additional 
requests. We plan to address these requests based on the specific 
showings and facts presented to us, with our focus on the most 
practical and realistic means of achieving the objectives of promoting 
public safety and implementing Phase II as soon and as fully as 
possible.
    In fashioning this program, we are reassured by factual information 
indicating that there is wireless location technology available capable 
of locating 911 callers much more accurately than is in place today and 
think that it is time to begin deployment. As that deployment proceeds, 
we expect that the technology and system-wide performance will improve, 
and as customers increasingly understand how location capability makes 
their lives safer, they will insist on having it available. They will 
come to rely on automatic wireless location identification in the same 
way they rely on air bags and seatbelts in their cars. And once 
customers begin to use wireless location technology, competition and 
experience will help make it not only more accurate and reliable, but 
more useful for other purposes as well. The future of this technology 
is, I am confident, strong, once it is actually deployed and this 
``virtuous cycle'' begins to kick in. But to get to that future, all of 
us involved in this process will have to redouble our efforts to see 
that the promise of this life-saving technology is fulfilled.
                             IV. CONCLUSION
    I would like to thank the Subcommittee for this opportunity to 
provide information on the Commission's wireless E911 program. I look 
forward to updating this information as wireless E911 advances and to 
answering any of your questions.

    Mr. Upton. Thank you, all of you. I think like most of the 
Panel, I have myself a ton of questions and my sense is we'll 
probably go two rounds, perhaps, for those of us able to stay.
    Very enlightening testimony for sure and going back to the 
opening statements as well, and thinking about the first time 
that our family went out and got a cell phone was exactly the 
reasons Mr. Sugrue that you talked about. I have a 13-year-old, 
but she's already asking for a phone, so we'll see if she gets 
it before she gets her driver's license.
    Mr. Rimkus, why in your opinion haven't more carriers 
embraced Airbiquity's GPS Accessory product?
    Mr. Rimkus. I think that the technology out there is 
reasonably new, this kind of GPS technology, particularly in 
this form factor. On the issue of cost, it is very much a 
volume driven type of product.
    Mr. Upton. Tell us again what the cost is per handset.
    Mr. Rimkus. Our product in low volumes, we expect it to 
sell in the range up to $99 which again in low volumes. As 
volumes increase, we expect that cost as any kind of technology 
comes about to go down. Just as when analog phones were then 
replaced with digital phones several years ago as the new 
features came forward, those phones were also initially pricey 
and then going forward with additional type of demand, price 
went down.
    Also, with our particular product and implementation, it is 
limited to a specific handset manufacturer that would, in this 
case it's a Nokia handset manufacturer and those carriers again 
would need to be distributors of that product.
    Mr. Upton. Mr. Nixon and Mr. Clark, why wouldn't 
TruePositions 911 solution be right for your company. Mr. 
Amarosa talked extensively about the testing that they've done 
in a number of areas, I think it was what, 400 places around 
the country, I imagine a pretty good blend of rural and urban 
areas.
    Mr. Nixon. Actually, VoiceStream has expended a lot of 
effort with a number of vendors. In fact, all the vendors that 
we identified as potential solutions to our particular 
situation. We worked very extensively with TruePosition before 
we actually received our waiver from the FCC. And we found that 
in our particular situation because--not being an engineer, I'm 
going to speak rather generally, each one of the radio 
technologies that is used and there are 4 or 5 major ones out 
there at least, there are different characteristics that would 
either enhance or degrade the performance of any given location 
technology.
    Mr. Upton. Let me just interrupt you for 1 second. I'm from 
Southwest Michigan and as I have talked to my 911 folks, we're 
across the lake from Chicago and particularly with the network 
base solution where you have to do the triangulation which you 
see the towers primarily for me it's I-94, connecting Detroit 
and Chicago. We actually heard from some of our folks that if 
there's an accident on the Dan Ryan Expressway in Chicago, 
sometimes that signal is forward along the cell is filled up 
and it's literally forwarded along to 65 miles across Lake 
Michigan in Bering County that gets the accident results for 
what's happening in downtown Chicago. You're not able to, 
particularly in rural areas, to put those towers up and do the 
triangulation which means it may be something along the lines 
of the GPS system which most sailors again in Western Michigan, 
we've got a lot of boat owners, we've got the GPS there and 
people know where they are.
    Mr. Clark. Let me add a little bit to what Jim is saying. 
First of all, from an engineering perspective, radio 
frequencies are an imprecise science in that they are affected 
by many, many anomalies, topographic anomalies, atmospheric 
anomalies, a lot of things can cause the radio waves to do 
different things. A case in point is you can be in the middle 
of downtown Chicago and to the extent that you get into a radio 
anomaly where the system interferes with itself, it creates 
what's called a fernel zone, you won't have service.
    Mr. Upton. Mr. Amarosa, when you tested it, I know you're 
from New York, New York has got to be the worse case scenario 
for that type of situation.
    Mr. Amarosa. We were successful in the testing in New York 
based on the number of cell sites that were deployed which was 
over 30, based on the configuration which was basically in the 
midtown Manhattan area at that given point in time.
    There are other environments that present challenges and 
some of those challenges have to be met on a day to day basis. 
That's why it's so very important to understand the particular 
area that you're in, like you've talked about, southern 
Michigan and the lake problems and the proximity----
    Mr. Upton. You tested in both rural and urban.
    Mr. Amarosa. We tested in rural and we had some successes 
in rural areas with TDOA. We had better success with an angle 
of arrival capability that exists and we will continue to test. 
We have test systems that are going on right now in rural 
counties in Wilmington, Delaware as well.
    Mr. Upton. I know my----
    Mr. Clark. Mr. Chairman, may I finish my comment?
    Mr. Upton. You can. It's my time and I won't yield it back 
yet. Go ahead.
    Mr. Clark. Thank you. I didn't want to cast disparaging 
comments against TruePosition. They truly have a product that 
works. My comments were in the context of trying to understand 
the anomalies that can happen with radio frequencies. Cellular, 
notwithstanding, that's just--that's the quantum physics of 
radio. But the one thing that I would like to do is make sure 
that we understand there is a clear distinction between an area 
as Chicago or Michigan where you have cell density that 
provides you enough reference points to accurately locate a 
subscriber, versus rural America, like southeastern Oregon 
where we don't have enough cell sites to be able to accurately 
triangulate and find those customers we'll locate on a network 
technology.
    Mr. Upton. But just to follow up on that for a second, 
wouldn't the GPS system be a far better way in rural Oregon 
than having the--the towers, from what I understand, one of you 
testified, the full testimony indicated that the cost per tower 
was along the lines of as much as a half a million a tower. Is 
that right?
    Mr. Clark. That's correct.
    Mr. Upton. To do those triangulation towers, that's a lot 
of money, a lot of millions.
    Mr. Clark. In the record you'll find that U.S. Cellular has 
selected handset based GPS as the solution for our rural 
customers.
    Mr. Upton. I know my time has expired. Mr. Sawyer?
    Mr. Sawyer. Thank you, Mr. Chairman. Let me turn to the 
human side, Mr. Sugrue talked about the adaptation in the 
emergency and law enforcement communities and Mr. Souder, 
you're here speaking to that. Could you talk to me for a moment 
about how ready services are across the country to respond to 
the technology when it gets here and what remains to be done, 
what level of preparation do they have right now?
    Mr. Sugrue. I'd be happy, but I think he'd be the better of 
the two to respond.
    Mr. Sawyer. Either one of you.
    Mr. Souder. The 911 public safety community is in the 
process of being ready. Many communications centers are ready 
today. They could accept whatever was provided in the way of 
Phase II technology. Others are installing that equipment and 
preparing for that.
    In my own jurisdiction, just yesterday, I was in the 
capital of Virginia, Richmond, at a hearing of its newly 
appointed 911 Board, knowing that it's only several years old 
and the purpose of that meeting was to participate in a dialog 
as to how the Commonwealth of Virginia was going to support the 
PSAP community in preparing them financially for the investment 
of new technology that would allow us to receive those calls. 
They are on the verge of voting affirmatively to fund mapping 
technology for the entire State of Virginia that would afford 
us the opportunity to do that. Those kinds of efforts are 
occurring in many places of the United States.
    Mr. Sawyer. Is that mapping that would superimpose latitude 
and longitude over ordinary street descriptions?
    Mr. Souder. That is correct. It would literally be an icon 
on a map that would allow you to identify physically where the 
call is being made from.
    Obviously, the technology is expensive for some 
jurisdictions. Unfortunately, not all States have developed 
cost recovery mechanisms for Enhanced 911 via wireless. 
Approximately half of the Nation has. The other half are 
considering it and the three associations that I represent are 
available to assist them in any way possible to help them craft 
the legislation that would allow for cost recovery to be in 
place and they could help to underwrite the cost in their 
particular States.
    Mr. Sawyer. We've heard some references to cross 
jurisdictional problems and questions of messages that are 
received in a location that could not possibly render service. 
Are the protocols in place for dealing with either mutual 
assistance or cross jurisdictional reference, rapid reference?
    Mr. Souder. Yes, they are and in the context that if a 
wireless 911 call was received from a caller from downtown 
Chicago to a constituent of Mr. Upton's in southeastern----
    Mr. Upton. Southwestern.
    Mr. Souder. Southwestern.
    Mr. Upton. We're doing redistricting now. We don't want to 
go quite that far. It once went that far, but before me.
    Mr. Souder. Thank you, Mr. Upton. There are procedures in 
place that would allow the call taker receiving the call to 
then transfer the call back to where it was originated from. 
Obviously, one could not expect that call to go across several 
States and a call taker sitting in Iowa to get that call and 
know where to transfer it back to, but the mechanisms are very 
similar to those that have been in place for years as it 
relates to wire 911 calls. Now those networks are network-based 
and they are selectively routed and consequently it is only 
infrequently that a 911 center would receive a call that didn't 
originate within that center. But in the wireless environment, 
indeed that does happen. We received a call very recently from 
suburban Maryland and downtown Arlington, but we had the 
procedure in place wherein we understood why it was received, 
because the comment made earlier about cell sites being 
business and forwarding it along until you hit, if you will, a 
PSAP that can answer your call, but very quickly we were able 
to route that call back to the PSAP that was responsible for 
that jurisdiction.
    Mr. Sawyer. Thank you. Thank you, Mr. Chairman.
    Mr. Upton. Mr. Terry.
    Mr. Terry. I want to just clarify, follow the same line of 
questioning, and go back a little bit. How many 911 centers 
around the country are even capable of handling this technology 
today. I heard 100 percent and 50 percent and I need that 
clarified in my mind.
    Mr. Souder. I cannot give you an exact percent. The APCO 
organization that I am speaking on behalf of has initiated a 
project called Project Locate. The purpose of that project is 
to both elevate attention to the issue as well as to identify 
within each State a jurisdiction or perhaps a region and in 
some cases an entire State that indeed will be the model 
community or the model jurisdiction for the deployment of Phase 
II wireless in that particular State. We have participants 
throughout the United States. All of those participants are 
ready to receive those calls. That was a requirement, if you 
will, to participate in that.
    Mr. Terry. All right, so my opening statement when I talk 
about being in the Badlands of eastern Colorado, I can't even 
be sure today that once we have the cell phone technology to 
locate that, whether or not that 911 center who would receive 
the call has the technology to locate?
    Mr. Souder. That's correct.
    Mr. Terry. So we're talking about two rails here, first of 
all is the--one rail is the cell phone provider and service 
provider, the other is our 911 centers have to use, catch up 
and use that technology.
    I say that because when I mentioned my experience on the 
Omaha City Council and we upgraded to the Enhanced 911 Center 
and merged several government entities into one package, we had 
a specific discussion about cell phone technology and making 
sure that the product that we bought was capable of doing that 
and I remember, I can't remember the exact added expense of 
that, but I just couldn't imagine that smaller communities 
could afford to even do it. So I'm just kind of wondering, 
maybe you have a better handle on this.
    Do you know how many communities are able to use the 
technology today and how far behind--maybe that's the wrong 
question. How far do they have to go to catch up to what we're 
requesting the cell service providers do?
    Mr. Sugrue. The information we have comes from the public 
safety organizations like APCO and NENA. NENA which is the 
National Emergency Number Association, sort of the association 
of PSAPs is doing a national report card study that they 
commissioned and which I think they're aiming to release soon, 
within the next month perhaps, as soon as the end of the month 
at their annual convention and I would hope there would be some 
data on that in there.
    Our information, first of all, the Phase I which we haven't 
talked much about today, but is cell location to the cell site 
or cell sector, is I think finally reached a point that it's 
starting to roll out pretty steadily across the country. Right 
now again the data we've been provided indicates about 20 to 30 
percent of the PSAPs have that and that provides a stage then 
to go to Phase II.
    We also believe that there are about, we've been told it's 
about 60 to 100 Phase II requests. That would include the 
Project Locate 48, but there are others as well. But out of 
6,000 PSAPs, that's still obviously a small number.
    I should also add that our rules don't require a carrier to 
implement Phase II until the PSAP is ready. Now there is a 
present dispute before that was alluded to as to when one 
assesses readiness at the time of the request or at the time 
the service is to be turned on and as I said that is before us, 
but in general principle, if the PSAP isn't ready, the carrier 
doesn't have the obligation to put it in place then.
    Mr. Terry. One follow-up, generally, in my last few seconds 
here, what's the congressional role in this labor? Isn't it 
basically your call, you, the FCC's call?
    Mr. Sugrue. The congressional role is, it's really 
basically the FCC's call, but we're always interested in input 
from this subcommittee.
    Mr. Terry. Thank you.
    Mr. Upton. Ms. Eshoo.
    Ms. Eshoo. Thank you, Mr. Chairman. My first question is 
for Mr. Sugrue. To your knowledge, are there any carriers who 
are on schedule to comply with the October deadline?
    Mr. Sugrue. I believe so. Ms. McCarthy alluded to Spring 
and they've filed a plan. We required all carriers to file 
plans in November announcing what technology they were going to 
use and so on. As far as we know, they're on track. We haven't 
heard anything to the contrary from Verizon, for example, 
biggest carrier in the country.
    Now I should say we've heard from Sprint with one 
particular switch manufacturer, there may be an issue, there 
may be a delay in--there's mobile switching centers that use 
that particular supplier, but that would be a short delay and 
something like that. And these are the sort of the fine tuning 
tweaks that in any implementation of new technology one would 
anticipate. I don't get the sense the public safety community 
would have a major objection to sort of practical adjustments 
as someone was actually implementing to take care of issues 
like that.
    Ms. Eshoo. So Sprint is the one that you feel the most 
confident about? There isn't anyone else that you can name?
    Mr. Sugrue. Verizon, which is the second one. We have--
until this morning, I would add VoiceStream in that. 
VoiceStream received a temporary waiver of the accuracy 
requirement, a deferral. They could hit a somewhat less precise 
accuracy requirement. It was not a delay waiver. It wasn't a 
waiver that pushed back their deployment schedule. Indeed, it 
accelerated their deployment schedule to a certain degree.
    Ms. Eshoo. In November of last year, you required the 
wireless carriers to report their plans for implementing E911 
Phase II including which technology they planned to use to 
provide the caller location. Did everyone comply?
    Mr. Sugrue. Everyone did comply. Some required some phone 
calls from us to draw their attention to it.
    Ms. Eshoo. They complied?
    Mr. Sugrue. They complied, yes.
    Ms. Eshoo. So you didn't have to take any action?
    Mr. Sugrue. No.
    Ms. Eshoo. Did you have the authority to take any action?
    Mr. Sugrue. I believe so. That was in an order the 
Commission adopted and then was delegated to the Bureau.
    Ms. Eshoo. Now with the panel that's here today, how many 
have applied for waivers? Two? How many have been granted 
waivers? Three. So of the companies, we have what, 5 companies, 
4 companies?
    Mr. Sugrue. Just two.
    Ms. Eshoo. Two carriers----
    Mr. Sugrue. Two applied, one received, I believe is the----
    Ms. Eshoo. This is somewhat of an obvious, but a little bit 
of a tricky question. The more that apply and receive, do you 
think the others are going to fall into line, it will become a 
pattern, so that by the time we get to this deadline, it really 
doesn't mean anything, doesn't mean that much or it will have 
been watered down?
    Mr. Sugrue. I'll take a crack at that first and then the 
others----
    Ms. Eshoo. I wanted someone else to take a crack at it, but 
anyway, go ahead. They're relieved that you are.
    Mr. Sugrue. The Commission granted a waiver to VoiceStream 
last September and we did that on the basis that they had made 
a convincing case that with their particular technology which 
is GSM which is at the present time a relatively small share of 
the U.S. market as represented by GSM carriers, they're trying 
to change that. The available location options meant that they 
couldn't satisfy the standard in terms of the accuracy, they 
said as of October 1, but they could hit the network standards, 
the 100 meters, with a handset solution and within 2 years they 
could be fully compliant on the handset standard.
    Ms. Eshoo. Two years from when?
    Mr. Sugrue. Two years from October 1. So in other words, 
they'd locate to 100 meters for 2 years and then 50 meters 
starting in 2003 and they would speed up deployment of handsets 
because you don't need a GPS receiver as you do with Andy's 
technology. It's a software change to the phone for their 
system.
    So we thought that was a reasonable case. It's what we've 
been telling carriers to do which is tell us what you can do, 
provide an implementation schedule and they've put in their 
waiver request specific dates and sort of roll out plans and we 
thought that was a good model.
    Ms. Eshoo. My time is just about running out.
    Mr. Sugrue. I'm sorry.
    Ms. Eshoo. No, thank you for your answer. I just want to 
get as much as I can in. Did you want to say something, Mr. 
Nixon?
    Mr. Nixon. I think there are a couple of different ways to 
answer every one of these questions. As Mr. Sugrue suggested 
and mentioned in his comments, our waiver was based on a unique 
situation for our technology, GSM. So certainly other GSM 
carriers may apply to tag on to our waiver because they're in 
the same situation, but I don't think that necessarily means 
that other carriers with other technologies are more inclined 
to apply.
    Ms. Eshoo. In your view, well, of course, it would be your 
view, because that's what you've already expressed. What I'm 
trying to separate out is what is kind of a company excuse 
thing because there's a deadline, we haven't gotten everything 
together, so let's put in the waiver just to cover ourselves. 
That's one and I'm not trying to diminish anyone. We have the 
public interest to look after. You have your company to look 
after and maybe you just haven't done enough soon enough and 
all of a sudden the deadline is upon you, but I think that what 
we've done here is to express really how overwhelmingly 
important and critical this is. So I'm trying to separate the 
wheat from the shaft. I think that the FCC is going to grant a 
wavier where really is necessary and it's kind of the grays of 
what you just explained, I find somewhat acceptable and 
understandable. But what is it that we need to do to get at the 
excuses? How's the FCC--I don't know what other word to use, I 
don't mean to offend anyway, but it's probably the best word to 
describe it, how are we going to separate the wheat from the 
chaff here?
    Mr. Nixon. I think the excuse, I'm glad you recognize it. 
Maybe it's not the best word for it, but the situation 
actually, as I mentioned in my comments, we set a very, very 
aggressive schedule to do some new things. I think everybody in 
the wireless industry has been working very hard for it and 
doing very well to meet that aggressive time line.
    Ms. Eshoo. So why can't everyone else come up with--or is 
too much to ask for that even though we don't hit the 1000 
percent target, that the FCC just described, that you have an 
interim target on the way to the fullness of the technology 
that you're seeking.
    See, what I'm afraid of is the more waivers that are 
granted, the more companies are going to come in and way well, 
if they did that, then why should we get out of the market? I 
mean there's a pattern that establishes itself and people thing 
well, why should we expend our resources if the others are on 
hold. I'd like it to go the other way.
    Mr. Nixon. Yes ma'am. One of the fine points that Mr. 
Sugrue suggested about our waiver is that we, technically our 
implementation is a handset solution so we have more stringent 
requirements of 50 meters to meet. Our waiver simply allows us 
to meet the same accuracy initially that the network based 
systems would have to meet so I think it was well put it really 
wasn't a compliance waiver, it was a fine tuning waiver more to 
allow us time to develop and mature this technology, so it's 
getting more and more effective.
    Ms. Eshoo. And what is that time?
    Mr. Nixon. Within 2 years.
    Ms. Eshoo. Two years.
    Mr. Nixon. That's within our waiver.
    Ms. Eshoo. Thank you, gentlemen. Are there any women that 
head up any of these industries? I can't help but--no, there 
aren't?
    Mr. Souder. I would offer that there are many female com. 
center directors throughout the United States.
    Mr. Upton. I would note that we have a very able or it 
wouldn't have happened in Bering County without----
    Ms. Eshoo. Is the FCC considering a waiver?
    Mr. Upton. Mr. Shimkus.
    Mr. Shimkus. Thank you, Mr. Chairman and thank you, Mr. 
Sugrue for--I do remember your testimony a couple of years ago 
and thank you for talking about the last E911 legislation 
because I would refer to Mr. Souder's second chart. There was a 
time when you wouldn't even get, that call wouldn't be brought 
up because as we know, many States had different numbers. We've 
had some successes and this is just the iterative process of 
moving forward and trying to create more benefits through a 
great technology.
    What do I tell my--this is what I tell my anti-government 
big anti-government big brother critics. If they don't want the 
GPS or the triangulation or the hybrid system, turn their set 
off. Is that correct?
    Mr. Nixon. I'm sorry, could you--the privacy issue?
    Mr. Shimkus. Yes.
    Mr. Nixon. That's obviously one of our biggest concerns is 
we want to make our service more attractive and useful to 
people, certainly in public safety, but we want them to have 
control over their rights and their privacy.
    Mr. Shimkus. By turning it off, does that do that?
    Mr. Nixon. Well, I'm not--that's not my core part of the 
business, but I can tell you for sure that we are very, very 
closely looking at every one of our options and we don't intend 
to offer something that is going to violate anybody's rights. 
We're going to do everything we can to make them have a choice 
to select what they want to use, what they want to use the 
location for, therefore input on their privacy and control of 
the privacy information.
    Mr. Shimkus. So turning it off, does that help?
    Mr. Nixon. You can--and frankly, one of the requirements 
here is that in 911, you're presumed to be asking for 
assistance, therefore, you're presumed to be waiving your 
privacy in order to allow the 911 center and emergency 
resources to reach you, so----
    Mr. Shimkus. But if I have my phone off, am I being 
tracked?
    Mr. Nixon. If you have your phone off, no, but even with 
your----
    Mr. Shimkus. That was my question.
    Mr. Nixon. Even with your phone on, you can disable 
everything except----
    Mr. Shimkus. Is there any of these triangulations. I'm 
referring to a battery process by which is igniting some 
transmission of identification of location?
    Mr. Rimkus. Perhaps if I could talk about that, 
Congressman. With our particular implementation as you're 
asking, the location can be determined within the handset and 
only when that specific opt-in, as it were, is really a 
different subject altogether in the discussion today, is 
offered. That information is forwarded then, on to the PSAP or 
the call center and of this case. So just speaking for our 
specific implementation, it's actually the very defined act 
that takes place. You actually push a button and sends that 
information so it offers that kind of privacy. There are 
multiple implementations, but I think all of us that are in the 
technology industry would liken it to Caller ID today which is 
to have some sort of capability of enabling or disabling that, 
but if it goes to the PSAP it overrides that and that's 
included in the 1999 Wireless Act, as a matter of fact.
    Mr. Markey. Would the gentleman yield? I think everyone in 
the audience wants to know if there's some nationality 
correlation between the name Rimkus and Shimkus.
    Mr. Rimkus. Perhaps we could share some potato pancakes 
some time. Just to throw in, we did have a good football coach 
from Houston named Rimkus.
    Mr. Shimkus. It's really a Lithuanian month for me, having 
NATO expansion and traveling over there, so any time I can 
press the cause of the Baltic Nations, I do that. Thank you for 
giving me this forum.
    Let me just finish up with my last question because I've 
been trying to sort out, I was not a member in 1996, so I was 
uncertain about this 1996 agreement that we're all talking 
about.
    And so what I've gleaned from the testimony is that there 
was an agreement in 1996 through the industry and the FCC and 
all one happy family and that then the FCC decided to stop 
because recovery mechanism in 1999 of the 1996 agreement. If 
that is the case, Mr. Sugrue, why? Because obviously this is 
cost recovery to provide--I'm from a rural district. It's 
expensive to cover in rural areas because we just don't have 
the mass of people and can you explain that process to me?
    Mr. Sugrue. Sure, there was a cost recovery requirement in 
the consensus agreement that was incorporated in the 
Commission's rules, that the cost recovery mechanism. The exact 
meaning was somewhat ambiguous,but it was certainly subject to 
a reading and subject to interpretation by carriers as 
requiring public safety agencies to pay the full costs of the 
carrier's deployment of 911, either Phase I or Phase II. And as 
Mr. Souder indicated, about half the States have cost recovery, 
so half the States seem to be not eligible to go forward with 
E911 from wireless phones. And even in the half that had cost 
recovery, there were continual disputes about whether it was 
real cost recovery or adequate cost recovery and this was just 
at Phase I. And we could see with the greater cost of Phase II 
that these disputes were only multiplied and so we asked for a 
recommendation from the consensus group again, the carrier 
community and one of the public safety agencies said we think 
cost recovery should stay and another public safety group said 
no, we think it should be eliminated. We ended up eliminating 
it as a separate requirement for carriers and keeping it for 
the public safety agencies. And so each entity bears its own 
costs now. The carrier doesn't have to pay for the upgrades to 
its network and can recover those costs through its charges to 
its customers and the public safety agency has to pay for the 
upgrades for its equipment and network.
    Mr. Clark. Mr. Chairman.
    Mr. Pickering [presiding]. Yes.
    Mr. Clark. If I could add a couple of comments to Mr. 
Sugrue's comments? First of all, one thing that I'd like to 
point out from earlier, Mr. Terry was particularly wise in his 
comments, trying to understand the elements that it takes to 
fully have a working E911 location system. First of all, we 
selected, we being U.S. Cellular, we selected handsets. 
Handsets have a rollout that has no tie to PSAP compliant, so 
U.S. Cellular has put themselves on a path that we will 
literally over the next 5 years replace all of our handsets. 
We've made that commitment, but there's nothing in the record 
as it currently stands that will put all the rest of the 
elements in place, so that the public will get the service that 
we're talking about today. That's the first point I'd like to 
make.
    The second point is the original--from an engineering and 
from a policy standpoint, the original thinking associated with 
cost recovery is we already have an infrastructure in place on 
the wireline environment that's been there for decades and 
that's very much the model that we saw today in terms of the 
information that's delivered and how it's delivered and 
received. The economics associated with that in cost recovery 
were to emulate that same environment, so we had a model that 
we started with and now what we've got is that model has in 
many respects been abandoned, so that the onus of the costs 
associated with all these systems including the upgrade of the 
PSAP systems is on the wireless carriers and I would pose that 
that's an inequity given the original philosophic position we 
started with.
    If we are in any way able to work through this issue and 
get back to the original consensus on cost recovery, I would 
submit things would actually speed up, because if you look at 
the record, the first 2 years under Phase I, we had a 
tremendous amount of success. We had all of the people 
associated with different organizations focused on 
implementation. However, when cost recovery changed, the 
energies of all those bodies went into conflict in trying to 
determine who was going to pay for it, rather than getting it 
done and that's where we're at today.
    Mr. Pickering. Mr. Sugrue.
    Mr. Sugrue. Yes, I'd like to respond. I had sort of two 
points in there. One is on the handset deployment schedule, 
there are two elements to a handset approach. One is that 
subscribers have to get a new ALI capable/location capable 
handset. The other is typically an assisted GPS, perhaps the 
most predominant implementation of this technology, there has 
to be upgrades to the network.
    With respect to the handsets, we proposed, and indeed the 
proponents of the technology and the carriers who are 
interested in it, have proposed and agreed to that there be a 
start on rolling out the handsets, even before you had a PSAP 
request, because that was going to take 4 or 5 years to replace 
all the handsets in your incumbent base. Those handsets are out 
there. You have to depend on people coming in, trading them in, 
and so forth.
    As compared with the network solution, Mike Amarosa 
referred to that, that once you turn on Mike's system, everyone 
in the area is covered. You can locate everyone on that 
network. So the tradeoff was you need to start that process so 
if 2 years down the road, only about 50 percent of your 
customers will have location capable handsets, so when you get 
a PSAP request, you're not starting from ground zero and that 
was, I think, a reasonable requirement and one that at least 
most of the carriers seemed to recognize as reasonable.
    Second, on cost recovery, the wireless ILECs live in a rate 
regulated world. They needed a cost recovery requirement 
because they don't have a means just to pass costs on to their 
customers. They need permission from a regulator, either from 
us or a State regulator. Wireless carriers, the FCC lifted its 
rate regulation and Congress directed us to lift State 
regulation of rates. There is no regulatory limit on a 
carrier's ability to recover these costs in its rates, in 
surcharges and line items on bills. We haven't attempted to 
regulate that at all. The position that the public safety 
agencies, who are strapped for cash, who have to incur 
substantial expense to upgrade their own systems should also 
incur the expense of putting in the equipment in the carrier's 
network just didn't seem to us to be reasonable.
    Mr. Upton. Mr. Markey.
    Mr. Markey. Thank you, Mr. Chairman very much. I'm going to 
be directing my questions toward Mr. Sugrue whose name I know 
to be Irish.
    And a distinguished Boston College graduate.
    Mr. Sugrue. Absolutely.
    Mr. Markey. So first of all, let me point out that the law 
which we passed does require that the cell phone industry 
provide privacy protections to consumers. Thankfully, they have 
embraced that and opt in, that is, getting the permission of 
the consumer, the norm within the industry. I think what people 
have to understand though is that the protection only applies 
when a carrier that is one of the cell phone companies, Verizon 
or any other, is interacting with the consumer. If the consumer 
decides to call Zaguts to get some information about a 
restaurant, then they don't have the same protections as if 
they were talking over one of the Verizon lines on a service 
that Verizon would have control over. There is a no protection 
check that had been built in and that's why the Federal Trade 
Commission has to take as its responsibility in order to fill 
in that gap in the protections which consumers need in order to 
ensure that their privacy is protected.
    Can you elaborate a little bit on that, Mr. Sugrue?
    Mr. Sugrue. Sure. In addition to retailers, for example, 
there are location providers who are not deemed to be common 
carriers and the privacy protections were put into Title II of 
the Communications Act and that section only applies to 
carriers. For example, the OnStar system, which is a wonderful 
system that has been very popular and is now moving out, 
started out in Cadillac and into a broad range of GM cars, but 
at least we don't view them as a common carrier of the service 
they're providing. The location information they obtain is not 
subject to the provisions in the legislation you referred to, 
Mr. Markey. So I know the cellular industry is very concerned 
about that because they feel when it comes time to roll out 
commercial services that they'll be subject to some 
restrictions and limitations that some of their competitors 
will not be subject to. And so, for example, when you're 
driving down the street, one of the examples is always and 
there's a sale from a store on the next block, there will be 
limitations if you get that information from a cell phone 
compared to, let's say, through a car-based location system.
    Mr. Markey. Let me get a few facts out here on the table 
that might help the Committee in its deliberations. A lot of 
carriers are moving toward GSM technology and just about every 
one of these companies talks about the dream of moving to third 
generation technology as well. I think it's important for us to 
know the state of the industry today, however.
    What percentage of American consumers are still served by 
analog only technology?
    Mr. Sugrue. The percent of consumers is, last year it 
dipped below--the year before, excuse me, by the end of 1999, 
below 50 percent for the first time. It was like 50 percent, 
49. I don't have--I believe it's about 41, 42 percent this year 
of customers who are still on analog phones.
    Mr. Markey. I think it's important for the consumer and the 
policymaker to understand that, that even though there's a 
vision out there in the industry that still have of the 
consumers in America are stuck in the analog era and that the 
corporate strategies that these companies have yet to catch up 
with the obvious digital revolution that should be benefiting 
all consumers. So our speed should reflect that speed as well.
    And I understand that the Federal Government as well as the 
Congress is looking at issues that deal with perhaps reclaiming 
more spectrum from the Pentagon, from educational institutions, 
including the Catholic Church, which is relevant to our own 
backgrounds, and what I'm wondering is whether or not it's time 
for us to start to look at mobile satellite services. There was 
a vision back in 1993 that Iridium, Global Star, other 
companies would be using all of this, that spectrum, at this 
point in time. They're not. Obviously, most of them are in 
bankruptcy, coming out of bankruptcy, not all of them, I want 
to make that clear, that's not the case. But a lot of them are. 
Is it time for us to revisit that issue and that spectrum as an 
alternative to first visiting the Catholic Church and the 
Pentagon as a place where we can find spectrum that can be used 
for third generation technology?
    Mr. Sugrue. As I know you are aware, it's never easy to 
take spectrum from anyone, whether it's the Catholic Church, 
the Pentagon or satellite licensees. That issue has been teed 
up by CTIA. They sent us a petition asking us to look at 
precisely that issue on our 3-G efforts and it's being actively 
considered within the Commission right now.
    Mr. Markey. Is there a time table that you've established 
for making a determination as to whether or not this spectrum 
is actually going to be utilized by these companies or just sit 
there, warehoused for an indefinite period of time. We might be 
talking decades in terms of the corporate strategy.
    Mr. Sugrue. In the mobile satellite world, they do have 
rules, they call them milestone requirements, but which 
licensees have to do certain things in order to keep their 
licenses. It's a progressive thing. You sign a contract, build 
a prototype and so forth. So it's not completely wide open like 
that, but again, the issue has been squarely raised and I 
certainly hope that we can address it one way or the other 
pretty promptly because it is a pressing issue.
    Mr. Markey. Finally, let's take a look a Iridium, 
Motorola's idea, name about Mendelea's 77th element, 77 
satellites, 77th element and Mendelea was tired of elements he 
went down to 66 satellites, they decided not to change the name 
as they moved down the elements, but I think they're down to 
considerably fewer satellites now.
    So give us a very brief overview of what the status of that 
spectrum is, how much of it is being used, what your 
conversations are with them with regard to the use of it and 
what the chances are that we might be able to reclaim some of 
it?
    Mr. Sugrue. Iridium went through bankruptcy as you know. 
Came out of bankruptcy within the past year. I believe the 
company sold for about $25 million. They have a contract now 
with the Defense Department that I guess is sufficient to keep 
them operational and I know their new management is looking at 
options to re-enter the commercial world again with sort of a 
reconstructed business plan.
    I don't think anything is on the table now about doing 
something with the spectrum they're presently in. But they are 
one of the applicants for this two gigahertz for another 
license.
    Mr. Markey. I think we should raise some questions about 
the use of the old spectrum.
    And finally, Japan and Europe, how successful has the 3-G 
technology been in those markets?
    Mr. Sugrue. Not terribly yet, but they do have strong 
imperative, sort of in the way they do business which is more 
sort of an industrial policy sort of base to move forward. They 
have already allocated substantially more spectrum though for 
these services than we have, almost double in most cases.
    Mr. Markey. How many customers are using 3-G?
    Mr. Sugrue. 3-G?
    Mr. Markey. In the----
    Mr. Sugrue. Just about zero, but they're transitioning up 
to 3-Gs by so called 2.5-G services and I don't have those 
figures either, but it's just starting. They just did their 
allocation and licensing last year and they're moving 
gradually.
    Japan was going to turn--I correct myself, they have about 
3,000 3-G customers on a trial basis now, in Tokyo, and they're 
hoping for commercial rollout in the fall.
    Mr. Markey. Thank you very much for that excellent Jesuit-
based testimony.
    Thank you, Mr. Chairman.
    Mr. Upton. Mr. Pickering?
    Mr. Pickering. Thank you, Mr. Chairman, and let me just add 
or first address some of the questions raised by Mr. Markey 
from Massachusetts concerning 3-G. We are looking at 
legislative options to get to 3-G. As we go down that road, I 
look forward to working with Chairman Upton and Chairman Tauzin 
and Mr. Markey to find the solution and I would agree with him, 
we need to put everything on the table, from satellite spectrum 
to the Pentagon to commercial, except educational and Catholic.
    Mr. Upton. Don't forget the Congregationalists.
    Mr. Pickering. But as we try to find the solutions to meet 
the objectives and the targets on E911, we need to remember 
that it has been a tremendous success story and I know we have 
probably called attention to that today as we looked at the 
type of responses we've had over the last 2, 3 years in crime 
reduction, crime patrols, the domestic abuse, the types of 
things that cellular phones, wireless phones can be used for in 
public safety and for personal safety have been tremendous. I 
know in my own family I have five sons, the youngest of which 
is 2\1/2\ and when he was about 1\1/2\ in the midst of our 
daily morning chaos where we're trying to get four children to 
school and pre-school and I have the children in the bathtub 
and my wife is getting their clothes and their breakfast we had 
my 1\1/2\ year old son slip out the door with my dog and we 
didn't know he was missing until someone had called E911 and a 
friendly police officer returned him to us. For about 10 
minutes there our youngest son, the prodigal son was on the 
wrong path in life.
    Because of wireless and E911, he has come home. So it is a 
tremendous success story that we need to put into context of 
what we're discussing and debating.
    To that end, let me just ask a couple of quick questions.
    Mr. Sugrue, by the October 2001 deadline, what would you 
say would be the projected compliance among the industry of 
meeting that targeted deadline without the waivers? How much of 
the industry would be in compliance by that deadline?
    Mr. Sugrue. That's hard to say. Let me try to answer it 
by--and let me note, I'm very impressed that you do the bath 
routine in the morning. We've never pulled that one off. That 
was always an evening ritual in our household.
    We do anticipate getting more waivers as get closer to the 
date. What we've told carriers are that we don't want to see a 
waiver that just says I can't do it, off the hook, go home, 
I'll see you in a couple of years. Waivers under the framework 
the Commission set up in approving the VoiceStream waiver are 
really carrier specific implementation plans. We want to see a 
plan that says look, I can't meet the literal terms of your 
requirements, but here's what I can do and here's what I will 
do and here's how I'll do it.
    Under that scenario we are pushing very hard to get the big 
6 carriers focused on all having implementation plans in place, 
along those lines, the big 6 nationwide or near nationwide 
carriers. We're not forgetting our friends like U.S. Cellular. 
I think they wish we would sometimes, but--who are important 
players in the rural areas in smaller communities, but those 
six carriers serve 75 percent of the customers in the U.S. They 
have the most resources and we thought it was in terms of just 
our resources to focus attention on public safety, that's sort 
of the initial point and we certainly hope that all six of 
those will have plans in place to go forward.
    Mr. Pickering. And that would represent how many of the 
subscribers in the country?
    Mr. Sugrue. About three quarters.
    Mr. Pickering. Mr. Clark, as you know, I represent a rural 
district. What would your three recommendations be of what the 
FCC should do in taking into consideration the unique 
circumstances of rural Mississippi or rural America in meeting 
the regulatory objectives? You had mentioned cost recovery. 
Expand on that or sum up your recommendations of how we can 
have a regulatory framework sensitive to your unique 
circumstances as well as getting the services to rural America 
as quickly as possible?
    Mr. Clark. I think the first one would be cost recovery and 
a return back to the original consensus agreement. With that, I 
would add that we would also need to add handsets to the 
original agreement because that was added later. As a matter of 
fact, that was added just about a year ago. So that would put 
in place the structure so that there's incentive for all 
parties, especially in rural America where you have smaller 
carriers in terms of their economic power, you have smaller 
PSAPs in terms of their economic power. It would give them an 
ability to work together and everybody share in putting the 
service together, not putting the cost on a particular member 
of that team.
    I think the other thing that we need to do is we need a 
rural exemption and that's not something that I say lightly 
because there are competitive connotations to that as well, but 
U.S. Cellular filed a waiver, a request for a waiver in June of 
last year and we were denied. And the reason that we filed the 
waiver is we had no handset manufacturer that would sit down 
and talk to us, tell us what handsets were going to be 
available, which GPS technology, and even take an order from us 
to buy them.
    As of this date, we're still in that predicament. Rural 
America has a unique requirement in that you don't have the 
cell density to be able to use true position types of network 
solutions to be able to accurately locate a customer that dials 
Enhanced 911 and absent a handset solution, there literally is 
no answer.
    Mr. Pickering. But what would the consequence of an 
exemption be for rural areas? Would that service then be 
delayed in those areas?
    Mr. Clark. It's my belief that that service is going to be 
delayed under the current policy. if you think about the 
logistics of the way we're going to roll this out, whether you 
do network or handset base and the compliance and the metrics 
associated with compliance, there's a high probability that the 
urban areas will be the first covered, so there's at least one 
more dimension to your question and that is take the current 
policy and look at how it's to be implemented to meet the 
performance criteria of implementation and I think you'll find 
out that the rural carriers have been left out. Rural America 
has been left out.
    Now the other side of this and the direct technical answer 
to where you're going to try to go with rural America because 
see, I live in East Tennessee, I'm sitting next to a guy from 
New York. I don't know if you guys have figured that out or 
not, but you know, in East Tennessee we've got the mountains, 
we've got valleys, we've got Smoky Mountain National Park. You 
can lose yourself in nature in East Tennessee, you can lose 
yourself from E911 in East Tennessee. So the technical solution 
for those areas has got to be handset-based. There is not now 
nor will there ever be in my opinion enough cell density around 
the area like the Smoky Mountain National Park where you're 
going to be able to see enough cell sites to be able to say I 
know that person is between Merriville, Tennessee and the park 
entrance.
    So let me go back and kind of sum up what I've said, if 
I've got a little bit of time here. First, I think we need to 
go back to the original consensus order. Let's get back on 
solid ground where we can focus on implementation and not argue 
and try to figure out who is going to pay for what and that, I 
think, takes us back to a paradigm that everybody is 
comfortable with. That takes the big issue off the table.
    The second issue for rural America that I'd recommend is 
there is today no technical solution that works in rural 
America, so the time line is not going to work. And looking at 
the technologies that are available today, it doesn't matter 
whether it's U.S. Cellular. It doesn't matter whether it's 
Verizon, AT&T or VoiceStream, this is an urban-rural problem. 
It's not endemic to a carrier. It's endemic to rural versus 
urban America. So we've got to acknowledge there are 
complexities and costs associated with rural America that you 
don't have if you're in the middle of Washington, DC.
    Mr. Pickering. Mr. Chairman, I thank you. I would like to 
follow up on those questions at a later time or in writing or 
continue to work with FCC to address this very important and 
critical issue for rural.
    Mr. Upton. I' d be happy to work with you on that.
    Mr. Pickering. Thank you.
    Mr. Upton. Ms. McCarthy.
    Ms. McCarthy. Thank you, Mr. Chairman. I want to ask Mr. 
Sugrue a practical question and it may come across as somewhat 
naive, but it was sparked by something Mr. Clark just talked 
about with regard to working together and sharing revenues and 
so forth. Because the technology, it seems like every company 
is doing their own thing, and yet we know the technology exists 
in other forms. I was at a meeting regarding the Kyoto protocol 
a few years back and the taxis have the ability to show a map 
instantly on the car where they are and I guess my question to 
you is, or my first question is, what's keeping the companies 
from sharing technology so that they're not all out there 
struggling all by themselves to accomplish this?
    Mr. Sugrue. I don't know that anything is preventing the 
sharing of technology. Certainly, this process, I mean I 
referred to the consensus agreement back in 1996 in part to 
make the point that the October 1 date was a proposal from the 
carrier community of 5 years ago, not something we made up on 
our own. But also, in part, to emphasize the genesis of this is 
in consensus among carriers and public safety entities and in 
manufacturers and vendors. We called this series of forums to 
bring everyone together because I'm sure you've had the 
experience too but when you meet seriatim with parties involved 
in a dispute, you would think you were listening to two very 
different things, two realities or more in this case because 
there were 3 or 4 parties involved. And so we wanted to say 
well, look, he just said this doesn't work and you just said it 
does work. Where is it and so forth?
    We just required that test data from anyone, well, from the 
two carriers, two major carriers that have a waiver before us 
now be publicly disclosed. That was subject to confidentiality 
agreements. It was so hard, though to deal with it under that 
confidentiality, we issued an order lifting that and indeed the 
parties have agreed to make it public so there can be a more 
public sharing of information about how the systems are 
performing or not performing and under what conditions.
    This is not an area where--this is a very competitive 
industry, but we can't let each carrier trying to get an edge 
on the other slow down the rollout of this. This is where 
information should be shared, I think, in the public interest.
    Ms. McCarthy. Well, then let me ask the interested parties 
at the table about this same question and your thoughts on 
sharing so that this can move along rapidly and perhaps end 
some of the frustrations that you're experiencing with the 
technology.
    Would anybody like to respond?
    Mr. Nixon. Certainly. We commented earlier from 
VoiceStream's perspective that we think the Project Locate 
that's being sponsored by ABCO and the other public safety 
agencies is an excellent forum for us to have these types of 
discussions. Early on, Mr. Sugrue mentioned the WEIA which is 
Wireless E911 Implementation Ad Hoc Group which was the forums 
which--my degree of trivial knowledge is astounding sometimes 
and then on other things I confuse myself, but that was a forum 
very much like what I envision and hope Project Locate 
environment can be where we can identify what we can do today, 
where we can identify locations where 911 centers are ready to 
take and test the equipment. We can identify areas where the 
local telephone carriers have the capability to handle the 
additional data required for wireless compared to land line 
911. If we can focus together on a few of those places and do 
tests to verify that the systems are ready, the solutions are 
ready to No. 1 talk to each other, to No. 2 handle the 
information and data delivery, etcetera, to achieve the goal of 
giving the call takers additional information for wireless 
similar to what they get for landline, and No. 3, if they're 
ready for widespread, more broad based deployment, I think we 
need a few of those real-life labs, if you will, where all the 
equipment and capabilities come together to test the final step 
in our very rapid and successful, I think, development of this 
capability.
    Ms. McCarthy. I appreciate that. Did anybody else want to 
comment on that?
    Mr. Clark. I'd make one comment. If you look at the history 
and the record on this and again, speaking from an engineer's 
perspective, in engineering you begin with a plan and then you 
build a prototype and then you do alpha and beta testing and 
then you do a production roll out and the record that we got on 
this with respect to some of these solutions are in the 
prototypical or in the alpha stages or proof of concept and 
they do, in fact, work. But there's a big change from trying to 
take these types of solutions to this problem on the time line 
that we have today from an alpha stage into a production 
rollout of sufficient quantity to satisfy the industry 
requirement for performance. So in my opening statements, the 
software that my company needs to be able to do this for both a 
network and an assisted GPS handset solution aren't available 
until fourth quarter of this year.
    So not to make excuses, but the fact is if you look into 
the details in this, there are critical elements that are 
absolute prerequisites technically for the whole thing to work. 
I think it would be a travesty for us to go down a path of 
policy, have everything that we need except for one element for 
sake of speed and have more situations where we have to listen 
to these tragedies in the public because we can't give that to 
the public.
    Ms. McCarthy. I guess I'm still a little bit confused, not 
by your answer, but perhaps I didn't pose my question quite 
accurately.
    If in the end all of this has to work together, and it 
must, whether I'm on a Sprint phone or your product or in your 
territory or in Sprint territory, it all has to work together. 
It all has to come together, so why then if Sprint says they're 
going to be able to meet the deadline, but you aren't because 
of the technology that's missing and need more time, how come 
there isn't some sharing of that?
    Mr. Clark. Thank you for qualifying your question. That is 
a different question than I answered. I will tell you people 
from Tennessee, you have to talk slowly to us so we can keep up 
with you.
    You've posed a great question and that is one of the things 
that we scratch our head about and try to understand what has 
Sprint done? They seem to be on a path that looks like they're 
going to make it. And I hope they do. But we don't know what 
they're doing. And I think that's your point and----
    Ms. McCarthy. Listening to you all, I'm struggling with you 
because we all know, we all agree, we want this to happen as 
soon as possible because it's going to save lives, so that was 
my concern.
    Mr. Sugrue, because you mentioned competition, is it 
because of competition that these kinds of things can't be 
known by everybody? Because in the end when you have all 
systems in place including the local components, it's all got 
to work together.
    Mr. Sugrue. I don't know and indeed whether U.S. Cellular 
has talked to Sprint about sharing information, for example, on 
their system and how it works.
    Ms. McCarthy. Don't they have to at some point? If I'm in 
their territory and on a Sprint or vice versa, it all has to 
work.
    Mr. Sugrue. If what you're asking is if a Sprint subscriber 
is roaming into U.S. Cellular's area and they have a roaming 
unit, I don't know whether that's the case, but if they do, 
yes, it should work one on the other.
    Ms. McCarthy. I'm trying to figure out how they can all 
work together to get it done by the deadline we imposed, or if 
not, then we have to genuinely have discussions.
    Mr. Sawyer. Would the gentle lady yield?
    Ms. McCarthy. yes.
    Mr. Sawyer. If, in fact, in some parts of the country it's 
necessary to use a geopositioning technology and my 
subscription for my instrument, my carrier, is in an area 
that's based on triangulation and I go on vacation to Eastern 
Tennessee, then I am all of a sudden no longer equipped. Is it 
not reasonable to think that at some point all instruments will 
have to be equipped for both systems?
    Mr. Sugrue. We require in our rules, if you're doing a 
handset based approach that you have to use the best available 
means of locating people, for example, who are roaming on to 
your system from another system, precisely for that reason.
    VoiceStream in its waiver request proposed a system that, 
for example, even though it's a handset based, they have sort 
of a safety net system that will locate all people, albeit to a 
less precise degree of accuracy, but provide much better, still 
better location information than Phase I.
    As a fallback, we say you absolutely have to provide Phase 
I information which is at least to the cell site or the cell 
sector, but it is, to be honest with you, on the handset based 
approach, it is one of these sort of, I don't know if it's a 
flaw or a gap, but it is one element of it that caused us at 
the FCC a lot of concern, just that issue.
    Ms. McCarthy. Mr. Chairman, I know I yielded my time, but 
may I pursue? I guess I can.
    Thank you, Mr. Chairman. The other bugaboo seems to be this 
whole question of who pays cost sharing, etcetera, etcetera and 
I know that no time line, no deadline was placed on the PSAPs 
probably for good reason, but give them time after you guys 
finish to figure this all out, but I note in the article that I 
quoted from earlier in the day that 32 States have approved 
state-wide E911, but only four States, according to the 
National Conference of State Legislatures which we called, only 
four States have passed cost recovery mechanisms, looks like 
it's Indiana, Oklahoma, Rhode Island and Virginia. Many other 
States are giving that authority to figure out who pays to 
their public utility commissions to work on.
    I guess my question is what do you--how do you anticipate 
like what happened out in Kansas, according to this Lisa Duran, 
Director of Johnson County's Emergency Communications 
Department, again speaking in this article said, ``efforts last 
year reached an agreement with major wireless companies on an 
E911 system for Kansas fell apart.'' She said the companies 
insisted that part of the state-imposed surcharged be used to 
pay for their new equipment. Do you have a sense, Mr. Sugrue, 
of how States are coping with this part of the responsibility, 
that unfunded Federal mandate we sent them to pay for all of 
this. Are they sharing part of the surcharge that's going to be 
imposed? Is anybody--I worry about, they'll do their job and 
then all of a sudden it will fall apart at the State level.
    Mr. Sugrue. I may be missing something in your question, 
but the issue about which we've had somewhat of a robust debate 
here at the panel on cost recovery revolves around the fact 
that the Commission removed the requirement that State agencies 
pay for the carriers' costs of implementing 911. They still 
have to pay for the PSAPs cost of implementing 911 and that's 
not trivial and some States have not addressed that or stepped 
up to the plate, at least to a sufficient degree.
    However, we did leave that to the States. Some States had 
successful, at least programs were in place. This was not an 
attempt to fix it when it ain't broke. So we said any State 
that wants to--they have a surcharge on a wireless bill and 
they have a pool and they share it among carriers and PSAPs, 
that's fine. You just keep going ahead and doing what you're 
doing. All we were trying to do was remove our Federal 
requirement, that as you put it, imposed this unfunded mandate 
on State and local governments to pay carriers' costs of 
implementing this technology.
    Ms. McCarthy. Well, I guess Mr. Chairman our next concern 
and hearing may be down the road on States and how they can 
best implement this because there is a cost factor involved and 
that seems to be holding up the second portion of this project.
    Mr. Upton. There is and we need to know exactly where the 
PSAPs are, as well, the 911 centers. It's obviously an 
interlocking----
    Mr. Sugrue. I would add on the earlier version of the 1999 
act we referred to previously that was in the previous 
Congress, there was a funding mechanism introduced and the 
source of the funds was leases on Federal lands for cell phone 
towers and it was, I thought, a nice little thing because we 
got towers built, we got the revenues, they were directed to 
the States to fund 911 deployment. It turned out, I gather that 
in the Congress, tower location is very controversial. It was 
deemed to be an intrusion on local interests, even when located 
on Federal lands, just applied to Federal lands.
    Mr. Upton. Rock Creek Parkway.
    Mr. Sugrue. Exactly. And it was deleted from the 
legislation. That deleted the revenues. That deleted the 
funding and so that part of it was----
    Ms. McCarthy. I don't remember, Mr. Chairman, why it was 
deleted, but maybe that's something we can revisit because with 
the rural situation as you spoke to so eloquently throughout 
the country, this could be a real impediment.
    Thank you, Mr. Chairman. You've been very gracious with 
your time.
    Mr. Clark. Mr. Chairman, if I could for a minute, Ms. 
McCarthy, we've compiled State by State status of cost 
recovery. If you'd like to, we'd share that with you.
    Ms. McCarthy. I would like that. I'm sure the Committee 
would like that.
    Mr. Clark. We can provide that for the record as well.
    Mr. Upton. Mr. Green.
    Mr. Green. Thank you, Mr. Chairman, and just so there's no 
confusion, I'm sitting in Mr. Markey's place, but you can tell 
from our accent that Mr. Markey and I don't come from the same 
part of the country.
    Let me just express because I wasn't here, there was 
another hearing going on downstairs on health care on the 
frustration. I was a State Representative in 1984 in Texas when 
we passed the 911 network for Harris County, city of Houston. 
In the late 1980's, the State came in and with some effort and 
we created a funding mechanism for it for our telephones in 
Harris County, hardline. The State did the same thing. Now we 
didn't get to rural areas immediately, just because you 
couldn't do it and for hardline, but they're almost there. I 
don't know if they're there now because having left there in 
1992, but in seeing what's happening and I was happy moving to 
this Committee in 1997 to see what we were doing on a national 
basis for E911. And my concern is we're going to be flooded 
with waivers and I'm glad the FCC is being very specific 
because I would like to see the enhanced coverage starting in 
urban areas just like we had to start with hardline and moving 
to the rural areas as we develop that funding base because it 
is more expensive.
    Let me overlay that with my last weekend in Houston, Texas 
when we had people on the top of their cars on I-10. Their cell 
phone was the only way they could reach out to anyone, so it is 
an emergency that we do this. And that happens whether it's 
running off the road on the way to Gatlinburg, Tennessee or 
not, so that's why the frustration that we do not need to see 
an extension. We could see specific waivers, but we need to 
start in the urban areas in the build out so that we can cover 
all our folks. And that's my concern.
    Let me first talk about the FCC and I want to go back to 
the idea of the total E911 coverage. And again, Houston, Texas 
is a very urban area. We can do the triangulation, but we do 
have rural areas, not a lot of mountains in my part of the 
country, but we do have problems with the siting and just 
outside of the tower range. It seems to me that there needs to 
be an FCC mandate that all cell phones at a certain time should 
have dual capability for GPS and triangular service, so I would 
be covered when I was, some day I'm going to get back to 
Gatlinburg, but also in West Texas. Is that something the FCC 
has talked about or discussed?
    Mr. Sugrue. We haven't considered it. It's occasionally 
discussed in the industry or in the people who filed this, but 
more as something that some observers believe is likely to be 
the market-driven outcome, once this technology gets out there. 
Now I don't know whether that's the case or not. There are some 
who are very gungho on the GPS system and believe, in time, it 
will be built----
    Mr. Green. I share the concern about it and I'd like to 
have it market driven, but we didn't have the hardline 911 
market driven and I know that Mr. Amarosa, you were here 4 
years ago and having seen the technology develop, so it is 
available in urban areas and yet we're still not seeing it, so 
as much as I'd like to see it market driven, there are some 
things you just can't do. We wouldn't have color TV if it 
wasn't required back in the 1950's so all of us would have, not 
color TV, UHF and VHF, unless it was somewhere along the way 
because that wouldn't have been market driven unless we said 
that has to be done for the consumers. I think we are looking 
at the same situation with E911.
    When do you think we will see the best guess when we can 
have a--if not a 95 percent penetration in American market, 
maybe a 75 percent because again, I know in the rural areas, it 
will be the next step, but in the urban areas and the suburban 
areas, when do you think we'll see that kind of E911 
penetration?
    Mr. Sugrue. That depends, in part, on what Steve and his 
group does in terms of PSAP readiness as well as what the 
carriers do. So it's hard to predict that.
    I can say the timeframe we talked about, for example, on 
our handset rollout, as I mentioned in my testimony goes to 
the, through the end of 2005, so for the next 4\1/2\ years. It 
was certainly our expectation at the FCC that was the 
approximate timeframe by which we would see this deployed 
through the majority of the units.
    Mr. Green. And the specific waivers you're talking about 
would not delay that estimate in 2005?
    Mr. Sugrue. No waiver before us, I believe, delays the end 
date. Every waiver that has come in says we can hit it at the 
end. We have trouble up front. The ones who ask for a delay in 
time.
    Mr. Green. And again, I want to encourage the FCC to be as 
reasonable as you can, and yet don't delay it because we are 
seeing that and we made that argument for hardline years ago. 
The funding base can be there because I did get complaints from 
folks in the city of Houston about that small charge. It wasn't 
much. The biggest complaint was folks from the city of Houston 
and Harris County complaining about the state-wide charge to 
buy equipment for some of our areas that couldn't generate it, 
but I also explained to them next time you go on that hunting 
trip out to Mason, Texas, you might like to have that coverage 
out there, that they couldn't afford and I didn't get any 
response, negative back on that.
    Mr. Upton. Does anyone else have----
    Mr. Sugrue. I just want to add that greater Harris County 
continues to be a leader in this area, so the work----
    Mr. Green. In fact, in future panels we'll have and they've 
been here before us, so Mr. Chairman, that's all I have unless 
someone has some response.
    Mr. Souder. If I could comment on that, Mr. Green, in the 
industry, 911 is considered to be a religion in the State of 
Texas and the chief practitioner is a constituent of yours in 
the form of Mr. John Melcher, a name that I'm sure----
    Mr. Green. I know John very well, since 1984.
    Mr. Souder. But an absolute leader in this industry and 
we're very gratified to have him be one of the principal 
officers of the NENA Association at this time.
    While I have the microphone and commenting on a very 
insightful comment by Mr. Upton a moment ago about an 
inventory, one of the goals of the goals of the NENA Report 
Card to the Nation which is a report card to the industry and 
to the Congress to be expected some time later this year is to 
do that, just assess in the entire nation who is where and what 
do they need to get to be where they need to be?
    Mr. Upton. I think that's a very important piece of 
documentation that we need and particularly for the FCC to 
understand and work with to get this thing done, because as I 
think about all the members that ask questions here relating, I 
think every single person here had a personal experience with a 
911 situation and as we go back to your opening statement, Mr. 
Sugrue about trying to get this implemented as fast as we can, 
you said that we're well on our way and we want to have good 
faith estimates in terms of exactly the reasons when a waiver 
is given, to find out what that implementation timeframe will 
be for them to get a waiver. In fact, you've denied it when 
that's occurred and when you hear about some of the costs and 
obviously you look at the volume, you look at the different 
situations, whether it would be in Eastern Tennessee or in the 
Upper Peninsula of Michigan, Chicago, the Golden Mile in 
Chicago, the loop and everything else, obviously, but as we all 
travel, we all take our phones and last night I got a call from 
my carrier wanting to upgrade the phone and made the comment 
that it doesn't work in Michigan. Well, it does now. And 
there's going to be a roaming charge with it as well, so that 
911, when you hit that in St. Joe or Benton Harbor or 
Kalamazoo, it's going to work just like it does here in 
Virginia or DC or Arlington, where I live when I'm here. So 
this is an important issue. Yes, it does save lives. That 
technology that all of us have, even for our teenagers is here 
and we want to make sure that it works and----
    Mr. Green. Mr. Chairman, if you would just yield. I know, 
in fact, one of the reasons seemed like I have to sign a new 
plan any time to get a new phone anyway.
    Mr. Upton. They sent me a letter, but they followed it up 
with a phone call, so I'm glad----
    Mr. Green. It's all part of the negotiation because thank 
goodness we do have 4 or 5 carriers in most urban areas, but we 
do have the technology and I have a phone that I take with me 
everywhere. I just wish that it would also work in Mexico. But 
that's our next goal. But we have it and I think it's provided 
in that coverage that 10 years ago we didn't have or 5 years 
ago, but by doing E911 we'll make that happen.
    Thank you.
    Mr. Upton. Again, I appreciate all your testimony. We may 
follow up with some questions for the record, but we will now 
adjourn the hearing. Thank you.
    [Whereupon, at 1:10 p.m., the hearing was adjourned.]
</pre></body></html>
